<html>
<title> - DEFENDING OUR DEMOCRACY: BUILDING PARTNERSHIPS TO PROTECT AMERICA'S ELECTIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




  DEFENDING OUR DEMOCRACY: BUILDING PARTNERSHIPS TO PROTECT AMERICA'S 
                               ELECTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           FEBRUARY 13, 2019
                               __________

                            Serial No. 116-1
                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                    
        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
35-094 PDF                 WASHINGTON : 2019         
        
        
        
        
        
        

                               __________

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Mr. Christopher C. Krebs, Director, Cybersecurity and 
  Infrastructure Security Agency, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Thomas Hicks, Commissioner, U.S. Election Assistance 
  Commission:
  Oral Statement.................................................    13
  Prepared Statement.............................................    16

                                Panel II

Mr. Alex Padilla, Secretary of State, California:
  Oral Statement.................................................    61
  Prepared Statement.............................................    62
Mr. Noah Praetz, Former Director of Elections, Cook County, 
  Illinois:
  Oral Statement.................................................    65
  Prepared Statement.............................................    66
Mr. Jake Braun, Executive Director, Cyber Policy Initiative:
  Oral Statement.................................................    75
  Prepared Statement.............................................    77
Mr. John H. Merrill, Secretary of State, Alabama:
  Oral Statement.................................................    78
  Prepared Statement.............................................    80

                             FOR THE RECORD

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Letter, Brennan Center for Justice.............................    48
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Article........................................................    93

                                APPENDIX

Questions From Chairman Bennie G. Thompson for Christopher C. 
  Krebs..........................................................    95
Questions From Honorable Sheila Jackson Lee for Christopher C. 
  Krebs..........................................................    95
Questions From Honorable James R. Langevin for Christopher C. 
  Krebs..........................................................    96
Questions From Honorable Dina Titus for Christopher C. Krebs.....    96
Questions From Honorable Yvette D. Clarke for Christopher C. 
  Krebs..........................................................    96
Questions From Honorable Michael T. McCaul for Christopher C. 
  Krebs..........................................................    97
Questions From Chairman Bennie G. Thompson for Thomas Hicks......    97
Questions From Honorable Sheila Jackson Lee for Thomas Hicks.....    99
Questions From Honorable Dina Titus for Thomas Hicks.............   101
Question From Honorable Yvette D. Clarke for Thomas Hicks........   102
Questions From Honorable Michael T. McCaul for Thomas Hicks......   102
Questions From Honorable Sheila Jackson Lee for Alex Padilla.....   103
Question From Honorable James R. Langevin for Alex Padilla.......   104
Question From Honorable Dina Titus for Alex Padilla..............   104
Questions From Honorable Yvette D. Clarke for Alex Padilla.......   104
Question From Honorable Michael T. McCaul for Alex Padilla.......   104
Questions From Honorable Sheila Jackson Lee for Noah Praetz......   105
Question From Honorable James R. Langevin for Noah Praetz........   107
Question From Honorable Dina Titus for Noah Praetz...............   108
Questions From Honorable Michael T. McCaul for Noah Praetz.......   108
Questions from Honorable Sheila Jackson Lee for Jake Braun.......   109
Questions from Honorable James R. Langevin for Jake Braun........   110
Question From Honorable Dina Titus for Jake Braun................   112
Questions From Honorable Sheila Jackson Lee for John H. Merrill..   112
Questions From Honorable James R. Langevin for John H. Merrill...   114
Question From Honorable Dina Titus for John H. Merrill...........   114
Questions From Honorable Yvette D. Clarke for John H. Merrill....   114
Question From Honorable Michael T. McCaul for John H. Merrill....   115

 
  DEFENDING OUR DEMOCRACY: BUILDING PARTNERSHIPS TO PROTECT AMERICA'S 
                               ELECTIONS

                              ----------                              


                      Wednesday, February 13, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room 310, Cannon House Office Building, Hon. Bennie G. Thompson 
(Chairman of the committee) presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Payne, Rice, Correa, Torres Small, Rose, Underwood, Slotkin, 
Cleaver, Green of Texas, Clarke, Titus, Watson Coleman, 
Barragan, Demings, Rogers, King, Katko, Ratcliffe, Walker, 
Higgins, Lesko, Green of Tennessee, Taylor, Joyce, Crenshaw, 
and Guest.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. I welcome the Members to the first hearing of 
the Committee on Homeland Security of the 116th Congress. I 
appreciate your flexibility and that of our witnesses after we 
rescheduled the hearing due to the services of late Chairman 
John Dingell. Our thoughts and prayers are with his wife.
    Today the committee will hold a hearing on defending our 
democracy, building partnerships to protect America's 
elections. Election security is a National security issue and 
it must transcend party politics because it requires a unified 
effort to protect America's elections. Unfortunately, this 
hearing is long overdue. During the 115th Congress, the 
Republican Majority spent much of its time ignoring the 
intelligence and refusing to acknowledge the threat to our 
democracy.
    Frustrated by the lack of action on this critical issue, 
Democrats on this committee and the Committee on House 
Administration launched the Congressional Task Force on 
Election Security in July 2017. The task force met with dozens 
of elections experts, secretaries of State elections, and 
National security experts to assess vulnerabilities in election 
infrastructure and determine how to address them.
    In February 2018, the task force produced a report that 
included 10 recommendations and introduced legislation to 
implement them. That legislation is now part of H.R. 1, the For 
the People Act, which the House is expected to consider in the 
coming weeks.
    Fortunately, since 2016, progress has been made toward more 
secure elections. The Department of Homeland Security and 
Election Assistance Commission have built stronger, more 
effective partnerships with State and local election officials. 
But it is unclear whether each agency has the resources 
necessary to meet the increasing demand for their resources.
    Will EAC's $10 million budget provide sufficient resources 
for it to administer additional election security grants to 
States? Does DHS have the resources to provide its services to 
every State and county that requests them?
    Congress needs to understand the existing capability of 
each agency. Now, existing capabilities can be leveraged, 
grown, and augmented. Local election officials are on the front 
lines of securing our elections, and their success depends on 
the support they receive from Federal and State governments.
    Although some dispute that has--the election infrastructure 
local election officials oversee is vulnerable to hacking, 
cybersecurity experts have made a credible case. The Federal 
Government, especially Congress, must understand the resource 
constraints of local election officials and partner with them 
to address vulnerabilities to election infrastructure through 
grants and services.
    The intelligence community has made clear the threats to 
our elections persist, so more work remains to be done. Just 
last month, Director of National Intelligence Dan Coats, 
warned, Russia in 2016 and unidentified actors as recently as 
2018 have already conducted cyber activity that has targeted 
U.S. election infrastructure.
    He went on to say, we should expect adversaries and 
strategic competitors to refine their capabilities and add new 
tactics as they learn from each other's experiences in advance 
of the 2020 elections.
    I look forward to hearing from our panel of witnesses today 
about how Congress and Federal agencies can support efforts to 
further strengthen our elections and protect them from attack.
    I welcome our Republican colleagues' support in these 
efforts and I look forward to working with all those whose goal 
is to protect America's elections and defend our democracy.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                           February 13, 2019
    Election security is a National security issue that must transcend 
party politics, because it requires a unified effort to protect 
America's elections. Unfortunately, this hearing is long overdue. 
During the 115th Congress, the Republican Majority spent much of its 
time ignoring the intelligence and refusing to acknowledge the threat 
to our democracy.
    Frustrated by the lack of action on this critical issue, Democrats 
on this committee and the Committee on House Administration launched 
the Congressional Task Force on Election Security in July 2017. The 
Task Force met with dozens of elections experts, State election 
officials, and National security experts to assess vulnerabilities in 
election infrastructure and determine how to address them. In February 
2018, the Task Force produced a report that included 10 recommendations 
and introduced legislation to implement them.
    That legislation is now part of H.R. 1, the For the People Act, 
which the House is expected to consider in the coming weeks. 
Fortunately, since 2016, progress has been made toward more secure 
elections.
    The Department of Homeland Security and Election Assistance 
Commission (EAC) have built stronger, more effective partnerships with 
State and local election officials. But it is unclear whether either 
agency has the resources necessary to meet the increasing demand for 
their resources.
    Will EAC's $10 million budget provide sufficient resources for it 
to administer additional election security grants to States? Does DHS 
have the resources to provide its services to every State and county 
that requests them?
    Congress needs to understand the existing capability of each agency 
and how existing capabilities can be leveraged, grown, and augmented. 
Local election officials are on the front lines of securing our 
elections, and their success depends on the support they receive from 
Federal and State governments.
    Although some dispute that the election infrastructure local 
election officials oversee is vulnerable to hacking, cybersecurity 
experts have made a credible case it is. The Federal Government--
especially Congress--must understand the resource constraints of local 
election officials and partner with them to address vulnerabilities to 
election infrastructure though grants and services.
    The intelligence community has made clear the threats to our 
elections persist, so more work remains to be done. Just last month, 
Director of National Intelligence Dan Coats warned, ``Russia in 2016 
and unidentified actors as recently as 2018 have already conducted 
cyber activity that has targeted U.S. election infrastructure.'' He 
went on to say we should expect ``adversaries and strategic competitors 
to refine their capabilities and add new tactics as they learn from 
each other's experiences'' in advance of the 2020 elections.
    I look forward to hearing from our panel of witnesses today about 
how Congress and Federal agencies can support efforts to further 
strengthen our elections and protect them from attack. I welcome my 
Republican colleagues' support in these efforts, and I look forward to 
working with all those whose goal is to protect America's elections and 
defend our democracy.

    Chairman Thompson. I now recognize the Ranking Member of 
the full committee, the gentleman from Alabama, Mr. Rogers, for 
an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman.
    I look forward to the opportunity to hear from our 
witnesses today regarding election security. The integrity of 
our elections is foundational to our democracy. All Americans 
should have confidence that voting equipment and systems are 
secure and your vote counts as they intended and that election 
results are accurately reported.
    Last week DHS and DOJ released their findings that there 
was no evidence of any foreign interference in the 2018 
election. I believe that the tremendous work done by DHS, our 
intelligence community and State and local leaders made that 
happen but there is certainly more work that can be done.
    Much of our focus today will be on the work we still need 
to do to secure the technology and systems behind our elections 
but we can't lose sight of a simple lesson: Foreign 
intelligence services, domestic partisans, and on-line vandals 
do not care what our laws say. They are happy to use our public 
forums against us. My home State saw liberal activists 
deliberately mislead Alabamians regarding public endorsements 
and political issues in the 2017 U.S. Senate Special Election.
    They bragged to liberal donors behind closed doors about 
their success in manipulating Alabama voters. H.R. 1 attempts 
to address these pressing issues but the bill's provisions are 
deeply naive. As it stands, H.R. 1 is an exercise in regulating 
everything that moves near a ballot box. The problems facing 
our election systems are more complex than that. Election 
security has long been a bipartisan priority for Members of 
this committee. It is my hope that this bipartisan tradition on 
this issue will continue in this Congress.
    We need a deliberative, bipartisan process to solve these 
issues. Unfortunately it appears our committee will not have an 
opportunity to mark up the election security provisions in our 
jurisdiction. That is unfortunate because the election security 
provisions in this bill could be improved and I know Members on 
both sides of this committee have some good ideas on how to 
make those improvements. As it stands now, much of H.R. 1's 570 
pages appear to be a political exercise.
    That is why I am very disappointed that election security, 
an issue where we have an opportunity to work together to move 
bipartisan legislation has gotten caught up--getting caught up 
in a partisan political grab.
    I hope that H.R. 1--when H.R. 1 stalls in the Senate, as it 
will, we will revisit the issue of election security in a 
bipartisan manner. I thank our witnesses for taking the time to 
speak to our committee about the work you are doing on the 
front lines of elections.
    I yield back, Mr. Chairman.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
    I look forward to the opportunity to hear from our witnesses today 
regarding election security. The integrity of our elections is 
foundational to our democracy.
    All Americans should have confidence that voting equipment and 
systems are secure, their vote counts as they intended, and that 
election results are accurately reported.
    Last week, DHS and DOJ released their findings that there was no 
evidence of any foreign interference in the 2018 election. I believe 
the tremendous work done by DHS, our intelligence community, and State 
and local leaders made that happen. But there is certainly more work to 
be done.
    Much of our focus today will be on the work we still need to do to 
secure the technology and systems behind our elections. But we can't 
lose sight of a simple lesson: Foreign intelligence services, domestic 
partisans, and on-line vandals do not care what our laws say. They are 
happy to use our public forums against us.
    My home State saw liberal activists deliberately mislead Alabamians 
regarding public endorsements and political issues in the 2017 U.S. 
Senate special election. They bragged to liberal donors behind closed 
doors about their success in manipulating Alabama voters.
    H.R. 1 attempts to address these pressing issues, but the bill's 
provisions are deeply naive. As it stands, H.R. 1 is an exercise in 
regulating everything that moves near a ballot box.
    The problems facing our election system are more complex than that. 
Election security has long been a bipartisan priority for Members of 
this committee.
    It is my hope that this bipartisan tradition on this issue will 
continue in this Congress. We need a deliberative, bipartisan process 
to solve these issues.
    Unfortunately, it appears our committee will not have an 
opportunity to mark up the election security provisions in our 
jurisdiction. That is unfortunate because the election security 
provisions of this bill could be improved.
    And I know Members on both sides of this committee have some good 
ideas on how make improvements. As it stands, much of H.R. 1's 570 
pages appear to be a political exercise.
    That is why I am very disappointed that election security, an issue 
where we had an opportunity to work together to move bipartisan 
legislation, has gotten caught up in this partisan political power 
grab.
    I hope when H.R. 1 does not advance in the Senate, we can revisit 
the issue of election security in a bipartisan manner.
    I thank our witnesses for taking to the time to speak to our 
committee about the work you are doing on the front lines of elections.

    Chairman Thompson. I thank the gentleman for his comments.
    Other Members of the committee are reminded that under the 
committee rules opening statements may be submitted for the 
record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
    Chairman Bennie G. Thompson thank you for holding today's hearing 
so that the committee may learn more about how the Department of 
Homeland Security is ``Defending Our Democracy: Building Partnerships 
to Protect America's Elections.''
    At the outset, let me congratulate you Mr. Chairman on your 
election to lead this august committee, and Mr. Rogers on his election 
as Ranking Member.
    Chairman Thompson, your participation in the House Administration 
Committee's Subcommittee on Elections Field Hearing held in 
Brownsville, Texas last week was substantive and impactful.
    Also, your skillful leadership in co-chairing the 115th Congress' 
Task Force on Election Security, which resulted in a report last year 
which informs our hearing this morning.
    I look forward to continuing working with the returning Members of 
the committee and welcome an outstanding cohort of new Members on both 
sides of the aisle, who I trust will find the important work advanced 
by this committee as fulfilling and rewarding as I have since joining 
its inception.
    I thank today's witnesses:
Panel 1
  <bullet> The Hon. Christopher C. Krebs, director, Cybersecurity and 
        Infrastructure Security Agency, U.S. Department of Homeland 
        Security; and
  <bullet> The Hon. Thomas Hicks, chairman, Election Assistance 
        Commission.
Panel 2
  <bullet> The Hon. Alex Padilla, secretary of state, California;
  <bullet> Mr. Noah Praetz, former director of elections, Cook County, 
        Illinois;
  <bullet> Mr. Jake Braun, executive director, Cyber Policy Initiative, 
        University of Chicago; and
  <bullet> The Hon. John Merrill, secretary of state, Alabama (Minority 
        witness).
    I thank each of today's witnesses for bringing their expert view on 
the partnerships among Federal, State, and local agencies responsible 
for ensuring the integrity of elections have matured since 2016 and 
about the resources and support necessary to prepare for the 2020 
Presidential elections.
    The efforts to ensure that every eligible person can register to 
vote, and cast a vote in a public election have spanned generations.
    I have been persistent in my efforts to protect the rights of 
disenfranchised communities in my district of inner-city Houston and 
across the Nation.
    Throughout my tenure in Congress, I have cosponsored dozens of 
bills, amendments, and resolutions seeking to improve voters' rights at 
all stages and levels of the election process.
    This includes legislation aimed at:
    1. Increasing voter outreach and turnout;
    2. Ensuring both early and same-day registration;
    3. Standardizing physical and language accessibility at polling 
        places;
    4. Expanding early voting periods;
    5. Decreasing voter wait times;
    6. Guaranteeing absentee ballots, especially for displaced 
        citizens;
    7. Modernizing voting technologies and strengthening our voter 
        record systems;
    8. Establishing the Federal Election Day as a National holiday; and
    9. Condemning and criminalizing deceptive practices, voter 
        intimidation, and other suppression tactics.
    Along with many of my colleagues in the CBC, I was an original 
cosponsor of H.R. 9, the Fannie Lou Hamer, Rosa Parks, and Coretta 
Scott King Voting Rights Act Reauthorization and Amendments Act, which 
became public law on July 27, 2006.
    I also authored H.R. 745 in the 110th Congress, which added the 
legendary Barbara Jordan to the list of civil rights trailblazers whose 
names honor the Voting Rights Act Reauthorization and Amendments Act.
    This bill strengthened the original Voting Rights Act by replacing 
Federal voting examiners with Federal voting observers--a significant 
distinction that made it easier to safeguard against racially-biased 
voter suppression tactics.
    In the 114th Congress, I introduced H.R. 75, the Coretta Scott King 
Mid-Decade Redistricting Prohibition Act of 2015, which would prohibit 
States whose Congressional districts have been redistricted after a 
decennial census from redrawing their district lines until the next 
census.
    The voting rights struggles of the 20th Century are now joined by 
voting rights threats posed by the 21st Century.
    Russia an adversary of the United States engaged in repeated 
attempts to interfere in the 2016 Presidential election, which prompted 
an unprecedented all-of-Government effort to alert local and State 
election administrators to be aware of the threat.
    Russia targeted our Presidential election according to the report, 
``Background to Assessing Russian Activities and Intentions in Recent 
U.S. Elections: The Analytic Process and Cyber Incident Attribution,'' 
provided by the Office of the Director of National Intelligence's 
National Intelligence Council.
    Russia used every cyber espionage tool available to influence the 
outcome of the Presidential election by using a multifaceted campaign 
that included theft of data; strategically-timed release of stolen 
information; production of fake news; and manipulation of facts to 
avoid blame.
    The Russian General Staff Main Intelligence Directorate (GRU) is 
suspected by our intelligence agencies of having begun cyber operations 
targeting the United States election as early as March 2016.
    They took on the persona of ``Guccifer 2.0,'' ``DCLeaks.com,'' and 
Wikileaks as the identities that would be reported as having 
involvement in the work they had under taken to undermine our Nation's 
Presidential election.
    Russia is blamed for breaching 21 local and State election systems, 
which they studied extensively.
    In February 2018, special counsel Robert Mueller released 
indictments of 13 Russians, at least one of whom has direct ties to 
Russian President Vladimir Putin.
    The 37-page indictment details the actions taken to interfere with 
the U.S. political system, including the 2016 U.S. Presidential 
election.
    Among the charges, which include charges for obstruction of 
justice, are several especially notable details.
    The indictment states that 13 defendants posed as U.S. persons and 
created false U.S. personas and operated social media pages and groups 
designed to attract U.S. audiences.
    The social media profiles ``addressed divisive U.S. political and 
social issues'' and falsely claimed to be controlled by U.S. activists.
    The defendants are also accused of using ``the stolen identities of 
real U.S. persons to post on social media accounts'' which, over time, 
became the chosen ``means to reach significant numbers of Americans for 
purposes of interfering with the U.S. political system, including the 
Presidential election of 2016.''
    The goal of the effort was to sow discord in the U.S. political 
system, including the 2016 US. Presidential election.
    The internet does not sleep--and nor do our Nation's on-line 
adversaries.
    That Russia used cyber intrusions to attack United States political 
institutions to collect data to manipulate the media and the public 
with the purpose of influencing the outcome of the 2016 Presidential 
elections is now an undisputed fact.
    The United States has enemies in other corners of the globe who 
would not hesitate to attack our election system if given the chance.
    These foreign adversaries do not share our commitment to democracy, 
liberty, and human rights, or the precious freedoms we hold dear.
    On January 6, 2017, Homeland Security Secretary Johnson, as one of 
his last official acts under the Obama administration, designated 
election systems as critical infrastructure, and created a new 
subsector under the existing Government Facilities Sector designation.
    On that same day, President Elect-Trump was briefed by the 
intelligence community that Vladimir Putin had directed the cyber 
attack on the United States of America.
    Since then, intelligence officials have continued to warn that 
foreign governments--including Russia, Iran, and China--could attempt 
to interfere in U.S. elections.
    In March 2017, then-Federal Bureau of Investigation (FBI) Director 
James Comey testified before the House Permanent Select Committee on 
Intelligence that the Russians are not finished and that they will be 
back.
    In February 2018, six intelligence agency chiefs issued a dire 
warning about the Kremlin's on-going efforts to influence the U.S. 
elections.
    On January 29, 2019, the director of national intelligence 
testified before the Senate Select Committee on Intelligence that our 
adversaries ``probably already are looking to the 2020 U.S. elections 
as an opportunity to advance their interests.''
    The House Committee on Homeland Security has the responsibility of 
providing for the cybersecurity of Federal civilian agencies as well as 
the security of the Nation's 16 critical infrastructure sectors from 
cyber and other threats.
    The Election Infrastructure Subsector covers a wide range of 
physical and electronic assets such as storage facilities, polling 
places, and centralized vote tabulation locations used to support the 
election process, and information and communications technology to 
include voter registration databases, voting machines, and other 
systems to manage the election process and report and display results 
on behalf of State and local governments.
    The work to secure our Nation's election system from cyber threats 
is on-going, which is why this hearing is relevant.
    I look forward to the committee's markup of H.R. 1, the ``For The 
People Act,'' critical legislation to repair and strengthen our 
democracy.
    While this bill's language brings much-needed improvements to 
election administration by providing a funding stream to support the 
replacement of outdated voting systems, and support for the 
administration of Federal elections there is still more that must be 
done.
    Specifically, that we should be mindful of the provision of voting 
systems for in-person voting and allow for sufficient machines to serve 
the population that will cast ballots at each polling location during 
early voting and on election day.
    The U.S. Department of Homeland Security's (DHS) mission in 
cybersecurity and infrastructure protection is focused on enhancing 
greater collaboration on cybersecurity across the 16 critical 
infrastructure sectors and the sharing of cyber threat information 
between the private sector and Federal, State, and local partners.
    This committee will work hand-and-glove with the House Judiciary 
and House Administration Committees as well as the Senate Committees to 
ensure that the tools applied to the current threat to our elections is 
effectively and adequately addressed.
    We know the threats that computing devices and systems face, which 
are almost too numerous to count:
  <bullet> Bot-nets;
  <bullet> Ransom-ware;
  <bullet> Zero Day Events;
  <bullet> Mal-ware;
  <bullet> Denial-of-Service Attacks;
  <bullet> Distributed Denial-of-Service Attacks;
  <bullet> Pharming;
  <bullet> Phishing;
  <bullet> Data Theft;
  <bullet> Data Breaches;
  <bullet> SQL Injection;
  <bullet> Man-in-the-middle attack.
    The list goes on, but suffice it to say that as hard as one person 
in our Government is working to stop cyber attacks there are likely 
another thousand attempting to breach a system or device owned by a 
United States citizen.
    During the 2016 election we learned of new threats from cyber space 
that go far beyond any that would have been considered in previous 
elections.
    This Congress is poised to do the hard work of delving into the 
issue of Russian involvement in our national election and providing 
solutions.
    The work today must focus on election recovery should a serious 
cyber incident occur during an election.
    Vulnerabilities of computing systems are not limited to intentional 
attacks, but can include acts of nature, human error, or technology 
failing to perform as intended.
    I am particularly concerned that so many jurisdictions rely on 
electronic poll books, to check-in voters before issuing them ballots, 
with no paper back-ups.
    Finally, the use of untrustworthy paperless electronic voting 
machines without sufficient paper ballot options will come to an end 
when H.R. 1 becomes law.
    The right and better approach to election cybersecurity is to be 
prepared and not need options for voters to cast ballots should voting 
systems fail, rather than being unprepared and needing options for 
voters to cast ballots during an election that are not available.
    We must be steadfast in our resolve to have a strong shield to 
defend civilian and critical infrastructure networks for all threats 
foreign and domestic.
    I look forward to the testimony of today's witnesses.
    Thank you.

    Chairman Thompson. I would like to extend a welcome to our 
first panel of witnesses. First I would like to welcome Chris 
Krebs, the director of DHS's Cybersecurity and Infrastructure 
Security Agency back to testify before this panel. Director 
Krebs has been at the helm of DHS's cybersecurity activities 
since 2017 and he has been an integral player in shaping and 
developing the Department's election security capabilities.
    Next I am pleased to welcome Mr. Tom Hicks, the current 
chairman of the U.S. Election Assistance Commission, and also 
congratulate him on swearing in a new batch of election 
assistance commissioners.
    We had the opportunity to hear from the chairman in 2017, 
when he came to speak before the Congressional Task Force on 
Election Security. I look forward to hearing about his work 
since that time. Without objection, the witnesses' full 
statements will be inserted in the record. I now ask each 
witness to summarize his statement for 5 minutes, beginning 
with Mr. Krebs.

STATEMENT OF CHRISTOPHER C. KREBS, DIRECTOR, CYBERSECURITY AND 
  INFRASTRUCTURE SECURITY AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Krebs. Thank you. Chairman Thompson, Ranking Member 
Rogers, and Members of the committee. Good morning and thank 
you for the opportunity to testify regarding the Department of 
Homeland Security's efforts to secure the vote. First, however, 
I would like to, once again, thank this committee for its 
leadership in establishing the Cybersecurity and Infrastructure 
Security Agency, or CISA.
    By creating our new agency and law, Congress formally 
recognized DHS's role as the leader of the National effort to 
safeguard Federal networks and critical infrastructure from 
cyber and physical threats. On behalf of the agency, once 
again, thank you. This morning, I want to update this committee 
on the progress made over the last 2 years working with the 
election community.
    CISA's election security mission is clear, to support the 
efforts of election officials and their private-sector partners 
consistent with the Constitution, existing law, and electoral 
tradition. Since 2016 we have learned quite a bit through 
partners like the Election Assistance Commission, and thousands 
of election officials across the country, like you will hear in 
the next panel, that know elections.
    They know their systems. They know what they need to 
conduct a successful election. Over the last 2 years, in 
focused, oftentimes humbling engagements, we have become 
partners with the election community. For the 2018 election, we 
worked with all 50 States, over 1,400 local and territorial 
election offices, 6 election associations, and 12 election 
vendors.
    Our approach is threefold: Making sure the community has--
the election community has the information they need to defend 
their systems, making sure the election community has the 
technical support and tools they need to defend their systems, 
and building enduring partnering--partnerships to enhance 
resilience, and advance security efforts together.
    In 2018 we focused on building scalable, repeatable 
mechanisms to dramatically grow our information-sharing 
capabilities. The Elections Infrastructure Information Sharing 
and Analysis Center, or EI-ISAC was established. By Election 
Day, EI-ISAC had over 1,400 members, the fastest-growing ISAC 
of any critical infrastructure sector.
    We share contextualized threat information and actionable--
threat intelligence and actionable information that was 
enriched through our close partnership with the intelligence 
community and law enforcement.
    More importantly, State and local election officials were 
sharing what they were seeing on their own networks. We also 
deployed intrusion detection capabilities, or Albert Sensors, 
to provide real-time detection capabilities on election 
networks.
    As of Election Day in 2018, these sensors offered 
protections to election infrastructure and voter registration 
databases for more than 90 percent of registered voters. For 
reference, during the 2000 election, we were below 30 percent 
of coverage.
    Second, we provide technical support and services to 
election officials and vendors. Initially, we offered our 
standard services, including cyber hygiene, scans, and risk 
invulnerability assessments that we offer Federal agencies and 
other infrastructure sectors.
    As we refined our understanding of election officials' 
requirements, we shifted to capabilities that are quicker, less 
intrusive, and can scale to more jurisdictions. This 
scalability is critical because while our initial efforts in 
2016 were primarily targeted in State--State election 
officials, we recognize the need to increase our support to 
counties and municipalities who operate elections as well.
    Our Last Mile Initiative sought to provide information 
customized to the local county level. This initiative provided 
no-cost tailored information on cyber safeguards, threats and 
risks, and a checklist of cybersecurity action items.
    The final area of focus has been building enduring 
partnerships toward a collective defense. While it may seem 
mundane, governance, communications, coordination, training, 
and planning are the critical foundational elements of our 
Nation's efforts to secure our elections.
    These efforts, and others, contributed to a secure 2018 
election. The Department of Homeland Security and the 
Department of Justice recently concluded there is no evidence 
that any identified activities of a foreign government or a 
foreign agent had a material impact on the integrity or 
security of election infrastructure or political campaign 
infrastructure used in the 2018 midterm elections.
    While 2018 is behind us, the 2020 election season is 
already under way. We are clear-eyed that the threat to our 
democratic institutions remain, and we must continue to press 
for increased security and resilience of our election systems. 
Over the next 2 years, CISA will focus on expanding engagement 
to the local level.
    We will continue to work with election officials to improve 
both, there and our understanding of risk. With that better 
understanding of risk, we can support efforts by election 
officials and Congress to obtain the resources they need to 
secure their election systems. Once again, thank you for the 
opportunity to appear before the committee today. I look 
forward to your questions.
    [The prepared statement of Mr. Krebs follows:]
               Prepared Statement of Christopher C. Krebs
                           February 13, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, thank you for the opportunity to testify regarding the U.S. 
Department of Homeland Security's (DHS) progress in reducing and 
mitigating risks to our Nation's election infrastructure. DHS has 
worked to establish trust-based partnerships with State and local 
officials who administer our elections, and I look forward to sharing 
with you an update on our work during the 2018 midterm election cycle.
    Leading up to the 2018 midterms, DHS worked hand-in-hand with 
Federal partners, State and local election officials, and private-
sector vendors to provide them with information and capabilities to 
enable them to better defend their infrastructure. This partnership led 
to a successful model that we aim to continue and improve upon in the 
2020 election cycle.
    Since 2016, DHS's Cybersecurity and Infrastructure Security Agency 
(CISA) has led a voluntary partnership of Federal Government and 
election officials who regularly share cybersecurity risk information. 
CISA has engaged directly with election officials--coordinating 
requests for assistance, risk mitigation, information sharing, and 
incident response. To ensure a coordinated approach, CISA convened 
stakeholders from across the Federal Government through the Election 
Task Force.
    The Department and the Election Assistance Commission (EAC) have 
convened Federal Government and election officials regularly to share 
cybersecurity risk information and to determine an effective means of 
assistance. Since 2016, the Election Infrastructure Subsector (EIS) 
Government Coordinating Council (GCC) has worked to establish goals and 
objectives, to develop plans for the EIS partnership, and to lay the 
groundwork for developing an EIS Sector-Specific Plan. Participation in 
the council is voluntary and does not change the fundamental role of 
State and local jurisdictions in overseeing elections.
    DHS and the EAC have also worked with election vendors to launch an 
industry-led Sector Coordinating Council (SCC), a self-organized, self-
run, and self-governed council with leadership designated by sector 
membership. The SCC serves as the industry's principal entity for 
coordinating with the Federal Government on critical infrastructure 
security activities related to sector-specific strategies. This 
collaboration is conducted under DHS's authority to provide a forum in 
which Federal and private-sector entities can jointly engage in a broad 
spectrum of activities to coordinate critical infrastructure security 
and resilience efforts, which is used in each of the critical 
infrastructure sectors established under Presidential Policy Directive 
21, Critical Infrastructure Security and Resilience. The SCC has helped 
DHS further its understanding of the systems, processes, and 
relationships particular to operation of the EIS.
    Within the context of today's hearing, I will address our efforts 
in 2018 to help enhance the security of elections that are administered 
by jurisdictions around the country, along with our election-related 
priorities through 2020. While there was activity targeting our 
election infrastructure leading up to the midterms, this activity is 
similar to what we have seen previously and occurs on the internet 
every day. This activity has not been attributed to nation-state actors 
and along with the Department of Justice (DOJ), we concluded that there 
is no evidence to date that any identified activities of a foreign 
government or foreign agent had a material impact on the integrity or 
security of election infrastructure or political or campaign 
infrastructure used in the 2018 midterm elections.
                          assessing the threat
    The Department regularly coordinates with the intelligence 
community and law enforcement partners on potential threats to the 
homeland. Among non-Federal partners, DHS has engaged with State and 
local officials, as well as relevant private-sector entities, to assess 
the scale and scope of malicious cyber activity potentially targeting 
the U.S. election infrastructure. Election infrastructure includes the 
information and communications technology, capabilities, physical 
assets, and technologies that enable the registration and validation of 
voters; the casting, transmission, tabulation, and reporting of votes; 
and the certification, auditing, and verification of elections.
    In addition to working directly with State and local officials over 
the past 2 years, we have partnered with trusted third parties to 
analyze relevant cyber data, including the Elections Infrastructure 
Information Sharing and Analysis Center (EI-ISAC), the National 
Association of Secretaries of State, and the National Association of 
State Election Directors. DHS field personnel deployed around the 
country furthered information sharing and enhanced outreach.
                           enhancing security
    During the 2018 midterms, CISA provided a coordinated response from 
DHS and its Federal partners to plan for, prepare for, and mitigate 
risk to election infrastructure. Working with election infrastructure 
stakeholders was essential to ensuring a more secure election. CISA and 
our stakeholders increased awareness of potential vulnerabilities and 
provided capabilities to enhance the security of U.S. election 
infrastructure as well as that of our democratic allies.
    Election officials across the country have a long-standing history 
of working both individually and collectively to reduce risks and 
ensure the integrity of their elections. In partnering with these 
officials through both new and on-going engagements, CISA will continue 
to work to provide value-added--yet voluntary--services to support 
their efforts to secure elections in the 2020 election cycle.
  improving coordination with state, local, tribal, territorial, and 
                        private-sector partners
    Increasingly, the Nation's election infrastructure leverages 
information technology for efficiency and convenience, but also exposes 
systems to cybersecurity risks, just like in any other enterprise 
environment. Just like with other sectors, CISA helps stakeholders in 
Federal departments and agencies, State, local, Tribal, and territorial 
(SLTT) governments, and the private sector to manage these 
cybersecurity risks. Consistent with our long-standing partnerships 
with State and local governments, we have been working with election 
officials to share information about cybersecurity risks, and to 
provide voluntary resources and technical assistance.
    CISA works with the EI-ISAC to provide threat and vulnerability 
information to State and local officials. Through funding by CISA, the 
Center for Internet Security created and continues to operate the EI-
ISAC. The EI-ISAC has representatives co-located with CISA's National 
Cybersecurity and Communications Integration Center (NCCIC) to enable 
regular collaboration and access to information and services for 
election officials.
         providing technical assistance and sharing information
    Knowing what to do when a security incident happens--whether 
physical or cyber--before it happens is critical. CISA supports 
election officials with incident response planning including 
participating in exercises and reviewing incident response playbooks. 
Crisis communications is a core component of these efforts, ensuring 
officials are able to communicate transparently and authoritatively 
when an incident unfolds. In some cases, we do this directly with State 
and local jurisdictions. In others, we partner with outside 
organizations. We recognize that securing our Nation's systems is a 
shared responsibility, and we are leveraging partnerships to advance 
that mission. CISA actively promotes a range of services including:
    Cyber hygiene service for internet-facing systems.--Through this 
automated, remote scan, CISA provides a report identifying 
vulnerabilities and mitigation recommendations to improve the 
cybersecurity of systems connected to the internet, such as on-line 
voter registration systems, election night reporting systems, and other 
internet-connected election management systems.
    Risk and vulnerability assessments.--We have prioritized State and 
local election systems upon request, and increased the availability of 
risk and vulnerability assessments. These in-depth, on-site evaluations 
include a system-wide understanding of vulnerabilities, focused on both 
internal and external systems. We provide a full report of 
vulnerabilities and recommended mitigations following the testing.
    Incident response assistance.--We encourage election officials to 
report suspected malicious cyber activity to NCCIC. Upon request, the 
NCCIC can provide assistance in identifying and remediating a cyber 
incident. Information reported to the NCCIC is also critical to the 
Federal Government's ability to broadly assess malicious attempts to 
infiltrate election systems. This technical information will also be 
shared with other State officials so they have the ability to defend 
their own systems from similar malicious activity.
    Information sharing.--CISA maintains numerous platforms and 
services to share relevant information on cyber incidents. Election 
officials may also receive information directly from the NCCIC. The 
NCCIC also works with the EI-ISAC, allowing election officials to 
connect with the EI-ISAC or their State chief information officer to 
rapidly receive information they can use to protect their systems. Best 
practices, cyber threat information, and technical indicators, some of 
which had been previously classified, have been shared with election 
officials in thousands of State and local jurisdictions. In all cases, 
the information sharing and use of such cybersecurity threat 
indicators, or information related to cybersecurity risks and incidents 
complies with applicable lawful restrictions on its collection and use 
and with DHS policies protective of privacy and civil liberties.
    Classified information sharing.--To most effectively share 
information with all of our partners--not just those with security 
clearances--DHS works with the intelligence community to rapidly 
declassify relevant intelligence or provide as much intelligence as 
possible at the lowest classification level possible. While DHS 
prioritizes declassifying information to the extent possible, DHS also 
provides Classified information to cleared stakeholders, as 
appropriate. DHS has been working with State chief election officials 
and additional election staff in each State to provide them with 
security clearances.
    Field-based cybersecurity advisors and protective security 
advisors.--CISA has more than 130 cybersecurity and protective security 
personnel available to provide actionable information and connect 
election officials to a range of tools and resources to improve the 
cybersecurity preparedness of election systems, and to secure the 
physical site security of voting machine storage and polling places. 
These advisors are also available to assist with planning and incident 
management for both cyber and physical incidents.
    Physical and protective security tools, training, and resources.--
CISA provides guidance and tools to improve the security of polling 
sites and other physical election infrastructure. This guidance can be 
found at www.dhs.gov/hometown-security. This guidance helps to train 
administrative and volunteer staff on identifying and reporting 
suspicious activities, active-shooter scenarios, and what to do if they 
suspect an improvised explosive device.
       election security efforts leading up to the 2018 midterms
    In the weeks leading up to the 2018 midterm elections, DHS 
officials supported a high degree of preparedness Nation-wide. DHS 
provided free technical cybersecurity assistance, continuous 
information sharing, and expertise to election offices and campaigns. 
EI-ISAC threat alerts were shared with all 50 States, over 1,400 local 
and territorial election offices, 6 election associations, and 12 
election vendors.
    In August 2018, DHS hosted a ``Tabletop the Vote'' exercise, a 3-
day, first-of-its-kind exercise to assist our Federal partners, State 
and local election officials, and private-sector vendors in identifying 
best practices and areas for improvement in cyber incident planning, 
preparedness, identification, response, and recovery. Through tabletop 
simulation of a realistic incident scenario, exercise participants 
discussed and explored potential impacts to voter confidence, voting 
operations, and the integrity of elections. Partners for this exercise 
included 44 States and the District of Columbia; EAC; Department of 
Defense, including the Office of the Secretary of Defense, U.S. Cyber 
Command, and the National Security Agency; DOJ; Federal Bureau of 
Investigation; Office of the Director of National Intelligence; and 
National Institute of Standards and Technology (NIST).
    Through the ``Last Mile Initiative,'' DHS worked closely with State 
and local governments to outline critical cybersecurity actions that 
should be implemented at the county level. For political campaigns, DHS 
disseminated a cybersecurity best practices checklist to help 
candidates and their teams better secure their devices and systems.
    On Election Day, DHS deployed field staff across the country to 
maintain situational awareness and connect election officials to 
appropriate incident response professionals, if needed. In many cases, 
these field staff were co-located with election officials in their own 
security operations centers. DHS also hosted the National Cybersecurity 
Situational Awareness Room, an on-line portal for State and local 
election officials and vendors that facilitates rapid sharing of 
information. It gives election officials virtual access to the 24/7 
operational watch floor of the CISA NCCIC. This setup allowed DHS to 
monitor potential threats across multiple States at once and respond in 
a rapid fashion.
    Our goal has been for the American people to enter the voting booth 
with the confidence that their vote counts and is counted correctly. I 
am proud to say that our efforts over the past 2 years have resulted in 
the most secure election in modern history.
                  no evidence of election interference
    The Secretary of Homeland Security and the Acting Attorney General 
have concluded that there is no evidence to date that any identified 
activities of a foreign government or foreign agent had a material 
impact on the integrity or security of election infrastructure or 
political or campaign infrastructure used in the 2018 midterm elections 
for the U.S. Congress. The activity we did see was consistent with what 
we shared in the weeks leading up to the election. Russia, and other 
foreign countries, including China and Iran, conducted influence 
activities and messaging campaigns targeted at the United States to 
promote their strategic interests.
                election security efforts moving forward
    Ensuring the security of our electoral process remains a vital 
National interest and one of our highest priorities at DHS. In the run-
up to the 2020 election season, DHS will continue to prioritize 
elections by broadening the reach and depth of information sharing and 
assistance that we are providing to State and local election officials, 
and continuing to share information on threats and mitigation tactics.
    DHS goals for the 2020 election cycle include improving the 
efficiency and effectiveness of election audits, continued 
incentivizing the patching of election systems, and working with the 
National Institute of Standards and Technology (NIST) and the States to 
develop cybersecurity profiles utilizing the NIST Cybersecurity 
Framework for Improving Critical Infrastructure. We will also continue 
to engage any political entity that wants our help. DHS offers these 
entities the same tools and resources that we offer to State and local 
election officials, including trainings, cyber hygiene support, 
information sharing, and other resources.
    DHS has made tremendous strides and has been committed to working 
collaboratively with those on the front lines of administering our 
elections to secure election infrastructure from risks. Just last week, 
DHS officials provided updates to the secretaries of state, State 
election directors, and members of the GCC and SCC on the full package 
of election security resources that are available from the Federal 
Government, along with a roadmap on how to improve coordination across 
these entities. DHS also worked with our intelligence community 
partners to provide a Classified 1-day read-in for these individuals 
regarding the current threats facing our election infrastructure.
    We will remain transparent as well as agile in combating and 
securing our physical and cyber infrastructure. However, we recognize 
that there is a significant technology deficit across SLTT governments, 
and State and local election systems, in particular. It will take 
significant and continual investment to ensure that election systems 
across the Nation are upgraded and secure, with vulnerable systems 
retired. These efforts require a whole-of-Government approach. The 
President and this administration are committed to addressing these 
risks.
    Our voting infrastructure is diverse, subject to local control, and 
has many checks and balances. As the threat environment evolves, DHS 
will continue to work with Federal agencies, State and local partners, 
and private-sector entities to enhance our understanding of the threat; 
and to make essential physical and cybersecurity tools and resources 
available to the public and private sectors to increase security and 
resiliency.
    Thank you for the opportunity to appear before the committee today, 
and I look forward to your questions.

    Chairman Thompson. Thank you for your testimony. I now 
recognize Mr. Hicks to summarize his statement for 5 minutes.

    STATEMENT OF THOMAS HICKS, COMMISSIONER, U.S. ELECTION 
                     ASSISTANCE COMMISSION

    Mr. Hicks. Good morning, Chairman Thompson and Ranking 
Member Rogers and Member of the committee. I am pleased to 
appear you today to offer testimony on the pressing issue of 
how to build partnerships to better protect American elections.
    Today's hearing comes 3 months after the 2018 midterm 
elections. Early estimates indicate that a record number of 
eligible Americans cast their vote in November. I congratulate 
the Nation's election administrators and their teams for a job 
well done, inspiring work that the staff and I saw, first-hand, 
as we travel across the Nation in the weeks surrounding the 
election.
    This work, coupled with improved lines of communications 
between Federal, State, and local officials and Federal 
agencies that serve them resulted in no indication of foreign 
attacks on our Nation's election infrastructure.
    The EAC is the only Federal agency focused solely on 
elections. This focus is of great value to election 
administrators and the voters they serve. The commission's 
mission and other mandates established under the Help America 
Vote Act, HAVA, are as relevant today as at any time since the 
watershed bipartisan legislation was signed into law.
    We commissioners and the EAC staff stand ready to roll up 
our sleeves to address the unique needs of those we serve. Just 
last week, two new commissioners, Benjamin Hovland and Ben 
Palmer--Donald Palmer were sworn in, joining Vice Chair 
McCormick and myself to make up a full slate of commissioners 
the agency has had in nearly a decade.
    Today's hearing and many of the commission's own efforts 
focus on election security, which is only one key component of 
election administration. I have attached to my written 
statement, a diagram that demonstrates the many different 
competencies that require election administrator's awareness 
and attention, knowledge of election law and election 
technology, to vote tabulation and post-election audits.
    Election officials must operate in each of these areas with 
no room for error. That is why the EAC works to provide its 
resources to each of our competencies. That is why we partner 
with other Federal agencies to leverage their subject-matter 
expertise.
    Some of the EAC's Federal partners include DOD, DHS, 
Department of Justice, National Institute of Standards and 
Technology, and the United States Postal Service. This morning 
I will briefly address the EAC's work to help States secure 
their elections, including efforts to swiftly and responsibly 
distribute $380 million in newly appropriated HAVA to States 
and the on-going work to test and certify voting systems.
    In the Consolidated Appropriations Act of 2018, Congress 
appropriated $380 million in HAVA to the States, in eligible 
territories for projects and programs to improve the 
administration of Federal elections. Within 3 months of the 
appropriation, the EAC received distributed requests for 100 
percent of the funds from all 55 eligible jurisdictions and 
States.
    One hundred percent of the funds were quickly distributed 
to eligible States and territories to draw down. The EAC staff 
is currently exam the--examining the Federal financial reports 
regarding how States spent funds last year, the recent Federal 
furlough has slightly delayed this process.
    But from our early assessments, we believe that about 58 
percent of the funds went toward shoring up election security 
and about 33 percent of the funds was used to purchase voting 
equipment.
    After we complete our 2018 spending analysis, we will 
provide more specific details about the expenditures and the 
State's future plans for using HAVA funds. The distribution of 
HAVA funds is only one example of the EAC's work to strengthen 
election security. The EAC serves as a central partner with DHS 
in ensuring that--the success of our National security efforts.
    DHS has stated that the election security for Government 
Coordinating Council, the GCC, was formed faster than any other 
similar critical infrastructure sector council today. The EAC 
took a needed early leadership role in working toward this 
accomplishment.
    Building on that success, the EAC convened discussions 
between election system vendors and DHS for the formulation of 
the Sector Coordinating Council, the SCC. Both the SCC and the 
GCC were formulated before the 2018 election year, less than 1 
year from the critical infrastructure designation by DHS.
    In addition, ahead of the 2018 mid-term elections, the EAC 
focused on steps our commission could take to further serve 
election officials operating in a new threat environment.
    On multiple occasions, the EAC brought together election 
officials, lawmakers, security experts, academics, and 
Government partners, for discussion and events to tackle this 
vital issue. While taking--talking about election security at 
forums is important, so is hands-on training.
    The EAC staff was involved in the establishment of Harvard 
University's Belfer Center tabletop exercise, which have since 
been conducted across the country. In addition, since 2015, the 
EAC has presented its election official as I.T. manager, 
training to officials representing hundreds of elections 
jurisdictions across the country and we will increase our 
efforts following the 2016 election.
    This training is available on-line through FVAP program, 
that many more election officials can easily access to complete 
these efforts. The EAC has also produced a video and supporting 
materials to help local election officials explain the many 
levels of election security for their jurisdictions.
    The final area I will highlight today during my testimony 
is the EAC's testing and certification program. The EAC--the 
Help America Vote Act charges the EAC with administrating a 
Federal program for setting voluntary voting system guidelines 
and testing for vendors may choose to have EAC accredited and 
monitored labs test their voting systems against those 
guidelines for certification.
    The guidelines contain requirements for security as well as 
other important components such as accessibility, usability, 
and interoperability. These components and functions of the 
same are deliberated and developed in public working groups 
under the direction of the EAC's Technical Guidelines 
Committee, which is chaired by the director and under secretary 
of commerce for standard and technology.
    After development and approval by the TGDC, the voluntary 
guidelines are submitted to the EAC's executive director, 
provided for the EAC's Standards Board and Board of Advisors, 
published for public comment and presented to the EAC's 
commissioners for consideration and approval.
    Last spring, the EAC conveyed its advisory boards to review 
and comment on the adoptions of the newest versions of the 
guidelines VVSG 2.0. Both boards recommended that the EAC adopt 
VVSG 2.0. Now that a quorum--I ask for 1 additional minute or 
30 seconds.
    [Laughter.]
    Chairman Thompson. Granted.
    Mr. Hicks. Thank you, sir.
    Quorum has restored to the EAC. We anticipate that the VVSG 
2.0 will soon be posted for public comment and we will hold 
public hearings on the proposed guidelines.
    Members of the committee, the EAC's mission includes 
supporting election officials across the country as they 
administer Federal elections and the EAC is committed to that 
work, to always seeking better ways to do it. I welcome your 
feedback and I look forward to answering questions you may 
have.
    [The prepared statement of Mr. Hicks follows:]
                   Prepared Statement of Thomas Hicks
                           February 12, 2019
    Good morning Chairman Thompson, Ranking Member Rogers, and Members 
of the committee. I am pleased to appear before you today to offer 
testimony on the pressing issue of how to build partnerships to better 
protect American elections. As the 2020 Presidential Election 
approaches and jurisdictions across the Nation prepare to host a number 
of State and local elections in the months ahead, I assure you that 
supporting election officials in their work--including providing 
election security tools and resources--is one of the most important 
responsibilities of the U.S. Election Assistance Commission, better 
known as the EAC.
    Today's hearing comes 3 months after the 2018 midterm election. 
Voter confidence in our election system is an issue the EAC often 
publicly addressed ahead of last year's election and it is 
intrinsically tied to the topics I will discuss today. With early 
estimates indicating that a record number of all eligible Americans 
participated in the 2018 midterms, it is important to recognize the 
incredible ingenuity and care that election officials and those with 
whom they work demonstrated ahead of the midterms and continue to 
exhibit today. It is this work that shores up the very foundation of 
our democracy and instills voter confidence. EAC Commissioners and the 
Commission's staff saw this first-hand in the weeks surrounding the 
midterm election as we traveled the Nation to observe everything from 
pre-election preparations to post-election audits. In 2018, the work of 
our Nation's election administrators and their teams, coupled with a 
dramatically improved line of communication between Federal, State, and 
local election officials and the Federal agencies that serve them, 
resulted in no indication of foreign attacks on our Nation's election 
infrastructure. I am proud of the role the EAC played in that 
coordinated effort.
    The EAC is the only Federal agency that focuses solely on 
elections, and this focus is of great value to election administrators 
and the voters they serve. The EAC's mission and other mandates 
established under the Help America Vote Act (HAVA) are as relevant 
today as at any other time since that watershed, bipartisan legislation 
was signed into law. When HAVA passed HAVA in 2002, Congress set out to 
make sweeping and much-needed reforms to the Nation's voting process. 
Congress established the EAC to serve as the Federal leader in helping 
States carry out that vision, and the Commission has done so 
successfully. The EAC has helped election officials in each State and 
U.S. territory identify and implement legally-required changes to the 
way America votes. The Commission has a strong relationship with State 
and local election leaders and the voters they serve, which makes 
progress possible and remains of great value as lawmakers consider 
additional ways to support the administration of Federal elections.
    We Commissioners and the exemplary EAC staff stand ready to roll up 
our sleeves to address the unique needs of those we serve. Just this 
week, two new EAC commissioners, Benjamin Hovland and Donald Palmer, 
were sworn in, joining Vice Chair Christy McCormick and me to make up 
the first full quorum of Commissioners the agency has had in nearly a 
decade. While the EAC has made great strides over the years, we always 
seek to do better and to do more.
    Certainly one of the primary focuses of our efforts, election 
security is only one component of election administration. I have 
attached a diagram to this testimony that demonstrates the many 
different competencies that require election administrator awareness 
and attention. Election officials must operate in each of these areas, 
so the EAC works on each of them. Knowledge of election law, finance, 
accessibility standards, security considerations, election technology, 
public relations and human resources are all core on-going election 
official responsibilities. As officials prepare to administer an 
election, they must be experts on mail, street file maintenance, voter 
registration, military and overseas voting, local candidates and 
campaign finance laws, project management, polling places and real 
estate, advance voting, and logistics. On Election Day and beyond, 
election officials must also direct activities such as voting and 
tabulation, canvassing, auditing, administering recounts, and carrying 
out list maintenance. Many of these topics are covered in the EAC's 
Election Administration and Voting Survey report to Congress, including 
the 2018 report that is under way now and will be delivered to you this 
summer.
    It is worth noting that in addition to this work, the EAC provides 
voters with vital resources and assistance needed to register to vote 
and to cast ballots, and it includes administering the National 
clearinghouse of election administration information to continually 
equip our partners in Congress, State and local government, private 
industry, advocacy organizations, other Federal agencies, academia, and 
others in the elections industry with the information they require and 
rely on.
    The EAC also works alongside Federal partners to leverage their 
subject-matter expertise to augment the EAC's whole-of-elections 
perspective with specialized products. The EAC works with these 
partners to produce EAC products, help other agencies better develop 
products for election stakeholders, and help our stakeholders 
understand and integrate these products into the context of their array 
of responsibilities. These partners include the Department of Defense, 
the Department of Justice, the Department of Homeland Security, the 
National Institute of Standards and Technology (NIST), and the United 
States Postal Service.
    Today I will focus my remarks on election security, one of the most 
integral components of the EAC's work. The EAC has worked diligently to 
help States secure their elections, especially in months leading up to 
last year's election. The EAC expeditiously distributed newly-
appropriated HAVA funds to the States, assisted our Federal partners in 
establishing and managing the critical infrastructure operational 
framework, continued to test and certify voting systems, and 
highlighted and distributed important best practices in election 
administration. This work yielded substantial benefits in 2018 and 
continues as we look ahead to 2020.
               distributing newly-appropriated hava funds
    In the Consolidated Appropriations Act of 2018, Congress 
appropriated $380 million in HAVA funds to the States and eligible 
territories for projects and programs to improve the administration of 
Federal elections. Within 3 months of the appropriation, the EAC 
received disbursement requests for 100 percent of the funds from all 55 
eligible States and territories, a remarkable percentage, and 100 
percent of the funds were quickly made available for the eligible 
States and territories to draw down.
    Less than 2 weeks after these new funds were signed into law by 
President Trump, the EAC issued Notice of Grant Award letters to each 
State. Within 3 weeks of the signing, Missouri became the first State 
to request its funds. In the subsequent 10 weeks, the EAC conducted a 
webcast public forum to explain how the funding would proceed, worked 
directly with the National Association of Secretaries of State (NASS) 
and the National Association of State Election Directors (NASED) to 
share information, conducted multiple webinars to further discuss how 
the funds may be used, consulted with members of the disability 
community to hear their views on use of the funds, and had frequent 
contact with each State in an effort to move the funds quickly.
    The EAC website also provides access to a set of Frequently Asked 
Questions regarding the funds. The attached map, also on the EAC 
website (www.eac.gov), shows the amount of funds appropriated to each 
State. The EAC fulfilled its promise to get the funds to the States as 
quickly as possible, and the Commission continues to consult with 
States and territories regarding the proper use of the funds, which 
were disbursed after the States provided a short narrative describing 
plans for how the funds will be used.
    The EAC has used the new HAVA funds not just as an opportunity to 
provide much-needed financial support to the States, but also as a 
mechanism to promote best-practice information sharing among election 
administrators. Details from the State plan documents have been shared 
with the entire election community and on the EAC website. It is 
essential that the States and territories have access to the wealth of 
ideas and innovative approaches contained in other States' 
individualized planned activities as they plan their own use of the 
funds. As we continue to work closely with the State and local leaders 
charged with spending these funds, the EAC's staff will continue to 
compile the information we receive so that the election community and 
others will have access to particulars of how the States and 
territories are expending their funds to further update and secure 
their election systems.
    The EAC's staff is currently examining Federal Financial Reports 
regarding how States spent funds last year. The recent Federal furlough 
has slightly delayed this process, but from our early assessment, we 
believe that about 58 percent of funds spent went toward shoring up 
election security and about 33 percent were used to purchase voting 
equipment. After we complete our 2018 spending analysis, we will 
provide more specific details about those expenditures and about 
States' future plans for using new HAVA funds. I've attached to this 
testimony two charts detailing how States initially indicated they 
planned to spend funds and the percentage of total funds allotted for 
activities such as election security and updating election equipment.
                   critical infrastructure activities
    The distribution of HAVA funds is only one example of the EAC's 
work related to election security. The EAC has been serving as a 
central partner with the Department of Homeland Security (DHS) in 
ensuring the success of this National security effort well before the 
2017 Critical Infrastructure designation by former Secretary Jeh 
Johnson. The DHS has stated that the election sector's Government 
Coordinating Council (GCC) was formed faster than any other similar 
critical infrastructure sector council to date. The EAC took an early 
leadership role in working toward this accomplishment, and we recognize 
it as an exemplary proof-point of how local, State, and Federal 
Governments can effectively work together toward the shared goal of 
protecting our Nation's election infrastructure.
    Building on that success, the EAC also convened discussions between 
election system vendors and the DHS for the formation of the Sector 
Coordinating Council (SCC). Thanks to the swift establishment of the 
GCC and the well-established relationships between the EAC and election 
equipment vendors, work on the SCC began in the summer of 2017, and its 
official formation meeting took place before the end of last year. Both 
councils were functioning before the 2018 election year, less than 1 
year from the Critical Infrastructure designation by the DHS.
    The EAC Chair serves on the GCC Executive Committee, and all EAC 
Commissioners are chartered members of the GCC. Like many members of 
the GCC, the EAC is seeking security clearances through the DHS and has 
been assured that the Department will be addressing those security 
requests soon.
    During the last Presidential Election cycle, the EAC was a key 
player in Federal efforts to share vital security information with the 
States and educate our Federal partners about ways to best serve the 
needs of election administrators. For example, the EAC:
  <bullet> Distributed urgent security alerts and threat indicators 
        from the DHS and the Federal Bureau of Investigation (FBI) to 
        States and territories to help protect election systems from 
        specific cybersecurity threats.
  <bullet> Met on multiple occasions with staff from the DHS, the FBI, 
        and the White House to discuss specific and nonspecific 
        threats, State and local election system security and 
        protocols, and the dynamics of the election system and its 
        8,000-plus jurisdictions Nation-wide.
  <bullet> Served as the Federal Government's primary communication 
        channel to provide real-time cybersecurity information to 
        election officials around the country. This information 
        included current data on cyber threats, tactics for protecting 
        election systems against these threats, and the availability 
        and value of DHS resources for protecting cyber assets.
  <bullet> Participated in and convened conference calls with Federal 
        officials, secretaries of state, and other State chief election 
        officials, local election administration officials, Federal law 
        enforcement, and Federal agency personnel to discuss the 
        prospect of designating elections as part of the Nation's 
        critical infrastructure. These discussions focused on topics 
        such as coordinating security flashes from the FBI, the 
        implications of a critical infrastructure designation, 
        education on the Nation's election system, and the dynamics of 
        successfully communicating information to every level of 
        election officials responsible for running the Nation's 
        election system.
  <bullet> Provided DHS with perspective, information, and data related 
        to the election system, introductions to officials in the 
        election community, and information that assisted the agency 
        with shaping communications in a manner that would be useful to 
        the States and local election officials.
  <bullet> Published a white paper entitled ``U.S. Election Systems as 
        Critical Infrastructure'' that provided a basic understanding 
        of critical infrastructure for election officials.
  <bullet> Contributed to multiple foundational DHS documents used to 
        structure the Elections Systems Critical Infrastructure 
        designation and sector.
    Ahead of the 2018 Midterm Election, the EAC focused on steps our 
commission could take to further serve election officials operating in 
the new threat environment. The EAC brought together election 
officials, security officials, academics, and Federal Government 
partners for an Election 2018 kick-off summit at the National Press 
Club in January 2018. Just 1 month ahead of the mid-term election in 
October 2018, we gathered a similar audience here in the Capitol 
Visitors Center for an election readiness summit that featured, among 
others, Senators Blunt and Klobuchar, as well as high-level officials 
from DHS and the National Counterintelligence and Security Center. 
These events and others like them throughout 2018 raised awareness of 
the security preparations election officials had under way and the 
resources available to the States and localities to help with this 
critical work.
    While talking about election security at forums is important, the 
EAC also knows the importance of training. EAC staff was intricately 
involved in the establishment of Harvard University's Belfer Center 
Table-Top Exercises, which have since been conducted across the 
country. During the past year, the EAC has also developed and presented 
its ``Election Official as IT Manager'' training to officials 
representing hundreds of election jurisdictions across the country, and 
we are working with the DHS to put this training on-line through the 
FedVTE platform so that many more election officials can easily access 
it.
    The EAC also produced a video and supporting meeting materials to 
help local election officials explain the many levels of election 
security at their jurisdiction. The video was designed to be viewed at 
civic group meetings and election worker trainings. It can also be 
customized by jurisdictions, and some States are tailoring the video to 
their voters and processes. We plan further work in this regard. In 
addition, the EAC Commissioners continuously meet with State and local 
election officials at regional conferences across the country. These 
visits allow the Commissioners to apprise officials of best practices, 
promote resources available from the EAC and our Federal partners in 
agencies such as the United States Postal Service, the Federal Voting 
Assistance Program (FVAP) within the Department of Defense, the 
Department of Justice, and the DHS, and discuss current concerns and 
topics in election administration, such as contingency planning, 
accessibility, voter registration, and technology management.
    On Election Day 2018, we were pleased to have our newly-hired chief 
information officer and the head of our Testing and Certification 
Program on-site with other Federal agencies and key election 
stakeholders who gathered at the National Cybersecurity & 
Communications Integration Center (NCCIC). We are proud of the role we 
played last year, and we continue to seek new ways to provide election 
security support to State and local election leaders.
      testing and certification/voluntary voting system guidelines
    The Help America Vote Act charges the EAC with administering a 
Federal program for setting a voluntary National standard for testing 
and certificating voting systems. This testing standard is the EAC's 
Voluntary Voting System Guidelines (VVSG), and vendors may choose to 
have EAC-accredited and monitored labs test their voting systems 
against these guidelines for certification. The guidelines contain 
requirements for security, as well as other important components--such 
as accessibility, usability, and interoperability. In fact, while 
security is a guiding consideration of certification, so is 
accessibility for voters with disabilities and voters with limited 
English proficiency.
    These considerations are deliberated and developed in public 
working groups under the direction of the EAC's Technical Guidelines 
Development Committee (TGDC), which is chaired by the director and 
under secretary of commerce for standards and technology. This TGDC's 
membership is made up of technical and scientific experts from fields 
such as security, accessibility, voting machine production, and voting 
machine use. After development and approval by the TGDC, the voluntary 
guidelines are submitted to the EAC's executive director, provided to 
the EAC's Standards Board and the Board of Advisors, published for 
public comment, and presented to the EAC's commissioners for 
consideration and approval. Last Spring, the EAC convened its advisory 
boards to review and comment on the adoption of the newest version of 
the voluntary guidelines, VVSG 2.0. Both boards recommended that the 
EAC adopt VVSG 2.0. Now that a quorum has been restored at the EAC, we 
anticipate that the VVSG 2.0 will soon be posted for public comment, we 
will hold public hearings on the proposed guidelines, and the agency 
has the pieces in place for final consideration.
    While the EAC has been hard at work on the newest version of the 
VVSG, the EAC has not stopped its on-going work to rigorously review, 
test, and certify voting systems. These reviews are referred to as test 
campaigns, and in these campaigns EAC accredited laboratories test 
vendor-submitted voting systems against the standards contained in the 
VVSG. Once a system successfully completes a test campaign, the results 
of the campaign are transmitted to the EAC's executive director for 
certification of the voting system to the standard against which it was 
tested. If the EAC's executive director agrees that the voting system 
has conformed with the standard, it is certified as such and assigned a 
certification number. It takes the EAC approximately 8 to 12 months to 
certify a newly-submitted voting system. If the system has already been 
certified and the vendor is making an upgrade or revising a component, 
it may take as little as a few weeks or as much as 6 months to upgrade 
or change.
    In addition to the actual certification of the voting systems, the 
EAC's Testing and Certification Program continually conducts quality 
monitoring of all EAC-certified systems and audits the quality of the 
EAC-accredited test labs. Monitoring of the voting systems occurs 
throughout the entire span of manufacturing and life of service, 
including manufacturing facility audits, field system review and 
testing, and field anomaly reporting from manufacturers and election 
officials.
                               conclusion
    Members of the committee, the EAC's mission includes supporting 
election officials across the country as they administer Federal 
elections, and we are committed to that work and to always seeking 
better ways to do it. The importance of election security and how the 
newly-appropriated HAVA Funds will assist States remain a primary focus 
and top priority for the commission. I am honored to support the 
important work carried out by our Nation's election administrators each 
and every day, and I congratulate them on a job well done in 2018. The 
EAC looks forward to working closely with them ahead of the 2020 
Presidential Election. I welcome your feedback, and we look forward to 
answering questions you may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Thompson. Thank you very much. I thank the 
witnesses for their testimony. I remind each Member that he or 
she will have 5 minutes to question the panel. I now recognize 
myself for questions.
    Director Krebs, given the 2019 World-wide Threat Assessment 
that warned that the U.S. adversaries and strategic competitors 
probably are already looking at the 2020 U.S. elections, how 
confident are you that our election infrastructure, as it is at 
this moment, is secure against cyber attacks?
    Mr. Krebs. Chairman, thank you for the question. I 
certainly think that, just like any other I.T. system, the 
election infrastructure bears additional securing and 
resilience measures. But I will say that compared to where we 
were in 2016, not just from a fundamental I.T. security 
perspective, but from a collaboration working across the 
different stakeholder groups, we are light-years ahead of where 
we were. Most importantly, we have greater visibility both of 
the threats that are incoming, but also how they would work 
across the ecosystem and across the infrastructure.
    I mentioned earlier, the Albert sensor coverage that we 
have, less than 30 percent in 2016, over 90 percent in 2018, 
that gives us near-real-time visibility in what is happening 
across the networks.
    The last thing I will add here, the area that I think we 
need to invest the most as a Nation, is ensuring auditability 
across infrastructure. It is a key tenant of I.T. security. If 
you don't know what is happening and if you can't check back 
across the system, what is happening in the system, then you 
don't really have security. So, to the extent that we can focus 
on an outcome of auditability throughout the process end-to-
end, that is the greatest area of need in my view.
    Chairman Thompson. So, is that a matter of software or 
training or what?
    Mr. Krebs. Yes, sir, everything. One area that we can focus 
on, and the good news is from my understanding and I would 
defer to Chairman Hicks, every State is--that is not already on 
a paper-type ballot, whether it is hand-marked or whatever--
every State, including the 5 that are on electronic machines 
right now, are moving toward paper.
    Paper helps that auditability process. Then you have after-
election audits on the backend, but it is not just about the 
voting day, it is also all the way through the voter 
registration process, making sure that you have visibility and 
understanding of what is happening in those databases.
    Chairman Thompson. Right. So, Mr. Hicks, are you concerned 
that so much of what we use is from international sources and 
the potential for supply chain compromise is there or has that 
issue come up in your review?
    Mr. Hicks. It has come up in our reviews but I would like 
to say that it is difficult to function in a world economy and 
not have some form of components coming from overseas. I 
believe that that is being looked at but I believe that we can 
still move forward with a secure election process because the 
EAC certifies voting systems and that is all components within 
those systems for the voluntary voting system guidelines and 
standards and we certify the labs that do that as well. So I 
have very little concern in foreign components overall because 
I have great faith in our labs and the overall structure of our 
voluntary voting system guidelines to ensure that those systems 
are functioning the way that the American people want them to.
    Chairman Thompson. Mr. Krebs do you want to comment on 
that?
    Mr. Krebs. Yes, sir. So I mentioned in my opening remarks 
that we have three primary areas of focus for 2020. One is 
extending to locals but the second piece is better 
understanding the risk across the election infrastructure. As 
Chairman Hicks mentioned, supply chain concerns are certainly 
in that register of risk that we are looking at but I am 
actually at this point more concerned or focusing in on basic 
cyber hygiene practices.
    When we looked across a range of sectors and segments what 
we saw was the election community still has challenges with 
basic cyber hygiene and so what our area of focus is helping 
with patching, helping implement multifactor authentication, 
helping on phishing campaign assessments, things of that 
nature.
    Chairman Thompson. So before I run out of time, your 
testimony indicated that all the secretaries of state had 
participated in some aspect of your resources?
    Mr. Krebs. Yes, sir. All 50 States have engaged with the 
Department in one way, shape or form. The election 
infrastructure ISAC for instance has all 50 States as members.
    Chairman Thompson. Thank you, I yield to the----
    Mr. Hicks. Congressman, there is one other aspect of that 
that I wanted to jump on, with--Under Secretary Krebs was 
speaking about, and one way to ensure that the systems are 
functioning the way that they are intended is through 
auditability. So once we move away from those 5 States that 
don't have paper trails associated with them, I believe that 
all States should be able to audit using some form of paper but 
also to ensure that we continue on with the Help America Vote 
Act of ensuring that those who have disabilities might not be 
able to use that paper can still vote independently and 
privately.
    Chairman Thompson. Thank you. I yield to the Ranking Member 
for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman. Commissioner Hicks in 
your opening statement you made reference to the fact that last 
spring the EAC had distributed $380 million in fiscal year 2018 
funds to the States to improve their elections. To date, how 
many States and territories have been able to spend their 
allocation? I know you said 100 percent of it had been 
distributed but have they been able to spend it?
    Mr. Hicks. All the States are spending that money now. They 
have up to 5 years to spend the money for--for additional 
things. It is basically an infrastructure grant. So if we look 
toward--and continuing on with infrastructure, it won't be 
built within 3 months but it would be carried on for the 5 
years the Congress appropriated that money for.
    Mr. Rogers. You are just starting to spend it?
    Mr. Hicks. Yes.
    Mr. Rogers. OK.
    H.R. 1 authorizes, and this is also for Mr. Hicks, H.R. 1 
authorizes--nearly $1.2 billion over the next 2 years to local 
election security improvements. Is it feasible for States to 
buy equipment, implement new security measures and poll 
workers, trained in time for the primaries 2 years from now?
    Mr. Hicks. I missed part of your question, sir.
    Mr. Rogers. Given that $1.2 billion is to be spent, can the 
States take that money and buy equipment, train poll workers, 
and implement security measures in time for the primaries for 
the 2020 elections?
    Mr. Hicks. I believe States can do most of that. But again 
we can't just--the States can't go to Best Buy and get that off 
the shelf so most of the States are moving toward not only 
purchasing new voting equipment but also other aspects of the 
election process in terms of voter registration, election 
audits, security overall so it is not just purchasing new 
voting equipment, they are going from registration to election 
night reporting.
    Mr. Rogers. My point is I just don't see how they are going 
to be able to get that done by the 2020 primaries and they are 
right--you are talking about next March is Alabama's primary; 
some of them are early as February or January of next year. 
Finally, you--for Mr. Hicks, you talked about certifying that 
the EAC certifies election security systems. Can you tell me 
more about that certification process?
    Mr. Hicks. It is voting systems overall. So basically for 
voting systems, once the State decides they want to fall under 
that process of our voluntary voting system guidelines, those 
systems are sent by the vendors to those--to our test labs and 
then certified to those sorts of standards. It is the same as 
if computers or iPhones or other aspects of that, they are 
tested to a certain standard.
    Mr. Rogers. Can you have your staff to submit to my staff--
for the full committee staff, what those standards are, 
certification standards? I would really be interested in 
reviewing those.
    Mr. Hicks. Well there is several of them so we just 
certified 1.1 in 2015 but for the last 4 years since I have 
been at the commission, we have been working on the 2.0 
voluntary voting system guidelines and there is a healthy 
debate going on right now between myself and the other 
commissioners when ensuring that those get out for public 
comment relatively soon.
    Mr. Rogers. Good. Mr. Krebs, can DHS and EAC complete 
supply chain security and other qualification mandates on 
vendors required by H.R. 1 fast enough for States to know that 
what they are buying is acceptable machines in time for the 
2020 primaries?
    Mr. Krebs. I am not sure. I have to think about the number 
of systems, the research, the requirements that would have to 
go into that. I may need to get back to you on the timeliness 
of that.
    Mr. Rogers. My final question is these 5 States that 
currently have audit concerns, you both made reference to the 
fact they are moving toward paper. Can you tell me more about 
what they are doing?
    Mr. Hicks. So those States are purchasing--some States are 
already in line to purchase new voting equipment, like Georgia 
overall. But some States are putting bids out to other 
manufacturers to get some sort of paper. So it is basically 
little things like buying anything. There is different models 
out there and what works best for those States is what those 
States are going to purchase. But there are other aspects of 
voting systems that are out there--optical scan machines or 
just paper-based systems overall where States are looking 
toward getting those so that they can audit those at night--
after election night and so forth.
    Mr. Rogers. Do you have a time line of when they expect to 
be able to get that auditability?
    Mr. Hicks. It is an on-going thing. So the first purchase 
of voting equipment under the Help America Vote Act was more 
than 15 years ago and as I--when I say how much confidence 
folks have on computer systems that they purchase 15 years ago 
but the EAC gives guidance on maintaining aging voting 
equipment to ensure that those systems function the way they 
were designed to.
    So I would say that it is an on-going process so it might 
not be, you know, fully completed in 2020. By 2022, 2024 as 
elections continue on, more systems will be mothballed.
    Mr. Rogers. Thank you. I yield back.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentlelady from New York, Ms. Rice.
    Miss Rice. Thank you Mr. Chairman. Mr. Krebs, I would like 
to start with you if I could. I applaud the progress that you 
have made protecting the machinery of our elections but what I 
want to address now is another part of election protection, and 
that is protecting the campaigns and the political party 
committees from attack. Everyone is well aware of what happened 
in 2016. There was the hacking of the DNC, the DCCC, and the 
Clinton campaign, all hacked by Russia.
    We know the subsequent use of the stolen materials have a 
profound effect on the election. We also know that in 2018 the 
NRCC was hacked, that being in the midterm cycle. Now I know 
that on our side the DCCC launched unprecedented cybersecurity 
and disinformation prevention operations. But all of that work 
was done by themselves. It was not done in coordination with 
any Federal agency--with the Federal Government at all even 
though these are Federal campaigns.
    So I want to ask you, do you think that we should rethink 
how we are doing all this?
    Mr. Krebs. Yes, ma'am. Thank you for the question. So 
during the 2018 cycle and even to today, we have worked with 
the major parties. RNC, we have conducted training--conducted 
training. DNC, we have a very good relationship with the CIO. 
We continue to work with the other committees so it is in our 
area of engagement. I take your point though that we need to 
expand and deepen and broaden that engagement. We continue to 
think about the various offerings that we have whether its 
capabilities, technical support information sharing, training, 
those are all the areas that we are continuing to push out.
    I would encourage each of you, as you are coming up on 
another cycle, you know, please work with us, your own 
campaigns. We have capabilities that we can offer and it is 
definitely within our--it is an area of priority engagement for 
us going forward.
    Miss Rice. So I am glad to hear you say that. I want to ask 
your opinion about whether you think using the Information 
Sharing Analysis Center, the ISAC model that you use for 
working with sectors like the energy and financial fields. Do 
you think that that would be of help here?
    Mr. Krebs. In terms of political infrastructure and 
political campaigns?
    Miss Rice. Yes.
    Mr. Krebs. I don't have any reason to believe why it 
wouldn't work.
    Miss Rice. I think that that is something that we have to 
look into because all of this is about sharing information when 
you are being hacked and what you do about getting down 
disinformation and all that kind of stuff. There were 3 States 
that did not use any part of the election assistance commission 
so this could be either to Mr. Hicks or to you, Mr. Krebs. 
Three States--Florida, Oklahoma, and Oregon chose not to use 
any part of the EAC's testing or certification program and they 
were all targeted by Russian hackers in 2016.
    I guess my question is are we encouraging States to 
participate in the programs and I understand the tension 
between, you know, the State's rights over how their elections 
are run but there is--I guess I would ask you, do you think 
there is a role for the Federal Government to play and did the 
Government--Federal Government do enough to participate 
States--to encourage States to participate in the program 
before the 2018 cycle and how many States will be participating 
in this--in the 2020 cycle?
    Mr. Krebs. So I wouldn't use 2016 as the baseline for how--
what States engage, what local communities engage. I would 
instead recommend that we look at 2018. All 50 States worked 
with the Department of Homeland Security, and it is also 
important to keep laser-focused on what the Department's 
mission is; that is cybersecurity technical assistance. The 
election capabilities, that resides with the EAC and NIST and 
the others. We are very focused on cybersecurity capabilities. 
We had all 50 States, 1,400 jurisdictions, a number of election 
equipment vendors all playing ball with us.
    The difference between 2018 and 2016 and I hope that you 
will hear this in the next panel was trust. In 2016 there was 
no relationship between the Department and EAC. There was no 
relationship between Secretary Padilla or Secretary Merrill. 
Right now, those relationships are strong and growing stronger. 
So I am very confident that going forward that we have the 
baseline of engagement and partnership in place to only 
continue to improve the security and resilience in the voting 
system.
    Mr. Hicks. Thank you for the question, Congresswoman. There 
are two aspects that I would like to point out with--for two 
States that I went to last year. I went to Oregon and I did go 
to Florida as well. In Oregon I saw the wildfires that were 
going on and they were looking toward the EAC to get some sort 
of guidance in terms of overall aspects of running their 
elections. They're an all-paper State so they do everything by 
vote by mail. So they were--they were I think on top of things 
in terms of moving forward.
    Florida, I had the honor of going down to visit with Bay 
County which was devastated by Hurricane Michael and to see 
their election folks basically in tears but being happy that 
the EAC was there to document their--their concerns and get 
others to see that and I hope that our staff will be able to 
have the videos that we took up relatively soon so folks can 
pay attention to that and not forget those folks as well.
    I think that there are different aspects that the States 
have gone to, to use our services, so we do touch all 55 
jurisdictions--the 50 States and the 5 territories and the 
District of Columbia. So I believe that, as Under Secretary 
Krebs talked about, there was a lack of cooperation--not 
cooperation but communication with Federal partners before that 
but I think since the EAC's founding in 2003 that we have 
helped States improve the process. So I think that as each 
election goes on that we will continually improve that process.
    Miss Rice. Thank you. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from New York, Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman, and I want to 
congratulate you on becoming Chair of this committee and I am 
looking forward to working with you and Mr. Rogers and I know 
based on past experience with you that we will continue the 
fine bipartisan work on this committee that I wish the rest of 
Congress would engage in.
    Mr. Krebs, it is nice to meet you. I am now the Ranking 
Member of the Cybersecurity Subcommittee and in that capacity I 
think we will become well-acquainted with each other going 
forward.
    I was heartened, Mr. Krebs, about what you said in your 
testimony today and what you said in your written testimony, 
that there has been no evidence to date that any identified 
activities of a foreign government or a foreign agent had a 
material impact on the integrity or security of election 
infrastructure or political or campaign infrastructure in the 
2018 midterms. That is a great thing.
    But, I also kind-of took pause by what you said that 
election security has come a long way, but it bears additional 
measures. One of the things that you mentioned was 
auditability.
    I want to make sure I understand a little bit more in 
depth, what are some of the additional measures you think we 
should be taking to makes sure that we do the best we can to 
secure our elections?
    Mr. Krebs. So, I continue to believe and that--and 
Secretary Neilson has been consistent with this as well, but 
voter verifiable paper trails are critical elements of 
auditability. In that--after-election audit processes, and I 
don't want to stipulate to any specific type of audit, there 
are a number and variety of audits that could be implemented 
based on the systems that are in place, but those are two 
elements.
    Mr. Katko. Mr. Hicks, is there anything you want to add to 
that?
    Mr. Hicks. I believe that the States in 2018, when they 
submitted their request for funds to us, allocated over $20 
million to go toward the auditability of elections. There are 
many different ways to audit elections, and then as we move 
forward, the EAC has done a paper on 6 ways to do audits and I 
hope that States take advantage of those resources.
    Mr. Katko. Now, Mr. Hicks, you also mentioned that as part 
of the process of review, you wanted to look all the way 
through the voter registration process. Could you explain the 
different steps you would like to look at as far as doing your 
audits of the election security?
    Mr. Hicks. So, it is basically to go, and it is not just 
depending on audits, it is basically to go from voter 
registration and list maintenance to ensure that the folks who 
are on the rolls are the people who are assigned to that.
    Many States have gone toward on-line voter registration 
through the DMVs and other aspects. Some States have gone to 
automatic voter registration, and then you go toward polling 
places to ensure that people have access to the polls to make 
sure that the ramps for those who have disabilities and 
wheelchairs and so forth can still get in there and the height 
of the machines and so forth, to the poll worker training, I 
think that is a vital part. They are the front line of defense 
that we have in terms of Federal elections.
    There is over a million requests for poll workers in each 
Presidential year that is always coming up short and I would 
like to see for--for more people to actually volunteer to be 
poll workers.
    Then, toward election night reporting with the Associated 
Press, and other aspects as well. So, it goes from A to Z in 
terms of ensuring that our election process remains strong and 
that voters' confidence remains high.
    Mr. Katko. Is there anything you might add to that Mr. 
Krebs?
    Mr. Krebs. No, sir.
    Mr. Katko. OK, another question I have is, what--do you--
does the size of the State matter at all, as far as compliance 
with these issues and being active participants in them, No. 1?
    No. 2, the nation-state actors, obviously we are concerned 
about them, the Iraqs--I mean the Irans and the Russians of the 
world and others. Is there other actors outside of that arena 
that you have potential--that have potential to disrupt around 
minor elections, Mr. Krebs?
    Mr. Krebs. So, to your first question, we have the smallest 
State and the largest State engaging with us. So, I wouldn't 
characterize any sort of participation based on the size of the 
State.
    In terms of the landscape of threat actors, certainly the 
big four or primarily, in this case, China, Russia, Iran have 
been active in foreign interference and influence operations.
    But, generally speaking, in terms of cybersecurity issues 
writ large, we do see more blended operations, proxies, 
cutouts, things like that, so that is on the international 
landscape. It is just getting more complex, more of a blended 
environment.
    Mr. Katko. Mr. Hicks, want to add to that?
    Mr. Hicks. Thank you, sir. The--I believe that it is a 
misnomer that think that it is the States, but it is mostly the 
local election officials who are running the elections and it 
is usually one or two individuals. It is not the large counties 
that are basically targeted. It is usually the person who is 
not only handling the election, but they are driving the school 
bus, they are doing payroll, they are doing nine other 
different things, and so they are targeted.
    So, we try to offer--we try to go out to the States and 
offer training as I.T. managers for election officials to their 
State conferences, because they are not always able to come to 
the District of Columbia to get that sort of training.
    Mr. Katko. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from California, Mr. Correa, for 5 
minutes.
    Mr. Correa. Mr. Chairman--thank you Mr. Chairman. First of 
all, let me congratulate you on your chairmanship, sir. Wanted 
to also thank you for holding this most important hearing on 
our Democratic institutions, our voting system, the integrity 
of our votes goes to the heart of our Democratic system in this 
country. Thank you very much, sir.
    First question I have is for Mr. Hicks. That is, during the 
recent Government shutdown, secretaries of state across the 
country were notified that conversations with the Department of 
Homeland Security would be suspended.
    Can you tell me what the effects, negative, of the 
Government shutdown were, in terms of harming the security of 
our election system, given these next elections are just around 
the corner?
    Mr. Hicks. I think that is more appropriate question for 
Under Secretary Krebs, with his discussions with Homeland 
Security.
    Mr. Correa. Mr. Krebs.
    Mr. Hicks. I would add that with the Government shutdown, 
we were furloughed. I was still working myself and then we have 
hired a CIO to ensure that our infrastructure in our office 
would remain high. We still had conversations with States and 
locals.
    As I stated in my testimony, some of our delay, in terms of 
reporting out issues, have occurred because of the Government 
shutdown and our election voting administration survey, we are 
collecting that data to hopefully have that out to Congress by 
the end of June, but I am hoping that none of that will be 
delayed because of the shutdown.
    Mr. Correa. Thank you. Mr. Krebs.
    Mr. Krebs. Sir, so during the shut--there was no question 
there was an impact from the shutdown. During that 35-day 
period we continued to share intelligence, threat intelligence, 
as it came in. We continued to send indicators out to those 
Albert Sensors I mentioned earlier on. We continue to conduct 
analysis based on the information we had and the intelligence 
that we had.
    In terms of the things that we had to pause, for one, 
meeting with new secretaries of state that were sworn in 
earlier in January; that was probably my biggest regret in 
terms of missed opportunities. We also had to pause some of the 
vulnerability assessments. We have since rescheduled those, and 
those are back on the books.
    Then just general planning, in terms of the recent National 
Association of Secretaries of State and the State Election 
Director annual conference, content development for that 
engagement did have to slow. My sense of things, though, was we 
ramped back up, I placed election security as one of the top 
priorities for CISA as we restarted after the shutdown.
    My sense of things is that we will be back on track, if not 
already back on track, for instance, we are already in the 
planning process for another National-level tabletop exercise 
this June. Last year we had 44 States in the District of 
Columbia. This year we hope to outdo even that.
    Mr. Correa. Very quickly, cybersecurity, as it pertains to 
the census that exercise we do every 10 years, redistricting is 
based on the census, how secure do you think that data, 
redistricting data, census data is when it comes to cyber 
threats?
    Mr. Krebs. We do work directly with the Census Bureau on 
protecting the system, particularly the 2020. So, happy to come 
back and provide you a little bit information and the 
committee----
    Mr. Correa. That is a critical issue.
    Mr. Krebs. Yes, sir.
    Mr. Correa. Mr. Hicks.
    Mr. Hicks. That is not one that the EAC focuses on. But I 
talk to our staff and get a clear answer for you sir.
    Mr. Correa. But I presume that it is something on--on your 
plates--something on your radar that you are looking at, again, 
security of our census data?
    Mr. Krebs. Absolutely. Yes sir. Like I said, we do work 
closely with the Census Bureau on this--the 2020 census.
    Mr. Correa. Quickly, post-election audits, what would such 
audits look like? Would they be the same across the country?
    Mr. Hicks. Those would not be the same across the country. 
What works in Rhode Island might not necessarily work in 
Washington State.
    Mr. Correa. Is that because of the paper versus no-paper 
situation?
    Mr. Hicks. No. It is just that there is different factors 
to it; the number of people, the way that they run elections. 
Some are townships. Some are counties, and so forth. It would 
be more of the type of machines that they use, and other 
aspects of it. But I believe that it is--that all States should 
be doing some sort of audits to ensure that the confidence of 
elections remain high.
    Mr. Correa. Thank you. Just different machines, different 
outcomes, different standards, do you see us giving States 
rights here? The ability of States to choose whatever they want 
to purchase. Are we looking at moving toward more 
standardization?
    Mr. Hicks. No. I think that States should purchase the 
machines that work best for them. I would equate it a little 
bit to purchasing a car. You might want a different type of 
car, but all of those cars should still have some sort of 
standards associated with it.
    Mr. Correa. Thank you. Mr. Chairman, I yield.
    Chairman Thompson. Thank you very much. I now recognize the 
gentleman from Texas, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. Thanks for holding 
this hearing. Securing election infrastructure is and 
rightfully should be one of the central priorities of this 
Congress, and certainly a priority for the American people.
    I will say that I don't think that Title III of H.R. 1 
adequately brings forth solutions that effectively and 
efficiently addresses the issue of hardening election security, 
much less do so in a bipartisan manner.
    I do want to start with you, Director Krebs. Good to see 
you again. One of the things that CISA is in a unique position 
to do now is it sits between the resources, and capabilities, 
and intelligence of the Federal Government, and the innovation 
that is happening in the private sector.
    But one of the things that I have heard often over the last 
4 years, as the Chairman of the Cybersecurity Subcommittee, is 
that the amount of actionable intelligence, or information 
coming from the intelligence community, being provided to the 
private sector through DHS is not enough, or is not good 
enough, or is not timely enough, or is, in some respects, stale 
information. You and I have talked about that. I would be 
curious in your perspective, now as the director of CISA. 
Address, for me, the progress, with respect to that issue.
    Mr. Krebs. Sir, thank you for the question. It is for sure, 
a continuous improvement process. We are better than--today 
than we were a couple of years ago. I do want to say that--that 
this election cycle, 2018, the time between 2016 and 2018 
really was a--for us, and the intelligence community and law 
enforcement, a forcing function to improve the way we go about 
doing business both, on intelligence, analysis, sharing, 
partnering on incident response, and other surge capabilities.
    That we are going to be able to spin that out so the 
election community is supported, but so is every other sector; 
the grid, the financial sector. Every other critical 
infrastructure sector will benefit from the progress we have 
made, specific to the election community, over the last 2 
years. So net-net, we--there is progress there.
    In terms of the specific information sharing, the--I 
mentioned those Albert Sensors. One of the things that we 
really worked closely with the intelligence community on was 
helping the I.C. understand what the information--the network 
defense requirements were of the community--of the election 
community so that they could refine their collection and 
analysis, and then push their refinements back out into the 
network defender space.
    We have also conducted some studies, in terms of the 
indicators that we share through our automated indicator 
sharing program. Based on those studies, 30 percent of the 
indicators that are shared are unique and they have a unique 
shelf life, about 120 days.
    That is one of my areas of focus for the agency, finding 
where we are unique. Finding where we have value-add, and we 
are not competing or supplanting a private-sector capability, 
but really action--taking action using those intelligence 
community capabilities.
    Mr. Ratcliffe. So when we talk about the election 
infrastructure threat landscape, we talk about needing to 
provide our Federal partners, but also our State and local 
officials and private-sector vendors with the information and 
capabilities they need to better defend that infrastructure.
    I noticed in your testimony you talked about DHS host--
hosting a tabletop vote exercise, really for that purpose, in 
terms of identifying some of the best practices and areas for 
improvement on cyber incident planning, preparedness, 
identification, response, recovery, all of those things. What 
is your overall takeaway from that exercise? Was it impactful, 
and how so?
    Mr. Krebs. So my sense of things is yes, it was impactful. 
I suggest you ask the next panel whether they found that 
useful--that exercise useful. But I think the numbers prove 
that it was at least a coordinating moment. That we got 44 
States and the District of Columbia participating over 3 days, 
in the middle of primary season, that in and of itself shows 
that the community is participating.
    We also had social media companies. We had political 
parties. We had the defense--the Department of Defense, the 
intelligence community. We believe we can do better. So, we are 
going to do the tabletop to vote exercise again, as I 
mentioned, once again this summer.
    But again, it really reinforced, for us, that any small 
piece of information that an election official finds they 
should share because that--a bunch of small things can add up 
to a big thing. That was, kind-of, along the see something, say 
something line, really trying to reinforce that information 
sharing, both ways, can lead to better defense across the 
systems.
    Mr. Ratcliffe. Thank you, Director. I see my time is 
expired. I yield back.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from Michigan, Ms. Slotkin.
    Ms. Slotkin. Good afternoon, and good morning. Thanks for 
being here, to both of you. I agree with my colleagues. I think 
election security has got to be one of the most bipartisan 
issues. We can all agree that threats to our democracy and the 
integrity of our democracy is a threat to our National 
security.
    If we, as a people, do not believe in our system, all 
forward progress is lost. So I think it is an extremely 
important issue. I think that there are two pieces to it that I 
am worried about. One is actual election security, right? So 
the integrity of the actual systems and you have spoken to 
that.
    But then, there is the perception that the elections, 
particularly in 2020, may not be fair and free, right? On both 
sides, regardless of what side you are on.
    You have talked about good work that you are doing and I 
appreciate that but if you can just give us your sense on both 
issues, what is the one issue on both issues that keeps you up 
at night? What are you most worried about on election security 
actual integrity of our system and then on the perception, 
right, because I think for all the good work you have done, 
there is a huge group of people who are just ready to say, on 
both sides, that 2020 isn't going to be free and fair which is 
a deep--deeply concerning to me. So on election security and 
the perception that they are not secure, what keeps you up at 
night for both of you?
    Mr. Krebs. So this question lasers right in on I think the 
biggest area of discussion that we need to have in the country 
right now. So first and foremost on the security of the 
systems, we have both mentioned it several times, the committee 
Members have mentioned it, we have got to get to auditability. 
That is--that is the key, understanding what is happening 
across the process is critically important.
    On the perception, we did a lot of work throughout the 2018 
cycle on education and awareness not just in the voting public. 
Working with the EAC and some of the election associations, we 
issued guidance, awareness materials, reinforcing that go to 
trusted sources for information on elections. Those trusted 
sources are the elected officials at the State and local level. 
Go look at the State secretary's website for information on 
when you vote, how to register, what the deadlines are. Go to 
the source. Don't listen to whatever third party, fourth party, 
whatever you have--whatever have you which plays into the 
bigger part of we have to do more awareness building in this 
country and introduce critical thinking and reinforce critical 
thinking as we are just deluged with information. It is too 
easy to just click like and forward on. We have got to have 
people thinking, where is this information coming from? Why is 
it being served up to me? That continue--will continue to be 
one of our priorities going into 2020.
    Mr. Hicks. Thank you for the question, Congresswoman. I 
agree with Secretary Krebs but I also wanted to add a couple of 
other things. One, election interference is nothing new. It was 
mostly done, you know, since--it has been done since we have 
had elections. Whether or not that is pamphlets saying 
Democrats vote on Wednesday, Republicans vote on Thursday or 
other access to the polls, but the things that I would want to 
focus in on for our--our agency is to ensure that all aspects 
are taken care of. One being access and also access for three 
different groups. One, our military and overseas voters who--
who don't always have access to ballot boxes and so forth. Two, 
our disabled voters who might not be able to get access inside 
the polls themselves and the third would be language 
minorities.
    Ms. Slotkin. So I know I have a very short time and thank 
you as a military spouse for ensuring that our military can 
vote. That is a big issue for our military community. So you 
both mentioned this--and the perception--the concern that the 
perception that these aren't free and fair elections, the role 
of social media, of news, of third sources passing along the 
wrong information. Can we--can you do your jobs without the 
social media companies doing more--particularly social media 
companies doing more to identify and disclose who is actually 
paying for some of the ads that are coming through? Who are 
actually, you know, originating and spreading this information? 
Can you help me understand their role in making your jobs 
harder or easier?
    Mr. Krebs. So transparency for certain is key. I will say 
that the social media companies deserve some credit for what 
they did, how they stepped up in the 2018 cycle. On Election 
Day we had a National situational awareness, more room, both a 
virtual presence where all States and local jurisdictions were 
plugged in but we also had a physical presence at our facility 
in Virginia and the social media companies participated.
    Now what that allowed us to do is win election officials, 
identified disinformation, misinformation, or just flat-out 
false information that was being passed around, videos that 
have been edited but saying, look this machine is changing my 
vote. It was immediately flagged for the social media 
companies. Social media companies were able to get the ground 
truth with the election official, they were able to pull down 
that false information because it was in violation of their 
terms of service and then the election official was out and 
able to say, here is what really happened. Don't believe that. 
So they--they played a part.
    There is always much more to do here and keep in mind that 
the adversary will continue to pivot, pivot, pivot as we raise 
defenses and block off avenues.
    Ms. Slotkin. Thank you gentlemen. I am almost immediately 
out of time so I appreciate it.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from North Carolina, Mr. Walker.
    Mr. Walker. Thank you Mr. Chairman. Director Krebs, is 
there any evidence of foreign interference in the 2018 
elections?
    Mr. Krebs. So as I indicated in opening and my written, the 
statement issued by the DOJ and DHS last week indicated that 
there was no attributable--there was no evidence of 
attributable activity to a nation-state actor of material 
impact on the election.
    Mr. Walker. Thanks for covering that again. I just want to 
make sure that we are on the record with that. Is there any 
evidence of domestic interference in the 2018 elections?
    Mr. Krebs. I would have to defer you to the Department of 
Justice on that.
    Mr. Walker. OK. How should we or how do we define 
interference? Is it just hacking and abusing voting systems or 
does it also include false or misleading political statements?
    Mr. Krebs. Well I believe the way the 2016 intelligence 
community assessment broke things down, at least the way I look 
at foreign interference, it is consistent with that report, 
there is hack and lead campaigns that was targeting for 
instance in 2016 the DNC releasing sensitive e-mails. There is 
the social media campaign that disinformation trying to sow 
divisiveness across the community and then third is the actual 
technical cybersecurity operations focusing on election 
infrastructure.
    It is important to note that anyone, any actor, could do 
any of those three things. It is just a matter of capability 
and then effectiveness.
    Mr. Walker. I want to go to Commissioner Hicks before I ask 
my question. I do want to say Commissioner Hicks, I think that 
is the best baritone voice I have heard since Lou Rawls.
    [Laughter.]
    Mr. Walker. I don't know, maybe you could slow jam the 
election news with Jimmy Fallon sometimes, I don't know. But my 
question is, what separates interference from political free 
speech? Can you give us a line or describe the parameters 
there?
    Mr. Hicks. That is a difficult question but thank you for 
the compliment by the way. The election assistance commission 
focused mostly in on the administration--the administration of 
elections. So we work with the States and local officials to 
help them administer the election in a way that ensures that 
confidence remains high, that there is no interference with the 
First Amendment rights of individuals or groups but to ensure 
that our role and we stay in our lane with that.
    Mr. Walker. So from what I am understanding, it is a hard 
line to call or it is hard to interpret. Who ultimately does 
make that decision where it crosses over in being more just 
somebody's right or somebody's free speech rights versus 
someone else who would call that interference? How do we 
describe that--how do--how do--in moving forward how do you 
interpret that?
    Mr. Hicks. Domestically, that would be the Department of 
Justice to make that determination.
    Mr. Walker. All right, let me get a couple more--time for a 
couple more. Going to go back to Director Krebs, director, 
there were multiple reports of campaigns being hacked in 2018. 
What did the DHS provide in assistance in these instances?
    Mr. Krebs. So, would have to defer to the Department of 
Justice and the FBI on any specifics of their engagements, 
whether they engaged in the campaigns. We provide our resources 
as a technical cybersecurity capability to anyone that is 
interested.
    Any information that we had or picked up through press or 
through referrals from the Department of Justice, we would 
offer our services, that would be a vulnerability assessment, 
that would be an incidence response assessment and those sorts 
of things. Those relationships, as they come about, are 
sensitive, confidential, trusted relationships. But, generally 
speaking, we continue to provide information, incidence 
response capabilities.
    Mr. Walker. Sure. I am sure they appreciate the support, 
but this--maybe just as a yes or no, are you aware that there 
were campaigns in 2018 that were hacked?
    Mr. Krebs. I am aware of reports of campaigns having, for 
instance, spear phishing and things like that----
    Mr. Walker. When you say you were aware of it, did you guys 
take a look at it? I know DOJ is lead on that, but from your 
organization, were you contacted to look into this any further 
or offer support on a campaign that was hacked?
    Mr. Krebs. I would have to go back and look at the 
specifics of any campaign. We are aware of spear phishing 
events and things like that.
    Mr. Walker. Help me understand, when you say got to go back 
and look. You are not aware or you were aware of some? You just 
don't remember?
    Mr. Krebs. What I am unclear on right now is our actual 
engagements with any specific campaigns. Typically on things of 
that nature that the FBI has direct lead on engagement. We come 
back--we kind-of put out the fire so to speak.
    Mr. Walker. If we provided maybe 2 to 3 weeks, is that 
possible? I would love to have----
    Mr. Krebs. Certainly, I would follow up, yes, sir.
    Mr. Walker. I would appreciate that. Last question, to your 
knowledge does H.R. 1 addresses campaign security?
    Mr. Krebs. I would have to go and dig into H.R. 1. I have 
been focusing on the election infrastructure piece. We always 
provide assistance to political campaigns, political 
infrastructure. So, whether it is included in H.R. 1 or not, we 
will always provide assistance.
    Mr. Walker. OK, thank you so much. Thank you, Mr. Chairman, 
I yield back.
    Chairman Thompson. Thank you. The Chair now recognizes the 
gentlelady from New Jersey, Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you Mr. Chairman. I am concerned 
about reports that election vendors don't fix vulnerabilities 
once they have been made aware of them, and then, in fact, it 
is not just recognizing a vulnerability and then reporting it 
and not having it dealt with, but even years have been 
involved. What role does the EAC have in making sure vendors 
are taking steps to remedy vulnerabilities when they find them?
    Mr. Hicks. If a vendor is--thank you, Congresswoman, for 
the question. If a vendor is a registered vendor with the EAC, 
they have a certain amount of time to report errors with their 
machines to us and fix those vulnerabilities.
    Mrs. Watson Coleman. If they don't? If they don't fix them?
    Mr. Hicks. Then we don't have enforcement authority, in 
terms of fining and so forth, but we can go toward the 
decertification of their voting equipment.
    Mrs. Watson Coleman. Does that mean that then no one can 
purchase their voting equipment?
    Mr. Hicks. Then it would not be certified under EAC 
standards.
    Mrs. Watson Coleman. So, no one could purchase and use 
their voting equipment?
    Mr. Hicks. If someone--since it is a voluntary system, 
folks could still purchase that equipment and use it.
    Mrs. Watson Coleman. To what extent have we knowledge of 
that kind of a problem?
    Mr. Hicks. If they are--voting machines are basically 
computers. So if there are patches that need to be made, then 
those are acknowledged and then fixed.
    Mrs. Watson Coleman. But, to what extent do we know of it 
being a problem where a vendor has been given sufficient notice 
and still has neglected to fix these things?
    Mr. Hicks. I have----
    Mrs. Watson Coleman. Is that a pervasive problem? Is that a 
rare problem?
    Mr. Hicks. I am not aware of any issues to that degree.
    Mrs. Watson Coleman. Do you think that we need some kind of 
enforcement authority in some entity, I don't know which one it 
would be, that would compel those types of vendors to correct 
the situation?
    Mr. Hicks. If Congress gave us that authority, then we 
would, like we have with all of the issues with the Help 
America Vote Act, we would act accordingly.
    Mrs. Watson Coleman. I know that--I know that a lot of work 
is being done with States and secretaries of state, I am 
wondering--in my State there are 21 counties and the counties 
are basically the entities that run the elections and the 
municipalities carry out.
    To what extent is there this guarantee that the information 
sharing, the training, the cybersecurity guidance gets down to 
those levels? What is the mechanism to do that? Or do you deal 
directly with the local and county officials that deal with the 
elections?
    Mr. Krebs. So, specific to the cybersecurity information-
sharing piece and the technical assistance piece, you have 
highlighted an area that we recognize needs additional 
attention. Last year the Elections Infrastructure ISAC, the 
Information Sharing Analysis Center, had 1,400 local 
jurisdictions.
    My understanding, and the number seems to change regularly, 
but somewhere in between 8,800 and 10,000 voting jurisdictions 
across the country. Some--and that is below the county, 
precincts, voting spots, so we are looking at scalable, 
repeatable ways that we can engage each and every one of them. 
For instance, deploying or providing information, I.T. manager 
training for election officials.
    As Commissioner Hicks mentioned, these devices, these 
voting--this voting equipment, the process, the databases, they 
are computers. So, election officials sometimes, sole officials 
end up having to be I.T. managers as well.
    So, it is important that we provide them the support, the 
training, what to look for in terms of phishing e-mails and 
things like that, how to apply patches, how to work with 
vendors and ask the right questions. But, for us, one of our 
top priorities in the run up to 2020 is extending out from that 
1,400 and the rest of the----
    Mrs. Watson Coleman. So the--thank you. I am sorry. The 
HAVA money that was already allocated, that is allocated, it is 
in the hands in of the various States and jurisdictions, right?
    Mr. Hicks. There were two rounds of HAVA money. One that 
were submitted in 2003 and then the 2018 HAVA funds. The 2018 
HAVA funds have all been distributed to all the 55 
jurisdictions.
    Mrs. Watson Coleman. So, we do we have an understanding 
about how much more money we need in order to ensure that the 
right voting machines, the appropriate voting machines that 
have the verifiability in them, would cost?
    Mr. Hicks. The--from my travels around the country, from 
what I have heard from individual States in terms of replacing 
all the voting equipment, can run from between half a billion 
to $1 billion.
    Mrs. Watson Coleman. Thank you. I yield back.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I am honored to serve 
on this committee again with you, sir. You are a solid patriot. 
With your leadership, and that of Ranking Member Rogers, I 
believe our committee will always move forward. Contentious, 
though, at times, we may be. We will be focused on the security 
of our homeland and we will get things done.
    Mr. Krebs, the voting systems that we are discussing today, 
explain to America--my research says that there is somewhere 
over 174,000 voting precincts in America. Is that true?
    Mr. Krebs. I would have to defer to Commissioner Hicks on--
--
    Mr. Higgins. Is that true sir?
    Mr. Hicks. Yes, sir.
    Mr. Higgins. So you have got a lot of voting precincts. 
Article I Section 4 of our Constitution gives a station--States 
and local jurisdictions State legislature authority, 
specifically to the time, place, and manner of holding 
elections for Senators and Representatives shall be prescribed 
by each State by the legislature thereof.
    So you are dealing with over 174,000 small communities. The 
voting systems we are discussing and the integrity thereof 
regarding cyber threat, is it true that most of these systems 
are--are independent? They are electronic. They are analog. 
They are not connected to the internet at all. They are--they 
are--they are in high schools and in gymnasiums across America, 
and cafeterias at elementary schools. They are rolled out, 
secured, and plugged in. They are not connected to the internet 
at all.
    Mr. Krebs. So there is, obviously, a range of equipment out 
there from various vendors. The general best practice is yes, 
they should be air-gapped. They should not be----
    Mr. Higgins. There you go.
    Mr. Krebs. I use that term----
    Mr. Higgins. I just wanted to clarify that. We are dealing 
with scores of thousands of individual voting systems, most of 
which are--are not actually connected to the internet. Now, the 
threat is real and should be--should be addressed, certainly. 
This committee will do our job regarding election security.
    In the densely populated areas there is--obviously, a 
threat to a single precinct would be more significant, 
regarding numbers, as opposed to more rural areas. Is that 
correct?
    Mr. Krebs. I think the threats can vary. There are 
certainly situations where a more densely populated--could pose 
a higher risk.
    Mr. Higgins. In other words, a small percentage of error 
interference would have a greater affect on numbers in more a 
densely populated area, and a more heavily voted precinct.
    Mr. Krebs. It is possible.
    Mr. Higgins. So it is a landscape across our Nation that we 
must serve. In my opinion, and those of my colleagues, I 
believe on both sides of the aisle, we need to move forward 
carefully. The--the cyber threats themselves--now that we have, 
sort-of, categorized what we have got. Nation-states, rogue 
states, bad actors like Russia, Iran, China, North Korea versus 
a criminal element; organized crime.
    How would you differentiate between the cyber attempt to 
interfere with an election by a nation-state versus a cyber 
attempt to interfere with an election by a criminal element 
within a nation-state?
    Mr. Krebs. So at this point, I think given the way the 
threat environment has blended, and you have hybrid threat 
actors. I am not sure that there is much of a distinction 
between nation-states and criminal elements.
    Mr. Higgins. Exactly. It--and in times past during the Cold 
War--are you familiar if you are a student of history, 
gentlemen? That rogue states, some of our enemies across the 
world attempted to influence public opinion and policy with 
pamphlets, and flyers, and illegal radio broadcasts into 
territories. Is that correct?
    Mr. Krebs. Yes, sir.
    Mr. Higgins. So wouldn't that take--wouldn't that reflect, 
in the modern era, using social media, and the attempt to 
influence public opinion, and perhaps elections in that way?
    Mr. Krebs. As--as we saw----
    Mr. Higgins. So this is nothing new, is it?
    Mr. Krebs. Well, as we saw in 2016, there were technical 
lone network operations, as well as influence campaigns. Those 
activities--the influence campaigns, in particular, continue 
today.
    Mr. Higgins. Right.
    Mr. Krebs. It is not just Russia.
    Mr. Higgins. It continues today, and we need to adapt to 
the changing time. I thank you gentlemen for doing both.
    Mr. Hicks, as an American should--in your opinion sir, do 
you think that a voting precinct, again, of over 174,000 in our 
country that has never had an issue and have never had a 
complaint; they have the Constitutional rights to run their own 
elections. These--this would include local and State elections, 
as well as Federal, of course. Do you think a voting precinct 
that has never had an issue or a problem with their system 
should be forced by the Federal Government to spend money and 
invest in manpower, and change, and--and receive interference 
from the Federal Government? I will leave you to answer, sir.
    Mr. Hicks. Thank you for the question. I wanted to clarify 
one quick thing, it is 8,000 jurisdictions across the country, 
and then the voting precincts are what you are referring to.
    I wouldn't necessarily say that there has never been any 
issues with any of those voting precincts. There are issues 
with every election, as we go--move forward. That is just the 
nature of elections. But we need to address and adapt to each 
issue as they arise.
    Mr. Higgins. Well stated, sir. I yield back, Mr. Chairman. 
Thank you for your indulgence.
    Chairman Thompson. The Chair now recognizes the gentlelady 
from New York, Ms. Clarke.
    Ms. Clarke. I thank you, Mr. Chairman, and I thank our 
Ranking Member, and I thank you gentlemen for appearing before 
us today. As a follow-up to a question my colleague, Ms. Bonnie 
Watson Coleman of New Jersey, asked: How is DHS and EAC 
prioritizing outreach to the local governments--local level?
    Mr. Hicks. Well, the former president of the National 
Association of State Election Directors was actually from New 
Jersey. We worked really closely with him, and all other 
States, to ensure that the process was moving forward. So it is 
a high priority for us. It is one we take seriously, but it is 
not our only priority.
    Mr. Krebs. DHS's No. 1 priority; more State--more local 
engagement.
    Ms. Clarke. Very well. There seem to be areas where State 
and local election officials have not yet resolved low-hanging 
fruit issues of their election security; for instance, the use 
of wireless modems to transmit election results. These 
practices needlessly introduce vulnerabilities into the 
process.
    What do you perceive as some of the low-hanging fruit in 
securing election operations? Might stronger, more vocal 
leadership from Federal partners like DHS, or EAC, or even the 
White House, move the needle on those issues?
    Mr. Krebs. So over the last couple of years we have 
conducted a number of vulnerability assessments, 26 plus 
jurisdictions, State and local. We have also conducted remote 
penetration testing.
    The interesting thing that we found was that, of all of 
those assessments, the findings were generally similar; 
unpatched systems, misconfigured systems, lack of multi-factor 
authentication.
    So what happened is we took a lot of that learning across 
those assessments, worked with the Government Coordinating 
Council, which is State, local, EAC, the intelligence 
community, law enforcement, and put together when Congress 
appropriated that $300 million to the last HAVA tranche of 
money, and provided some expenditure guidance.
    So our sense of things is that we have been pushing out 
those best practices. But there is certainly more to do. On the 
point of the modems and I used air quotes when I said air gap 
on a lot of the equipment.
    Yes, there is equipment still out there that has modems. It 
is only used in very discrete circumstances. Nonetheless, 
absolutely that is why I used my air quotes there. It is a best 
practice to disable or remove that capability.
    In some cases there was simply no other alternative for 
jurisdictions in the 2018. So that capability was limited but 
left in place. Auditability can also help identify and spot any 
irregularities.
    But my sense and understanding is going forward that 
continues to be one of those priority actions. Low-hanging 
fruit as you mentioned.
    Mr. Hicks. Thank you again. I think that it goes from A to 
Z, from voter registration all the way to election night 
reporting. That all aspects of election should have some sort 
of security to it.
    We have talked a lot about cybersecurity but I also think 
that physical should also remain high. Also we should continue 
with our quest to have all elections being audited because then 
it remains--the confidence of the election remains high.
    The way that those audits are conducted can be done by each 
individual State. But I believe that, in my own personal 
opinion, that we need to ensure that we do all we can to afford 
confidence of the--the system. Because what I have said in 2016 
and 2018, if you don't vote then your vote definitely will not 
count.
    Ms. Clarke. Well, I think part of the challenge too is at 
the local level, just the level of proficiency of the use of 
the technologies of the individuals who were employed to 
administer these elections.
    I don't know whether you are getting a true sense of that 
across the length and breadth and depth of our Nation. But I 
can tell you that there have been a lot of senior citizens that 
have this as a preferred profession.
    Not to disparage anyone but they tend to be a little bit 
less concerned about cyber hygiene. So I think that there just 
needs to be a consistent outreach to these local jurisdictions 
in helping folks to really be trained and vigilant around the 
work that they do.
    Just one more question. I know that we had talked about 
five jurisdictions that have paperless voting. I wanted to be 
corrected if I am wrong, but the only record that the votes 
cast on these machines is a digital record stored on the voting 
machines themselves, which means if the machine is hacked, 
election officials have no paper ballot they can count on by 
hand to determine how the voter really voted. Is that correct?
    Mr. Hicks. It is a lot more detailed than that because all 
these systems have more than one redundancy for back up in 
their--in their systems. So----
    Ms. Clarke. But if it is hacked how would you know?
    Mr. Hicks. Well, it could be stolen as well. So there is 
all aspects of machines could be--you do a forensic scan of 
those machines to ensure that the ballots are counted 
correctly.
    Ms. Clarke. So to the best of your knowledge, were any of 
these paperless voting machines used by States in 2018 
elections running software that was out of date with known 
exploitable cybersecurity flaws?
    Mr. Hicks. I would have to go to my staff to see what the 
actual scanning of those districts were because it is not just 
those 5 individual States. There are other jurisdictions around 
the country as well.
    Ms. Clarke. It would be good if you could get back to us 
with that. It is very important as you talk about auditability 
that we are exact in what--how these machines can be exploited.
    Mr. Hicks. I would also point to the fact that a lot of 
these States are moving away from machines that don't have a 
paper component to them.
    Ms. Clarke. We want to expedite that right? Thank you. I 
yield back. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. Chair now 
recognizes the gentlelady from Arizona, Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chair. Thanks for calling me a 
young lady. I really like that.
    [Laughter.]
    Mrs. Lesko. I got to hang around here more often. My first 
question is for Mr. Krebs and thank you both for being here.
    You know we have talked--hit on this a little bit with Mr. 
Walker but there was a lot of media--there still is a lot of 
media out there about how the Russians allegedly interfered in 
the 2016 election and I think we found out that a lot of it had 
to do with social media misinformation.
    To Ms. Slotkin's points that a lot has to do with 
perception, if voters believe that their votes count and they 
are not being compromised. To your knowledge, was there any 
evidence or is there any evidence that the Russians or anybody 
else hacked into the actual election system and changed the 
outcome of the election on Election Day?
    Mr. Krebs. Ma'am, I am not aware of any evidence that they 
had access or ability to influence the casting, counting 
tabulation.
    Mrs. Lesko. Thank you. The reason I think that is important 
is because there is a lot of confusion out there and--so we 
need to make sure that when we talk to people that we are not 
talking about actual hacking into the election system is what 
the media is talking about.
    However, we want to prevent it in the future of course. My 
next question is actually for Mr. Hicks and this was touched on 
briefly by the Ranking Member Rogers. That was about the money 
in this bill that is going toward certain things.
    So the Democrat's Congressional Task Force on Election 
Security recommended $300 million for States to acquire these 
paper ballot systems, conduct audits, address cyber 
vulnerabilities, provide cybersecurity training to local and 
State election officials, institute cybersecurity best 
practices, and to make other improvements to effect Federal 
election security. Through the Help America Vote Act Congress 
appropriated $380 million in grants for fiscal year 2018 for 
these purposes.
    This bill, H.R. 1, which we are talking about today, 
authorizes $1.77 billion in grants. So why do we need to give 
States an extra $1.77 billion to do the same thing that in this 
task force they said they could achieve with $300 million?
    Mr. Hicks. The States--from the States that I have--I have 
traveled to all 50 States in the last 4 years or so and the 
States have all indicated that elections--Federal elections 
occur every 2 years and that the replacement of voting 
equipment from the 2002, 2003 initial HAVA funds need to be 
done.
    The money that was put into the Help America Vote Act funds 
for 2018 did not just go toward machines. They went toward 
Title I, which gave States a lot of leeway into improving the 
vote--the voting process.
    Whether or not that was voter registration, audits, 
communications, just to--and other aspects as well.
    Mrs. Lesko. So, Mr. Chair, and Mr. Hicks, so I don't know 
if you answered do you--why--why if it--in one report it said 
you need only $300 million but this one is $1.77 billion. Do 
you know why?
    Mr. Hicks. I don't know why, but I believe that they were 
going toward one aspect of the process in terms of--and I have 
to read back through the report, but I would--I am assuming 
that it was one aspect of what they were looking at as opposed 
to overall with H.R. 1. Because I believe that they were just 
looking toward certain machines, but I believe that maybe H.R. 
1 covers a lot more than just the one aspect of it.
    Mrs. Lesko. Thank you, sir. Thank you, Mr. Chair, I yield 
back my time.
    Chairman Thompson. Thank you very much, as a point of 
clarification the $1.8 billion was for over 10 year's period of 
time, so it was not just 380--a one-shot deal. So it is in 
anticipation that upgrading will be a constant rather than just 
standing for one time.
    Chair recognizes the gentleman from Rhode Island, former 
Secretary of State, Mr. Langevin.
    Mr. Langevin. Thank you Mr. Chairman. Director and Mr. 
Hicks thank you very much for being here and for your testimony 
and Mr. Krebs I want to thank you also--thank you for the work 
you are doing at CISA, I am glad that agency has been 
reorganized and properly tasked, and I look forward to work 
with you, and supporting you in your work.
    Obviously this is one of the most important issues that we 
are facing as a country, has been securing our elections from 
foreign adversaries that want to try to undermine and sow 
discord. They have got a pretty effective, well-coordinated 
campaign that we have to obviously have to get even better 
organized and I know that we will.
    So I want to thank you and Assistant Director Manfra for 
your support, particularly in my home State of Rhode Island. I 
had attended one of the final planning meetings before the 
election with our Secretary of State Nellie Gorbea, who 
testified before this committee, along with you.
    Also the DHS personnel in the room made vital contributions 
to that discussion, and as someone who has overhauled an entire 
State election system, I understand the challenges of having 
the best equipment and making sure that it works well. When I 
reorganized and overhauled our election system we didn't have 
to deal with the issue of course of cybersecurity and threats 
from foreign adversaries trying to undermine us.
    So let me just say, one of the topics that came out of that 
meeting was coordination with media. We have seen how 
effectively the Russians, for example in targeting Ukraine 
elections, went right to the media and trying to sow discord 
and confusion in election processes. How have you engaged with 
local, State, and National media outlets to ensure that 
unofficial voting--vote reporting is protected from malicious 
interference?
    Mr. Krebs. So a couple examples I think that are 
instructive of the progress we have made, particularly with the 
National media, but also local and State-level media. Two 
things, one in advance--2 weeks in advance of the election we 
held a media tabletop exercise, just like what we did with the 
State, and local election officials we brought in a couple 
dozen media representatives, sat in a room, 4 hours, walked 
through a scenario that included both technical on-network 
effects as well as social media influence operations.
    We walked through here is what you would see, here is what 
you would hear from a State or a local election official, here 
is what you would hear from the Federal Government and what the 
Federal Government would be doing whether it was DHS, the FBI, 
the intelligence community--and help them understand what was 
going on in the background.
    So that, if something did happen, they would have the basis 
of understanding, they would know A, who to call, but also 
rather than say, oh there was a denial-of-service attack 
against an election night reporting website. We would be able 
to have a conversation and say, actually it is not that--
instead it is simply a configuration issue and that website 
dropped.
    The second thing we did is on Election Day every 3 hours 
over the course of the election we had a conference call with 
National media. The same thing, we would walk through issues as 
they popped up over the course of the day.
    Oftentimes we referred them to the local or State election 
official to address the questions, but where we could chip in 
and provide some clarification. Really the important thing was 
getting ahead of issues and dispelling any sort of doubt, or 
questions about what may be happening in the background. We 
found it to be very beneficial in terms of getting ahead of 
problems before they really started.
    Mr. Langevin. OK, thank you. Is--another topic, as 
Commissioner Hicks mentioned on this testimony, I know that 
Representative Slotkin has touched upon this as well.
    Obviously public confidence and the integrity of our 
elections is a vital component of our democracy and following 
the 2016 elections, American voters reported a decrease in 
confidence in the election systems, and outcomes and it is 
exactly playing to the hands of what our adversaries want to 
try to accomplish here. But election security, particularly 
cybersecurity, is certain an important aspect of increasing 
confidence, but it is not sufficient.
    So who right now in the interagency has the role of 
coordinating protection of election integrity, and its 
perception thereof, and who--which cybersecurity is just a 
part?
    Mr. Krebs. So in terms of the interagency process, the FBI 
and the Department of Justice have the responsibility to lead 
on countering foreign influence, and that is the social media 
campaigns, that is the direct response--the threat response 
piece. So as things bubble up, or pop up they work with 
partners to address and--immediately address head-on.
    The Department of Homeland Security's role here is in terms 
of--is more on the lines of educating awareness, building--
taking case studies that we saw in 2016--or even before that 
that we have seen the Russians do, that we have seen the 
Chinese do. Then pushing awareness and information out on--
these are the sorts of things that you need to look for. Here 
are the things that you can do to ensure you are getting ground 
truth and you are getting the right information.
    Again, going back to the elections, just as Chairman Hicks 
mentioned, it is--you need to listen to your State and local 
election official, they are the ones that have the official 
information. They are the ones that are going to tell you where 
to go, what day to vote. Don't listen to the text messages, 
don't listen to the tweets, or posts or whatever.
    Mr. Langevin. So do you believe that--and you talk about 
who the lead is, but you believe that there should be a whole-
of-Government approach, or should it be silos based on 
experience?
    Mr. Krebs. So it is certainly cliche but this is a whole-
of-Nation approach. There is a specific role for a number of 
agencies, including the intelligence community using their 
specific authorities, whether it is the Bureau and their law 
enforcement capabilities, whether it is the Department of 
Homeland Security and our unique convening capabilities.
    One thing I will note is that when some of the social media 
companies over the course of the election took action and took 
down, whether it was Iranian activity or whatever, we were able 
to work with the FBI, work with the social media companies, 
convene the State and local election officials in a call or 
even a Classified briefing and get--and have them walk through, 
here is what happened, here is what you need to be on the 
lookout for.
    So there is a role in this for everyone. There is a role in 
this for every American, and--and it is upon us, particularly 
the Department, to give them the awareness, the tools to be 
smarter consumers of information.
    Mr. Langevin. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Tennessee, Mr. Green.
    Mr. Green of Tennessee. Thank you, Mr. Chairman and Ranking 
Member. I extensively reviewed H.R. 1 in my previous committee 
hearing on Oversight and Government Reform. I certainly believe 
that election security is critical. Ms. Slotkin did a very nice 
job of saying--speaking about it, and I am impressed. I have to 
tell you, I am very impressed with what you have done in the 
2018 cycle--essentially flawless.
    There were no penetrations that we are aware of--and we 
have to be able to do that. We--our democracy rests on one 
person, one vote. But with regards to this H.R. 1, I am going 
to be completely upfront and say that I am disappointed by the 
Majority party because it seems to have disregarded our 
Constitution.
    They claim the purpose of the bill is to protect our 
institutions, but they are promoting a bill that fails to 
improve security, all while thumbing the nose--or its nose to 
Federalism. Our country was not made for a few hundred people 
in Washington, DC to dictate to my State in Tennessee how we 
are going to do everything, including our elections.
    Our founders, our Constitution, our electoral process have 
been grounded in Federalism. This bedrock is the foundation of 
our country, and it has to be protected. When power is 
concentrated in the hands of a few, tyranny inevitably follows. 
Our founders knew this; that is why they created, you know, 
three branches of Government.
    They created separation between the Federal Government, the 
States, the local government--recall the 10th Amendment. I want 
to thank you again for the hard work that resulted in such 
success in 2018, and I, from the previous questions that were 
asked, assume you have not read H.R. 1. Is that correct?
    Mr. Krebs. I have reviewed it, yes.
    Mr. Green of Tennessee. You have reviewed it? OK. Can you 
tell me, then, in a more global sense, how far should the 
Federal Government be able to go in telling Tennessee how we 
run our elections? Considering specifically, what was read 
earlier from my colleague, about what the Constitution says 
concerning elections.
    Mr. Krebs. I--so every State is different; every 
jurisdiction's different, every set of equipment's going to be 
different. I would defer to Secretary Hargett to decide what is 
best for the citizens of Tennessee.
    But whatever I can do, as the Department of Homeland 
Security, to make his job easier--the thing I will note, and it 
has been part of the conversation throughout the morning, that 
the threat landscape is different today in 2019 than it was in 
2001, with HAVA and even before that. Back then, we were 
focused on--the Department was focused on an antiterrorism 
mission.
    Today, we have the most active nation-state adversary 
landscape, certainly in my lifetime. That means that individual 
States, individual counties, individual precincts cannot go it 
alone against the full-frontal assault of the Russian GRU or 
the Russian FSB. So I need to be able to provide whatever 
capabilities I can so that we can assure a collective defense 
across election security.
    Mr. Green of Tennessee. Yes, but the--the--as you have 
reviewed H.R. 1, I am sure you know that it tells Tennessee we 
can't have voter identification; it tells us we--we can allow 
voter registration to happen on the day of the election with no 
way to verify it.
    That seems to me to be a violation of the Constitution, as 
has been read and is clearly articulated in the 10th Amendment. 
That is more than just security; that is dictating how we run 
our elections in Tennessee.
    Quite honestly, that is offensive to us down in Tennessee. 
For Mr. Hicks, I do have a question, sir. You said there is 
about 8,000 jurisdictions, if I understood correctly. How many 
of those jurisdictions are identical? They do elections 
identical to one or the other?
    Mr. Hicks. That would be a difficult question to answer. I 
believe that, you know, each individual jurisdiction conducts 
their elections the way that they feel best for those 
constituents in their jurisdiction.
    But the Election Assistance Commission goes to these--once 
invited, goes to these States and jurisdictions to offer our 
assistance, whether or not that is the $380 million that 
Congress appropriated or other aspects through our clearing 
house or other aspects of it, because those jurisdictions might 
not know techniques or things that are being done in other 
jurisdictions. But we bring that to them so they can run their 
elections effectively.
    Mr. Green of Tennessee. Well, thank you for that answer, 
and I really appreciate it. My issue isn't so much with you 
not--with your help--we want your help; it is essential to 
protecting--but dictating how we run our elections in 
Tennessee, that is a little different. That is my point. Thank 
you very much.
    Chairman Thompson. The Chair now recognizes the gentlelady 
from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much for this 
hearing. Along with the Ranking Member, we are appreciative for 
a hearing that indicates one of the strongest elements of 
democracy is the independent right of every American to cast 
their vote, unimpeded, unsuppressed, and unoppressed.
    Let me ask you, Commissioner Hicks--and thank you for the 
Election Assistance Commission. In 2016, I believe then-
Secretary Jeh Johnson joined with 16 other agencies, 
intelligence agencies, as I recall, the fall of the election to 
indicate a conspicuous engagement of Russia into the elections.
    Let me just read a sentence--E-Deceptive Campaign Practices 
Report 2010; Electronic Privacy Information Center. They are, 
however, talking generally about what deceptive campaigns or 
attempts to misdirect targeted voters, regarding the voting 
process, or in some way affect their willingness to cast a 
vote.
    Deceptive election activities include false statements 
about polling place opening and closing times the date of the 
election--voter identification rules or the eligibility 
requirements for voters who wish to cast a vote. I think the 
intelligence report was focused on targeting voters, misleading 
information, social media, do you believe, based on those 
intelligence reports at that time--you are aware of that 
report, elective report, in 2016?
    Mr. Hicks. I am aware of it.
    Ms. Jackson Lee. Do you believe the reports, first of all, 
Mr. Johnson joined in that report ahead of the Department of 
Homeland Security?
    Mr. Hicks. I have no reason to believe that that was false.
    Ms. Jackson Lee. So in that--and Mr. Krebs?
    Mr. Krebs. Yes, ma'am; I agree with the intelligence 
community assessment.
    Ms. Jackson Lee. So we know that there is, among others--
and we certainly know that Russia is--looms large as having 
intentions to interfere with our elections. That means Federal 
elections, but Federal elections are held in States. We are a 
collective of 50 States, so we know that that--they would be 
impacted.
    In that kind of report and the efforts that you all have, 
do you see States willing to accept your assistance, and in 
what way is the best way that you are helping States 
acknowledge their own plight, if you will, of susceptibility to 
this kind of intrusion?
    Mr. Hicks. I believe State--thank you, Congresswoman--I 
believe States have come to the Federal Government more so than 
they were before because there was a little bit of a hesitation 
that way. But I believe that communication has improved to the 
point where States are giving their input through the 
Government coordinating council, working with vendors and other 
aspects of that through the sector-specific council to ensure 
that the election integrity remains high.
    Ms. Jackson Lee. Let me, because my time is short, go to 
the cybersecurity for both of you to ask or Director Krebs you 
can start with this. Cybersecurity involves everything from 
large systems to small mobile devices. My question is about a 
host of technologies Classified as edge devices that may have 
internet connections. How concerned should you be about edge 
devices and election technology security?
    Mr. Krebs. So we----
    Ms. Jackson Lee. We could be concerned.
    Mr. Krebs. Yes, ma'am. I briefly touched on some of those 
equipments that have modem or other telecommunications 
connectivity, best practice generally speaking is to disable or 
remove that sort of capability. In 2018 some just didn't have 
the time or the equipment to transition out. But it is 
something that across the risk profile of election 
infrastructure, it is something that we work on. We work with 
the State and local officials that have that equipment and we 
work on transitioning and road mapping to more secure systems.
    Ms. Jackson Lee. To each of you, do you feel, in spite of 
your good works, that our election systems, State and Federal, 
are still in jeopardy of intrusion?
    Mr. Hicks. I believe that there can always be improvements 
to be made and I believe that the work of the EAC can help with 
those improvements.
    Ms. Jackson Lee. Do you feel that would be foreign 
intrusions----
    Mr. Krebs. Yes. There is always progress that can be made.
    Ms. Jackson Lee. Let me ask the Chairman to submit into the 
record from the Brennan Center for Justice a study on securing 
elections from foreign interference, ask unanimous consent.
    Chairman Thompson. Without objection.
    [The information referred to follows:]
       Letter Submitted For the Record by Hon. Sheila Jackson Lee
                                 February 12, 2019.
Representative Jackson Lee,
2079 Rayburn HOB, Washington, DC 20515.
    Dear Representative Jackson Lee: My name is Lawrence Norden, and I 
am the Deputy Director of Democracy at The Brennan Center for Justice 
at NYU School of Law. First, please extend the Brennan Center's thanks 
to Chairman Thompson and the U.S. House Committee on Homeland Security 
for holding tomorrow's hearing on Election Security, an issue of 
critical national importance. For nearly 15 years, I have led the 
Brennan Center's extensive work on election security and foreign 
interference. In 2005, in response to growing public concern over the 
security of new electronic voting systems, I chaired a task force (the 
``Security Task Force'') of the nation's leading technologists, 
election experts, and security professionals assembled by the Brennan 
Center to analyze the security and reliability of the nation's 
electronic voting machines.\1\
---------------------------------------------------------------------------
    \1\ Lawrence Norden, The Machinery of Democracy: Voting System, 
Security, Accessibility, Usability, and Cost, Brennan Center for 
Justice, 46, 2006, https://www.brennancenter.org/sites/default/files/
publications/Machinery_Democracy.pdf.
---------------------------------------------------------------------------
    In the 14 years since, I have authored or co-authored numerous 
studies on the security, usability, cost, and design of our election 
systems. In 2017, with my colleague Ian Vandewalker, I co-authored 
Securing America's Elections from Foreign Interference, which looks at 
the key steps we must take to ensure our elections are secure, free, 
and fair.\2\ The report begins with a foreword from Ambassador R. James 
Woolsey, former Director of Central Intelligence, and I have attached 
it to this letter.* With the 2020 elections around the corner, I 
believe the study will be of use to the committee. I ask that this 
report be placed into the record for the hearing.
---------------------------------------------------------------------------
    \2\ Lawrence Norden, Securing America 's Elections from Foreign 
Interference, Brennan Center for Justice, 2017, https://
www.brennancenter.org/sites/default/files/publications/
Securing_Elections_From_Foreign_Interference_1.pdf.
    * The document has been retained in committee files and is 
available at the website listed above.
---------------------------------------------------------------------------
    In the coming weeks, the Brennan Center will be releasing a new 
study on the state of voting technology and the need for additional 
resources to ensure that our elections in 2020 are as secure and 
reliable a possible.
    My colleagues at the Brennan Center and I are available to speak to 
the committee, as well as provide briefings or updates, at the 
committee's request.
            Sincerely,
                                              Larry Norden,
                                Deputy Director, Democracy Program.

    Ms. Jackson Lee. And unanimous consent for E-deceptive 
Campaign Practices by the Electronic Privacy Information 
Center, unanimous consent.
    Chairman Thompson. Without objection.**
---------------------------------------------------------------------------
    ** The document has been retained in committee files and is 
available at https://epic.org/privacy/voting/
E_Deceptive_Report_10_2010.pdf.
---------------------------------------------------------------------------
    Ms. Jackson Lee. To the two witnesses just a yes or no 
answer. The help of this committee and legislative effort to 
improve your work along with funding, would that be of help to 
you, Mr. Hicks?
    Mr. Hicks. Yes.
    Ms. Jackson Lee. Mr. Krebs.
    Mr. Krebs. Yes, ma'am.
    Ms. Jackson Lee. Thank you very much. I yield back.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Texas, Mr. Taylor.
    Mr. Taylor. Thank you Mr. Chairman. Thank you Ranking 
Member. I appreciate the opportunity to be here.
    So in 2011, I carried the MOVE Act Compliance Legislation 
for the State of Texas. So in 2009 on a bipartisan effort 
Congress passed the law that allowed States to do--or required 
States to do a better job of helping men and women who were 
serving in uniform outside the United States be able to vote. 
That was--that was a 4-year compliance periods so the States 
had 4 years to comply with it. One of the reasons for that was 
that it--logistically we had to change our election schedule in 
Texas and so I am sure my colleagues from Texas will recall 
that all of the sudden they were filing instead of in January 
they were filing in December and that actually required a 
Constitutional amendment that had to be passed by the citizens 
of Texas.
    So in working on that, again on a bipartisan basis, it took 
a lot of lifting on behalf of the State to comply with that 
piece of legislation. This legislation is far more ambitious in 
what it endeavors to do. Has there been--have--have you done a 
study Mr. Krebs of what different States' laws they would have 
to change or Constitutional amendments that they would have 
to--to comply with H.R. 1? Have you done that Mr. Krebs?
    Mr. Krebs. No, sir. We are focused on the technical 
aspects.
    Mr. Taylor. OK, and Mr. Hicks, have you done that? Have you 
analyzed what Constitutional amendments or statutory changes 
would be necessitated by H.R. 1?
    Mr. Hicks. We have not.
    Mr. Taylor. OK. I certainly hope if this is a serious bill, 
if this is something we actually think will be passed into law 
that we have thought about at some level what we are going to 
have to do at the State level because we cannot comply with 
this at the State level unless we have really thought about it. 
I--I hope this isn't a show bill.
    So Commissioner Hicks, in terms of ballot stuffing of 
yesteryear, right? So we--we had ballot stuffing with paper 
ballots, is--with the paper ballot provision in H.R. 1 return 
us to the system of paper ballots? I mean is that--is that what 
we are doing? We are kind-of going back in time?
    Mr. Hicks. I guess I would need to read back through it 
because I don't--I don't interpret it that way.
    Mr. Taylor. So the way I read it is that it requires paper 
ballots. Is that--is that not what you--what you understand?
    Mr. Hicks. For auditability.
    Mr. Taylor. Right. So for time--for auditability and I 
think this is an important distinction that we should let out 
here. So time now, in my county, we have electronic machines 
that print out on an individual machine-by-machine basis an 
audit of every vote so that that can be gone through and done 
with an audit. So the machines are auditable through a paper 
trail, not of the ballot itself but of what it--of ballots that 
are cast on that particular machine if that makes sense.
    So as I understand this bill, everybody has got to stop 
using those machines and start buying new machines that are all 
paper ballots. That is my understanding.
    Mr. Hicks. That is not my understanding because there are 
some machines that might have a paper trail associated under 
glass but it would be the verifiability of the voter to verify 
that piece of paper.
    Mr. Taylor. Are there enough machines that will be 
manufactured between now and the beginning of the primaries in 
less than a year that we could actually implement this bill?
    Mr. Hicks. I would need to talk to the vendors to see their 
capabilities of manufacturing those machines.
    Mr. Taylor. So we don't know if it could--it is even 
physically possible to generate the number of machines that 
will be required with this. I know there is funding in this 
legislation but I am just unclear of whether or not it is even 
possible to logistically have all the machines in place.
    Mr. Hicks. I would have to talk to the vendors themselves.
    Mr. Taylor. You don't know. Does anybody--Mr. Krebs, do you 
have any idea?
    Mr. Krebs. I don't know but I assume if there is money to 
be made they will figure out a way to do it.
    [Laughter.]
    Mr. Taylor. Well and I think and just as a practical--on a 
practical level so actually in my home county in Collin County, 
Texas, I was actually an election judge before I was elected to 
the legislature and in that process I saw what happens when 
there are not enough voting machines.
    You have very long lines, people get discouraged and they 
don't vote and so you have reduction of participation which is 
really--it is a really disappointing event.
    It is a very sad thing when people show up to vote, they 
wait for an hour, they can't actually vote because there aren't 
enough machines. Is--what--what provisions do we have in this 
legislation that would protect from that scenario because it 
seems like we are setting up in this rush to try to get a bill 
out the door to provide funding with very limited amount of 
time to put it together, so to speak, that we would make sure 
that we have enough voting locations that we don't have people 
lining up and then saying I am not going to participate, I am 
not going to vote.
    Mr. Hicks. I think States have done a great job of moving 
toward Election Day being the last date to actually cast their 
ballot. Some States have moved toward early voting or vote 
centers or absentee voting as well to alleviate the charge of 
having Election Day where 100 million people are trying to show 
up at the polls.
    Mr. Taylor. Thank you. Thank you Mr. Chairman, I yield 
back.
    Chairman Thompson. Thank you very much. Let me, for the 
record, indicate for the Members and the witnesses, we are 
technically here for only Section 3 of H.R. 1 bill. Some of the 
questions have gone to other sections of the bill and I would 
like for us to talk specifically about Section 3, which is our 
jurisdiction. Yes, so I am--I just--I understand the interest, 
but I don't think the witnesses are prepared to address some of 
the questions that have been offered by the committee at this 
point and that is just to make sure that we are all on track.
    We now recognize the gentleman from New York, Mr. Rose.
    Mr. Rose. Chairman, thank you, and that is Staten Island, 
Mr. Chairman.
    Chairman Thompson. There is a difference.
    [Laughter.]
    Mr. Rose. Mr. Krebs, how you doing? I am the incoming 
Subcommittee Chair of Intel and Counterterrorism, so I look 
forward to working with you and I think you hit the nail on the 
head earlier, that it is clear that there are state actors, 
non-state actors that are probing the homeland across the board 
to figure out where our vulnerabilities are. As they conduct 
that probe, our electoral systems are one of the things that 
they are analyzing.
    So, in line with that I want to get a sense of, when you 
are working with local and State actors, who are you talking 
to? Is it the Terrorism Task Force, is it the Fusion Center, is 
the secretary of state, is it the Governor, is the law 
enforcement entities? If it is all of the above, how do you do 
that and what systems are in place to coordinate that type of 
multifaceted action?
    Mr. Krebs. It is all of the above and even more, the 
Homeland Security advisers and Adjutant Generals and things of 
that nature. My team, the Cyber Infrastructure Security Agency, 
which you rightly point out, this election security issue is 
not just about cybersecurity threats, there are also physical 
securities threats, there are insider threat, their access to 
machines, manipulation to machines on device that we need to be 
thinking about. So, we approach this as a cyber and physical 
security.
    But, more broadly, form a counterterrorism perspective--the 
thing I have learned over the last couple years is that 
secretaries of state are their natural risk managers. They have 
to plan for the hurricane. Look at what happened in the 
panhandle of Florida in the last election cycle. They have got 
to anticipate any nature of threat, and so, as we work through, 
we do active-shooter training and those sorts of activities.
    We have mechanisms in place, including, my team has over 
140 security advisers out in the field that work day in, day 
out with infrastructure owner/operators, with these officials, 
they conduct training, they do walk-throughs, they do security 
facility assessments to--in a lot of cases they provide reports 
back to the facility owner/operator with suggested 
improvements.
    Mr. Rose. So, but just to push you for a second on this, my 
understanding then is that there--you don't have an entity that 
you are reaching out to, to coordinate this at the State and 
regional level. That it is incumbent upon you all, with these 
140 folks, to be reaching out to all of these local entities 
and it seems, from our perspective, that this is rather 
disparate.
    Mr. Krebs. So, specific to elections, we have developed 
communications protocols after some of the missteps of the 
2016--post-2016 notifications where we have a coordination 
protocol, where we work with the State--the chief election 
official, the homeland security advisers, and so that is 
typically our point of entry for--specific to elections.
    Mr. Rose. OK, it would be great to see that.
    Mr. Krebs. Yes, sir.
    Mr. Rose. Then just last, at the Federal level, you 
mentioned that you have convening responsibility, but who is 
actually in charge of this interagency process? Who's at the 
head of the table when all these folks are gathered together 
and who has that statutory authority to actually make sure that 
we are getting the job done here?
    Mr. Krebs. So, there are a couple different levels of this 
conversation. There is a policy coordination piece that the 
National Security Council, Ambassador Bolton leads. There have 
been a number of convening meetings and what-not, all the way 
up to the principle committee meetings with the President.
    Then at the operational level, there is a working group 
that brings together the Department of Defense, the EAC is 
involved, the DNI.
    Mr. Rose. Are you in charge of the working group?
    Mr. Krebs. Am I? No, sir. I am in charge of the 
cybersecurity expertise and technical support to election 
officials, that is my role.
    Mr. Rose. Who would be in charge of the working group?
    Mr. Krebs. There are a range of responsibilities and there 
is law enforcement actions, that is naturally the FBI, there is 
intelligence assessments, that is naturally the Director of 
National Intelligence, there is the cybersecurity piece, that 
is me. This again goes to the whole-of-Nation, the whole-of-
Government approach. There is no one agency that has all of the 
tools and capabilities that are needed to push back on this.
    Mr. Rose. OK, all right. Thank you. I yield back my times.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Texas, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman and thank you both 
for being here. I am pleased that this committee is meeting to 
discuss the integrity of our elections and how to strengthen 
the cybersecurity of our election infrastructure.
    I will say, that election integrity is multifaceted, there 
is a lot of aspects to it. It is not just the cyber side, but 
it is also the voter fraud side, including voter I.D. laws and 
how to prevent fraud by vote by mail.
    I would say it is unfortunate that this is not a mark-up 
process and it is also unfortunate that this part of the bill, 
which I think we could reasonably come to a bipartisan solution 
on, is attached to a much larger bill that is poisonous and 
will certainly not make it past the Senate.
    I want to ask you both, could you clarify what role you had 
in crafting this particular legislation?
    Mr. Krebs. So, in the last Congress we certainly provided 
technical assistance on aspects that got rolled into it, but 
suggestions on what DHS needs, what DHS does.
    Mr. Crenshaw. OK.
    Mr. Hicks. I spent 11 years as a House staffer. If the 
committee wants to come and ask my opinion, I am more than 
willing to give it.
    Mr. Crenshaw. OK, but you were not consulted prior to this 
hearing on what should be in this section of the bill?
    Mr. Hicks. The committee--Chairman Thompson and then-
Chairman Brady invited me to speak before their Task Force and 
I gave input there on various aspects.
    Mr. Crenshaw. Is there anything missing from this section 
of the bill that would you recommend go in it? Are there new 
authorities or capabilities that--and I think this is directed 
to you, Director Krebs, that DHS would need that are currently 
not in it?
    Mr. Krebs. So at this point, again, I think the Department 
has, generally speaking, the authorities we need to engage and 
support the election officials.
    Mr. Crenshaw. One of the key provisions in this bill, it 
includes the expiration date on funds. It is asking us to spend 
a lot more money very rapidly; I want to get a sense of how 
realistic that is from you all. Given the slow pace of 
upgrading election infrastructure, do you think that States 
would need more time and flexibility on this, given your 
experience working with them?
    Mr. Hicks. I believe that the Chairman had talked about 
that this would go over for 10 years and in that cycle there 
would be 5 Federal elections, allowing for States to make 
improvements overall.
    If the--I believe that the provision was put in there 
because of the original HAVA provisions that allowed States to 
use those funds in perpetuity. So this gives them a deadline to 
actually spend the money similar to the 2018 provision, which 
only allowed for 5 years.
    Mr. Crenshaw. Do you have anything to add?
    Mr. Krebs. Sir, our role is to help the election officials 
spend the money in the most risk-based and security-formed 
manner.
    Mr. Crenshaw. Thank you gentleman, I yield.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentlelady from Illinois, Ms. Underwood.
    Ms. Underwood. Thank you Chairman Thompson for calling this 
important hearing, and it is a hearing that central to 
protecting our democracy and I thank the witnesses for 
testimony here today. My own State of Illinois was a target 
during the 2016 Presidential elections where the information of 
the 76,000 Illinoisans were compromised by Russian hackers.
    So while I am relieved to hear from you that there are no 
known harms that were caused in 2018's midterm elections by 
nation-state actors, for me, and I think those on this panel it 
is critical that State, Federal, and local governments continue 
to collaborate to strengthen election security and landscape of 
these ever-evolving threats. Now my colleague Congresswoman 
Slotkin pursued a line of questioning with you regarding social 
media and some of the threats that you all have recognized.
    My follow-up question, at the end of your response sir, Mr. 
Krebs, is that you said that the enemy was changing tactics and 
so what should we be looking for in 2020 to ensure that we are 
continuing preparedness particularly at the State and local 
levels?
    Mr. Krebs. That is exactly the question, what do we need to 
be prepared for? We have a habit of defending against the last 
attack, and so we can close out the last avenue of attack, we 
can patch vulnerabilities, we can configure systems more 
security. But if we have seen anything, the adversary gets 
ahead of us, anticipates.
    So what we are working through right now is what could an 
advanced actor do? I--this is a personal perspective, but I 
tend to think that they could look back and exploit, hey, we 
were in that system--we are in there again. But they might not 
really be there.
    Ms. Underwood. Right.
    Mr. Krebs. So they--and one way to look at it is the 
Russians in some cases are living rent-free in our heads, and 
so how are they going to take that to their advantage without 
actually being on-network, but using their media--social media 
tools, their influence campaigns. So staying ahead of them and 
their ability to spread false information--it is working with 
social media, it is working with the traditional media in a 
content-neutral way.
    But getting ahead and anticipating the things they may try 
to push, but most importantly and this again goes to that 
whole-of-Nation approach. What can we do to better inform the 
American people of the risks that are being presented to them 
and information that is being presented, again to make them 
more informed consumers?
    Ms. Underwood. More concretely then, you perceive social 
media to continue to be a significant threat heading in to 
2020?
    Mr. Krebs. I see from a cost----
    Ms. Underwood. OK.
    Mr. Krebs. Effectiveness and risk perspective, that is 
probably--it is cheap to do, it is highly effective in terms of 
broad impact, and it is comparatively low-risk compared to on-
network activity. So I think that it is going to remain a tool 
in their toolkit, they continue to do it to this day. What is 
most concerning is more actors, including the Iranians and 
others are getting in to that game, following the lead of the 
Russians.
    Ms. Underwood. Sure. One of the trends that we have seen, 
at least in Illinois is the rise in popularity of early voting, 
taking advantage of vote by mail or, as we call it, vote at 
home. So wondering about any specific threats obviously social 
media is probably less relevant in that stage of voting in an 
election, so just wondering if you had any specific threats 
that you might want to make this committee aware of?
    Mr. Krebs. I am not aware of any specific threats to early 
voting, the thing I will note though is early voting provides 
us earlier opportunities to spot anomalies through the auditing 
process and other security fall-back measures. So in some 
cases, it actually advantages the defender.
    Ms. Underwood. In your experience every jurisdiction is 
engaging in that auditing process throughout the early vote 
period?
    Mr. Krebs. I am not sure I have enough information to say 
that conclusively.
    Ms. Underwood. Where would we go to find that out?
    Mr. Krebs. In part, we would need to work with EAC through 
some of their mechanisms.
    Ms. Underwood. OK, thank you so much. I yield back, sir.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the other gentlemen from Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman. I will follow up a 
little bit to what Congressman Taylor had talked about earlier. 
In section 3001 of this act it says that it amends the Help 
America Vote Act of 2002, to create a grant program for States 
to replace current voting machines with paper ballot systems, 
for security improvements before the 2020 general Federal 
election. Mr. Krebs, do you know what percentage of voting 
systems would have to be replaced to meet that requirement?
    Mr. Krebs. Specifically no, but I know that 5 States and--
83 percent of another very large State need to go through that 
process.
    Mr. Guest. So would the other 45 or 44 and a percentage of 
the State that is not in compliance--would those current voting 
systems comply with what we are seeking to do here?
    Mr. Krebs. I would have to do a little bit deeper research 
on there, but I do know that of those other States that may be 
nominally in compliance, there are still legacy machines that 
are outdated and some of them may not be supported by the 
vendor. It is a good thing to refresh and retire legacy 
systems.
    Mr. Guest. OK, but as far as a percentage of systems that 
would need to be replaced, you do not have a percentage to give 
us today?
    Mr. Krebs. Not--not with me sir, I would have to work with 
the----
    Mr. Guest. Mr. Hicks, do you have any idea?
    Mr. Hicks. I could talk to our staff to figure out what the 
exact percentage is, but I don't have a direct percentage right 
now.
    Mr. Guest. Do you have an estimate on the cost to comply 
with section 3001, Mr. Krebs?
    Mr. Krebs. No, sir.
    Mr. Guest. Mr. Hicks.
    Mr. Hicks. The earlier testimony before the Senate Rules 
Committee, that question was asked about replacing aging voting 
equipment in non-compliance would be in this bill, I believe 
that to be between $500 million and $1 billion.
    Mr. Guest. I know there was previous testimony that at 
least 45 States currently used paper ballots--and this may have 
been testified to earlier and I may have missed it--outside of 
Georgia what were the other 4 States that do not currently use 
paper ballots?
    Mr. Hicks. South Carolina, Louisiana, I believe New 
Jersey--and I would have to get the rest of that--and Delaware, 
yes.
    Mr. Guest. Then Mr. Krebs you said that there was another 
State that was partially in compliance with using paper 
ballots----
    Mr. Krebs. Pennsylvania----
    Mr. Guest. Pennsylvania.
    Mr. Krebs. Yes, sir.
    Mr. Guest. What percentage of Pennsylvania did you say does 
not currently use paper ballots?
    Mr. Krebs. I would have to get back to your with specifics, 
it is somewhere around the 80 percent number. I will note that 
all 5 States that are--don't have paper trails right now, and 
the State of Pennsylvania are all on a path toward voter 
verifiable paper trail. These are good things, this is a good 
trend.
    Mr. Guest. Of those States that we have just talked about 
that are on that path, do we have any idea as to whether or not 
they will have paper ballots for the 2020 election cycle?
    Mr. Hicks. I would--I don't know if all 5 of those will be 
but I know that they are on that path to comply with that. But 
I would also say that whatever path they take to ensure that 
those folks who have disabilities can still vote independently 
and privately as prescribed by the law in the Help America Vote 
Act.
    Mr. Guest. Then finally, Mr. Krebs, in your report on page 
6 you say that our voting infrastructure is diverse subject to 
local control and has many checks and balances. Do you believe, 
Mr. Krebs, that elections should remain under local control?
    Mr. Krebs. Yes, sir.
    Mr. Guest. Do you--do you Mr. Hicks, do you also believe 
elections should remain under local control?
    Mr. Hicks. States and localities are the ones that run 
elections.
    Mr. Guest. Thank you. I yield back Mr. Chair.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Texas, Mr. Green.
    Mr. Green of Texas. Thank you Mr. Chairman. Thank you for 
your leadership and allowing me to serve on this committee 
under our leadership. I am a person who loves his country and I 
love my State but I have heard this 10th Amendment argument 
before. Lonnie Smith was a dentist in Houston, Texas. He wanted 
to vote and there was a white primary. Smith versus Allwright, 
1944, went to the Supreme Court of the United States of 
America. Lonnie Smith prevailed; that ended white primaries.
    The 10th Amendment argument has been used consistently by 
some States who deny rights. Texas is one such State. I love my 
State but Texas has been a bad actor for decades. I love my 
State. My State currently has a poll tax in contravention of 
the 24th Amendment to the Constitution of the United States of 
America. Talk about this photo I.D. and we will give you an 
I.D. if you can't afford it, if you are indigent.
    Well I tested that system and voted without my proper I.D. 
and had some time to secure the proper I.D. The State of Texas 
will accord you an I.D. at no cost if you are from Texas 
because in my case I am from Louisiana. I had to get my birth 
certificate from Louisiana to get my I.D. in Texas and I had to 
pay a fee for that; clever ways to disenfranchise.
    So I thank God for the Federal Government and the stand 
that has been taken over the years to protect the rights of 
people in States. I don't think that is in contravention of the 
10th Amendment.
    Now, to my question, you said Mr. Hicks that the States are 
moving toward some sort of paper component, I believe is the 
phraseology that you utilized. Paper trail is what people at my 
level of life would probably say, ``Why are they doing that?'' 
What is the rationale for moving to paper verification?
    Mr. Hicks. It is a little bit of two things. One, I believe 
it is confidence to ensure that the--if there is an audit being 
done that there is some sort of physical trail that people can 
point to and do a physical count of that. The other is I 
believe just moving back toward confidence as well.
    Mr. Green of Texas. Confidence and the level of confidence 
that we aspire or that we desire to have, is that one that 
would give us a belief that if there has been some sort of 
intervention, we will be able to detect it and that paper--
verifiable paper may be of assistance?
    Mr. Hicks. There could be.
    Mr. Green of Texas. If this is the case that verifiable 
assistance by way of paper is something that is of value, can 
you give me a good reason why we would oppose having verifiable 
paper given that States are moving toward it and given if there 
is some value in it, why would we oppose it? What is a good 
reason to desire a system that doesn't have this type of 
verification?
    Mr. Hicks. The biggest reason that I have heard over the 
years is those folks who have disabilities who may not have the 
dexterity functions to handle that paper and to verify it. So 
if I am without sight, I can't verify a piece of paper 
physically. I think the technology is moving toward allowing 
folks who have sight disabilities to be able to verify that but 
they still would have to physically use that paper. I believe 
that we have come a long way since the 2000 election in terms 
of technology and moving forward.
    For instance back in 2000, everyone in this room probably 
has a smart phone. No one had those issues. So as we move 
forward with technology to allow for people to cast their 
ballots and so forth, the other aspect of that is people who 
live overseas and are in combat areas where they might not have 
access to a fax machine to fax that back or the ability to get 
that piece of paper back. But to ensure that our military and 
overseas folks still have a way to cast their ballots for the 
rights they are defending for us all.
    Mr. Green of Texas. Thank you. Persons who need assistance 
in polling places, we currently allow that. If you need some 
sort of--if you are visually impaired we allow you to be 
assisted and there are ways to deal with our military personnel 
in foreign places, distant places. The empirical evidence seems 
to indicate that there is more value in having it than not. Is 
that a fair statement?
    Mr. Hicks. Yes.
    Mr. Green of Texas. All right, thank you Mr. Chairman. I 
yield back.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentlelady from Florida who comes from a State 
that has some minor experience in voting issues. Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman and thank you 
again to our witnesses for being here with us. Everybody in 
this room clearly understands the deep, dark, ugly history that 
our great Nation has as it pertains to voter suppression and I 
would think that this committee would lead the effort in making 
sure that we have a system that allows citizens of this country 
to be able to exercise their right to vote. That I would 
believe in this country that we would ensure that race, gender, 
economic status, or ZIP code would never again be--to a 
person's right to vote. So I want to thank you--the two of you 
for what you do to make our process fair.
    I am from Florida and let me just say I am not offended 
when Florida people all over this Nation question what in the 
heck is going on in Florida? I am not offended by it because I 
am committed to making sure that we get the process right. We 
can never underestimate the--how important the cooperation is 
between Federal, State, and local governments are to making 
sure that this process is right. In the November's election, 20 
States, including my home State of Florida, elected new 
Governors, and while several others elected or appointed new 
secretaries of state.
    So as we prepare for the 2020 election and using what 
happened in 2016 kind of as a tool that we will not forget, 
looking at the vulnerabilities and the experiences of 2016, I 
will ask both of you, what outreach have you participated in to 
secretaries of state, to new executive officers or Governors to 
make sure that they are prepared for the 2020 process?
    Mr. Hicks. Thank you, Congresswoman. That is a great 
question. We work very closely with the National Association of 
Secretaries of State, and I actually participated in their 
winter conference 2 weeks ago, where I met several of the new 
secretaries myself. We also work with the National Association 
of State Election Directors who also had their conference a 
couple of weeks ago, here in the District of Columbia, where I 
have met several of those new folks.
    We work very closely with them to find out what sort of 
assistance the EAC can have. In 2018, we held a summit in--at 
the National Press Club where it was well attended, broadcast 
on C-SPAN, where we talked to people about preparing for the 
2018 election.
    One month before the 2018 election, in October we held a--
another summit in the Congressional Visitor's Center where 
Members of Congress and others were able to kick the tires on 
voting machines, and hear from election officials, themselves, 
about how they were preparing for the election coming up.
    I believe that the EAC is looking to hold additional forums 
this year, and next year, with disability groups, and State 
election officials, and others so that we can continue our 
partnership. I believe that we have come a long way from when 
folks were not looking favorably upon the EAC. I would ask that 
you talk to--or ask the question to the secretaries of state.
    I might be a little worried about this, but--about how we 
are doing, and move forward. There are other things that we can 
do to improve the process. But at the end of the day, this is a 
partnership where we hope to do what is best for the American 
people, and ensure that the confidence remains high.
    I journeyed to your State in--in December to go down to Bay 
County and talk to folks, and find out what actually happened, 
and how they prepared for the election, since they were--things 
were destroyed. They were cleaning out voting equipment with 
toothbrushes, basically. But they still pulled the election 
off. We want to be able to provide them resources, not just 
monetarily, but advice on how to prepare for 2020, and moving 
forward.
    Mrs. Demings. Thank you. Director Krebs.
    Mr. Krebs. Briefly, I have the advantage of having a field 
force, 140 folks out in field. Their top priority, as these new 
secretaries were being sworn in, was to get meetings on the 
books. Unfortunately, some of those meetings were disrupted by 
the shutdown. But those are back on the books. We are engaging 
full speed ahead.
    Mrs. Demings. Great. Thank you so much. Mr. Chairman, I 
yield back.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Missouri, Reverend Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman, thank you for being 
here today. I--this is not a trick question, but I would like 
for both of you, if you could answer the question. Do you think 
that we have an election process that is equal in this country?
    Mr. Krebs. I am sorry. Could you repeat the question?
    Mr. Cleaver. Is the--are the elections in the United States 
of America equal? If we have a Presidential election, are all 
votes equal?
    Mr. Hicks. One person, one vote. So every vote counts 
equally.
    Mr. Cleaver. Yes.
    Mr. Krebs. I would agree with that.
    Mr. Cleaver. Would you agree with that?
    Mr. Krebs. Yes, sir.
    Mr. Cleaver. So, everybody who votes should have equal 
access to the voting booth?
    Mr. Krebs. Every eligible voter should have access to a 
ballot. Not necessarily going into a voting booth, as well. But 
have access----
    Mr. Cleaver. That is good. That is fine. That is OK.
    Mr. Krebs. Yes sir.
    Mr. Cleaver. OK. I don't think--I don't think elections are 
equal. I think I can prove it rather easily. If you live in 
Oregon you can vote on Sundays. You can register all the way up 
to the election. If you are in South Carolina--and I even think 
Florida, you can vote on--on Souls to the Polls, where you vote 
on Sundays.
    In Missouri you can't do that. In the neighboring State of 
Kansas, you can't do that. In Iowa you can't do that. So 
something is not right, in terms of having equal access to the 
ballot--I mean, to the voting precinct. Some people have a 
greater opportunity to vote--vote than others. Am I wrong or am 
I right? Thank you. No, go ahead.
    Mr. Hicks. I was going to say that I believe that there--if 
Congress wants to give the EAC more direction on how to improve 
the process, then we are more than willing to help it. I 
believe that States are moving toward early voting.
    I believe that States are moving, with the $380 million, to 
refine voter registration processes. We will continually work 
with States to improve the process. The U.S. Postal Service 
does a great job, in terms of vote by mail. But I think there 
are other aspects that we all can improve upon.
    Mr. Cleaver. But you do understand that does some vote--
some States fighting it?
    Mr. Hicks. Yes.
    Mr. Cleaver. So am I right or am I wrong, Mr. Krebs?
    Mr. Krebs. Sir, my job is regardless of the jurisdiction, 
whatever the--whatever the system is, that that vote is being 
cast and counted, and it is done in a secure and resilient 
manner.
    Mr. Cleaver. OK. I understand. I appreciate it. That is--I 
like that, a good American. OK, I will declare I am right.
    [Laughter.]
    Mr. Cleaver. I think I can prove it, empirically, that we 
don't all have equal access to the voting booth. OK. The other 
thing--our conduct is always based on cost. We do something, 
there is a cost to it, or for the most part there is a cost to 
everything.
    I am wondering, we all have been told by our intelligence 
agencies that Vladimir Putin ordered interference with our 
elections. We have been--this is a direct quote, they will be 
back in 2020, FBI. In your opinion, Mr. Krebs, has--have the 
Russians paid a price for interfering with our elections?
    Mr. Krebs. There has certainly been a significant amount of 
pressure and pain put upon the Putin administration, sanctions, 
other diplomatic actions, and a number of indictments against 
GRU actors. We will continue to push them, we will continue to 
defend.
    My mission is to help State and local officials protect 
their networks, defend their networks and that is what we focus 
on every single day.
    Mr. Cleaver. Mr. Hicks.
    Mr. Hicks. Our middle name is assistance and so we want to 
help as much as we can.
    Mr. Cleaver. OK. I am not sure that they--that they paid a 
high enough price for doing what they have done but my 
suggestion here is that they will come back again because the 
price wasn't high enough.
    All those people who have been indicted, all they have to 
do to avoid going to jail is to--is never coming back to the 
United States or not being caught visiting another country with 
which we can have access to an arrest. Anyway, Mr. Chairman, I 
appreciate the opportunity. I yield back.
    Chairman Thompson. Thank you very much. I thank the 
witnesses for their testimony. I now call up the second panel.
    I welcome the second panel of witnesses. First I--let me 
thank all of you for being so patient. I woul like to welcome 
our California Secretary of State Alex Padilla to the panel.
    Secretary Padilla has been a leading voice on election 
security and has done a number of innovative things in 
California to train up officials at the local level, raise 
public awareness about misinformation, and make the most of 
Federal partnerships.
    Second we will hear from Noah Praetz. OK. There is an issue 
with a Mississippian and an Alabamian in pronunciation. Who 
until very recently served as the director of elections for 
Cook County, Illinois where he oversaw elections in one of the 
largest counties in the United States.
    Third, I am excited to hear from Mr. Jake Braun, the 
executive director of the cyber policy initiative at the 
University of Chicago Harris School of Public Policy and also a 
co-founder of a DEFCON Voting Machine Hacking Village, the 
world's only public third-party inspection of voting equipment.
    The research we have seen come out of DEFCON has been 
instrumental in helping us understand our vulnerabilities and 
help us move the conversation on election security forward.
    Finally, I now recognize a Ranking Member Mr. Rogers to 
introduce Mr. Merrill, our minority witness today.
    Mr. Rogers. Yes, I am very happy to have Secretary Merrill 
with us today. He is in his second term as Alabama Secretary of 
State and is one of--if not one of, he is the hardest-working 
politician in Alabama. He has done such a fine job and I am 
happy to have him here with us today.
    Chairman Thompson. Without objection, the witnesses' full 
statements will be inserted into the record. I will now ask 
each witness to summarize his statement for 5 minutes beginning 
with Mr. Padilla.

   STATEMENT OF ALEX PADILLA, SECRETARY OF STATE, CALIFORNIA

    Mr. Padilla. Thank you Mr. Chairman, Ranking Member Rogers, 
and Members of the committee. The defense of our Nation's 
elections must be a top priority for all of government; 
Federal, State, and local. After all, our democracy is under 
attack.
    Elections officials have taken seriously the warnings from 
intelligence agencies. Our elections have been and will 
continue to be targeted by bad actors both foreign and domestic 
who seek to disrupt and undermine public confidence in our 
democracy.
    We know these threats to be real because we see them every 
day. If we agree that defending the integrity of our elections 
is a matter of National security, then we must act accordingly.
    Yet, despite the warnings and advice, our National response 
has been lacking. I have been to discuss what the Federal 
Government can do to help and to share what we are doing in 
California to better secure our elections.
    I will begin by recognizing that both DHS Director Krebs 
and Senior Advisor Masterson are tremendously valuable 
partners. They have honored their commitment to timely 
communication with us when issues or concerns arise.
    I will note that the importance of this partnership 
underscores the danger of unnecessary Government shutdowns. 
With the 2020 elections quickly approaching, our collaboration 
must not be interrupted. Now this partnership is only one 
component of a comprehensive defense strategy. We must also 
invest in election administration.
    The last time Congress approved new funding for elections 
was 17 years ago through the Help America Vote Act. The 
investments made as a result were buying in large equipment and 
technology that are now 20 years old.
    Today it is not uncommon for elections officials to be 
searching on-line for replacement parts for voting systems that 
are no longer supported by manufacturers. Others are stuck 
utilizing old operating systems that cannot be patched or 
updated with the latest security software.
    So if we truly value our democracy, then we must commit 
consistent Federal funding for elections administration and 
security. Yes, Congress did appropriate $380 million last year 
in grants to States, but that wasn't new money, and it 
certainly wasn't enough. Last year's appropriation was the last 
of butterfly ballot, hanging chad, money that was never 
intended for modern-day cyber threats.
    Next, Congress has the opportunity to make the best 
practices for election security the National standards. Among 
them, rigorous testing and certification of our voting systems, 
requiring logic and accuracy testing of systems before every 
election, requiring paper ballots and a voter-verified paper 
trail, requiring voting systems to be kept off-line and 
requiring post-election audits after every election.
    This is a proven framework for securing elections and for 
improving voter confidence. You see, if a voter begins to think 
that their vote may not be counted or may not be counted as 
cast, and they choose to not participate in an election as a 
result of that doubt, that is a form of voter suppression.
    Now these policies have served California well for years, 
but since 2016, we have done more. We have established these 
partnerships with DHS, FBI, the EAC, as well as State and local 
agencies, to better coordinate in the event of a threat or 
incident. We have engaged in security trainings, table-top 
exercises, and information sharing.
    We have upgraded our State technology infrastructure and 
established an office of election cybersecurity and an office 
of enterprise risk management. We have dedicated staff to 
monitoring social media for erroneous information about voting. 
We have launched the public education campaign to raise 
awareness about election misinformation.
    We have created a web portal with resources for voters, 
including the ability to verify their registration status, find 
their polling place and to report suspected misinformation. 
Finally, we piloted a voter status alert tool which notifies a 
voter whenever their voter registration record is updated.
    We plan to deploy this tool State-wide, in time for the 
2020 elections. Thankfully, the 2018 election went smoothly, 
but we know that those who seek to undermine our Democracy will 
continue to try with increased frequency and sophistication. It 
is not enough to keep up with nefarious actors; we must stay 
ahead.
    This requires us to continue to work together, to implement 
the best standards, and to make the necessary investments. 
Thank you for this opportunity; I look forward to your 
questions.
    [The prepared statement of Mr. Padilla follows:]
                   Prepared Statement of Alex Padilla
                           February 12, 2019
    Good morning and thank you Chairman Thompson, Ranking Member 
Rogers, and Members of the committee for the opportunity to be before 
you today.
    And thank you for convening this hearing to discuss our Nation's 
election security readiness. For me, and for my colleagues in State and 
local government, this conversation could not be any more urgent.
    The defense of our Nation's election systems and infrastructure 
must be a top priority for all of government--Federal, State, and 
local. After all, our democracy is under attack.
    Elections officials throughout the Nation have taken seriously the 
warnings we have received from Federal intelligence agencies--that our 
elections have been and will continue to be a target for bad actors, 
foreign and domestic, who seek to disrupt our democratic process and 
undermine public confidence in our elections.
    Elections officials know these threats to be true, because we see 
them every day. For example, in California, our internet-facing systems 
are pinged or scanned constantly. This activity is the equivalent of 
someone walking through a neighborhood, checking doorknobs, looking for 
unlocked doors. While these are not hacks or breaches, those conducting 
this unauthorized activity certainly have intentions.
    If we agree that the integrity of our elections is a matter of 
National security, then we must act accordingly and recognize that 
elections officials are on the front lines. We are the first responders 
to attacks on our democracy.
    Yet despite consistent warnings and evidence, our National response 
is severely lacking.
    Most critically, we must rethink how we fund and administer 
elections.
    In my testimony today, I will discuss what the Federal Government 
can do to further support States and local jurisdictions, and I will 
share what we are doing in California to better secure our elections.
    I want to start by saying that DHS Director Chris Krebs and DHS 
Senior Advisor Matt Masterson have become tremendously valuable 
partners. They have demonstrated their commitment to quality and timely 
communication and coordination with State and local elections officials 
when issues or concerns arise.
    When potential threat information has surfaced, they have reached 
out to us. When we read or hear of new threats, they are there to 
inform us of potential exposure.
    The importance of this partnership underscores the danger of 
unnecessary Government shutdowns. During the recent shutdown, 
secretaries across the Nation were notified that email responses and 
phone contact with DHS personnel would be suspended or delayed. As the 
2020 election cycle is already ramping up, we cannot afford to lose 
critical contact with our Federal partners.
    Partnership with DHS and other National security agencies is only 
one necessary component of a comprehensive defense strategy.
    Let's be honest, elections are underfunded and are too often a low 
priority for Federal, State, and local governments. The last time 
Congress approved new funding for elections was through the Help 
America Vote Act (HAVA), 17 years ago, in the wake of the 2000 
Presidential election. And the investments made as a result of HAVA 
were by and large in equipment and technology that is now 20 years old.
    Members of the committee, you would not settle for 20-year-old 
technology and reliability on your cell phones; our voting systems 
should be no different.
    The lack of sustained investment has resulted in outdated election 
infrastructure and understaffed elections offices. Across the country 
there are many elections officials in counties with small populations--
and therefore small budgets--that don't even have their own IT staff.
    In addition to being outdated, voting equipment in many 
jurisdictions is at or beyond life expectancy. As we meet here today, 
there are some elections officials searching on eBay for replacement 
parts for systems that are no longer supported by manufacturers. Others 
are utilizing operating systems that are so old, their vendor no longer 
provides tech support--meaning some voting machines cannot be patched 
or updated with the latest security software.
    Simply put, too many elections officials are ill-equipped to defend 
against 21st Century threats.
    We often say that our budgets are a reflection of our values.
    If we genuinely value our democracy, then we must commit consistent 
Federal support for election security and administration.
    Members of the committee, respectfully, last year's appropriation 
of $380 million in cybersecurity grants to States was not new money, 
and it certainly was not enough. The $380 million was simply the final 
appropriation of HAVA funds. That was the last of the butterfly ballot 
and hanging chad money. That was not 2016, 2018, or 2020 cyber threat 
funding.
    In addition to funding, Congress also has a tremendous opportunity 
to make the proven best practices for election security the National 
standard.
    Among them:
  <bullet> Rigorous testing and certification of voting systems with 
        up-to-date security standards;
  <bullet> Requiring testing of voting systems for logic and accuracy 
        before every election;
  <bullet> Paper ballots and a voter-verified paper trail, for 
        auditing, recount, and manual tally purposes;
  <bullet> Keeping elections infrastructure off-line;
  <bullet> Post-election audits after every election.
    I suggest to you that this is the proven framework for better 
securing our elections as well as improving voter confidence. 
Deficiencies in our election security infrastructure can jeopardize 
public confidence in our democracy. If voters begin to think that their 
vote may not be counted, or may not be counted as cast, and they decide 
to not participate in an election as a result of that doubt, that is a 
form of voter suppression.
    These are just some of the best practices that have served 
California well since long before the 2016 election.
    And in response to the 2016 election, we doubled down on our 
efforts.
    We established intergovernmental partnerships with the U.S. 
Department of Homeland Security, the Federal Bureau of Investigation, 
the Elections Assistance Commission, the California Department of 
Technology, the California Office of Emergency Services, the California 
Highway Patrol, and county governments to ensure coordinated responses 
to cyber threats and incidents.
    My office has engaged local elections officials in cybersecurity 
trainings, table-top exercises, and information sharing. And I 
personally visited fusion centers in all regions of California to 
better position ourselves to coordinate in the event of a threat or 
incident.
    We upgraded our technology infrastructure and established both an 
Office of Election Cybersecurity and an Office of Enterprise Risk 
Management within our agency.
    Another lesson I've taken to heart is that your technology is only 
as strong as the staff that uses it. Cybersecurity tools are just that, 
tools--tools for our staff to utilize. This is why we have invested in 
specialized staff dedicated to cybersecurity and trainings for 
elections staff at the State level and with our local partners.
    As part of our strategies in the new Office of Election 
Cybersecurity, last fall we launched ``VoteSure,'' a first of its kind 
in the Nation public education campaign to increase voter awareness 
about election misinformation on-line and to promote official, trusted 
election resources. The campaign included the launch of a new web 
portal with a variety of tools and resources for voters including the 
ability to verify registration status before going to vote, reliable 
polling place look-up tools, and a dedicated email address for voters 
to report suspected misinformation. And in a first-in-State history 
effort, we emailed official election information and resources directly 
to voters.
    In the days leading up to the 2018 General Election, our staff 
identified nearly 300 Facebook posts and Tweets with inaccurate and 
misleading information about the voting process. We reported them to 
their respective social media companies for review. Ninety-eight 
percent of the posts and tweets we reported were promptly removed by 
their respective platforms for not meeting their standards.
    Our office also piloted a new voter status email alert program in 7 
counties--Madera, Napa, Orange, Sacramento, San Mateo, San Bernardino, 
and Solano--for the 2018 General Election.
    This new system automatically notifies voters whenever we have 
received a new registration or update to their registration record 
through our on-line voter registration website or a paper voter 
registration form. We plan to expand the program State-wide ahead of 
the 2020 elections.
    California's share of last year's HAVA appropriation was $34 
million. Funds in the current year's budget is helping counties with 
costs of upgrading security of their connection to our State-wide 
centralized voter registration database, known as VoteCal, and polling 
place accessibility.
    At the State level, we are using a portion of the funds for:
  <bullet> Support of county efforts associated with cybersecurity 
        risks and infrastructure needs related to the State-wide voter 
        registration system, including important activities such as 
        security assessments, penetration testing, and staff training.
  <bullet> Support for county improvement of polling place 
        accessibility and administration of elections.
  <bullet> Support for county vote center implementation, which 
        includes costs associated with new voting technology like 
        ballot on demand, electronic pollbooks, remote accessible vote 
        by mail systems and voting systems.
  <bullet> Enhancements to VoteCal State-wide voter registration 
        system.
  <bullet> Development of security training curriculum and training of 
        counties.
  <bullet> Support and guidance for counties implementing risk limiting 
        audits.
    By all accounts, 2018 was a success. In California, voters 
responded with record-high voter registration and the highest voter 
turnout in a midterm election since 1982. And the election went as 
smooth as we could have hoped for.
    But, the threats to our elections are ever-evolving. And those who 
seek to undermine our democracy will increase their efforts both in 
frequency and sophistication.
    My colleague, Minnesota Secretary of State Steve Simon, puts it 
best, ``Election cybersecurity is like running a race without a finish 
line.'' It's not enough to keep up with nefarious actors who seek to 
undermine our democracy, we need to stay ahead.
    To do that, we must constantly be learning, scrutinizing, testing, 
and upgrading our security--and that requires Federal, State, and local 
entities to keep working together and to make the necessary 
investments.
    Thank you again for your work to address these issues head on. I 
appreciate your leadership and look forward to answering your 
questions.

    Chairman Thompson. Thank you very much. Next, we will hear 
from Mr. Praetz, who will--until very recently, served as the 
director of elections for Cook County, Illinois.

 STATEMENT OF NOAH PRAETZ, FORMER DIRECTOR OF ELECTIONS, COOK 
                        COUNTY, ILLINOIS

    Mr. Praetz. Thank you, Chairman Thompson, Ranking Member 
Rogers, distinguished Members. My name is Noah, and I was 
director of elections in Cook County, Illinois. I speak to you 
from that experience today, and it is a real honor to do so.
    You know, when election officials certify results, they 
bestow, not just power, but legitimacy that comes from the 
essential American belief that our elections reflect a trusted 
and true accounting of the votes. We secure that legitimacy by 
protecting two--two virtues, truth and trust, along two 
different fronts, infrastructure and information.
    Truth can be protected with policies and practices that 
ensure a fair and accurate account. Trust is protected by 
continuing to deliver services to our voters as expected. 
Election officials have been security votes in voter records 
for a very long time. When I started, prior to 2000, we served 
mostly as logistics managers--kind-of like wedding planners 
making sure the right list of people came together at the right 
place with the right stuff.
    After Bush v. Gore, a whole new era was foisted on us with 
voting technology, new rules--and we become I.T. managers. Now, 
since 2016, we must become cybersecurity managers. Spurred by 
the need to defend against foreign adversaries, Federal and 
State officials have been working very successfully to find a 
good balance of Federal involvement in elections, without 
trampling on authority that the States zealously guard.
    State election officials who protect State-wide voter 
registration lists everywhere and more systems in some States 
and are often the spokespeople defending our institution 
deserve great credit, particularly their lead blocking in 2016, 
but also their leadership in the lead-up to 2018, when 
accepting the premise that we are a target and that we are 
vulnerable.
    The Federal agency, led by Director Krebs and with 
Masterson's help, charged with providing direct support in this 
area, has also met the continuing demand for information and 
for services.
    Election officials remain committed to the security effort 
even though there were no known impactful attacks against us in 
2018, because we believe that good news is probably more a 
function of our adversaries not engaging than it is a result of 
our significant efforts over the last 2 years.
    At the risk of being overly broad, I wish to underscore 
that local election officials are the ones who control, secure, 
and run elections. One hundred and eight in Illinois; and over 
8,000 nationally are on the front lines. We deploy a variety of 
connected digital systems--poll books, voter registration 
systems, informational websites, election results websites, 
Election Day command centers, not to mention voting systems.
    Each of these are a ripe target. Most local election 
officials are city or county officers, 2 or 3 people, and they 
are facing down shadowy, powerful adversaries; kind-of like 
Andy in Mayberry sent to repel an invading army. Locals need 
advice, support, and resources, for modern defendable 
technology and routine hand-counted audits, which can give 
confidence that the digital results are accurate.
    But second, and I think more critically today, they have a 
pressing need for top-notch personnel with the skills to 
navigate the current cyber battlefield. In Cook County, we 
undertook significant efforts in securing the infrastructure 
and helping raise awareness within the ecosystem.
    We concluded that, to decrease the likelihood of a 
successful attack, each local election official must have 
access to an election security officer. We suggested this be 
handled by a brigade of cyber-navigators, supporting local 
election officials. These navigators would adopt the mantra of 
defend, detect, recover.
    They help improve defenses, following specific 
recommendations already out there from the Center for Internet 
Security or the Defending Digital Democracy program at Harvard. 
They establish breach detection techniques and they help 
develop recovery plans for when attackers do successfully 
penetrate the first or second line.
    To accomplish this, navigators secure free support on 
offers from Homeland Security, State governments and companies 
like Google, Cloudflare, and Microsoft. They work with State 
and county I.T. staff, and critically, they will work with the 
deeply-embedded election vendors who are strategic partners 
that provide locals with much of their current support.
    Incidentally, Illinois lawmakers spent the HAVA funds you 
released on a navigator program, with $7 million allocated to 
support each county, 108, more or less equally, with human 
expertise--9 navigators, each supporting about 12 counties and 
serving as their election security officer.
    The remaining HAVA funds were to be spent with some 
recognition that bigger counties, like Cook County, are likely 
more high-value targets. Voters should feel broadly confident 
that we have resilient systems and that election officials are 
taking this problem very serious. But they should also 
understand that without continued investment, and people and 
products, the possibility of a successful attack increases.
    Some losing candidates are already apt to call their 
defeats into doubt. A new digital breach, no matter how far 
removed from the vote counting system, could turn sore losers 
to cynicism, disbelief, even revolt. That is the reaction our 
adversaries are looking for.
    The bottom line is we cannot eliminate every chance of 
breach. We can make sure that successful attacks are rare, and 
we can provide assurances that we are prepared to recover 
quickly when they happen. We do this with support at the local 
level. Thank you.
    [The prepared statement of Mr. Praetz follows:]
                   Prepared Statement of Noah Praetz
                           February 12, 2019
                               biography
    Noah Praetz was the director of elections working under Cook County 
Clerk David Orr and then under Clerk Karen A. Yarbrough. He was 
responsible for the overall management of elections in Cook County, 
Illinois, one of the largest jurisdictions in the country serving 1.6 
million voters.
    He started as temporary worker hired to do data entry prior to the 
2000 Presidential election. In 2007 he became deputy director and in 
2013 he was appointed director.
    Mr. Praetz currently runs an elections consulting practice. He 
teaches election law at DePaul University College of Law. He is an 
advisory board member at the University of Chicago's Cyber Initiative.
    Mr. Praetz was on the executive committee of the Government 
Coordinating Council representing the local election officials as 
Homeland Security sought guidance on how best to support the election 
community. He was the treasurer of the International Association of 
Government Officials. He was also co-chair of the Election Center Cyber 
Security committee. He was active in the Illinois Association of County 
Clerks and Recorders. He has presented on election security, 
sustainability, election day management, on-line registration, voter 
registration modernization and other election-related items.
                           executive summary
    Election officials have been securing our Nation's votes and voter 
records for a very long time. We have been securing digital 
infrastructure for a more than a decade. But the changed environment 
and the expectation of continued sophisticated attacks forces them to 
up their game.
    Spurred by the need to defend against foreign enemies, Federal and 
State officials have been working successfully to find a good balance 
of Federal involvement in elections, without trampling on authority 
that the States zealously guard. Good progress is being made.
    However, even as the community of election officials appreciate 
that election 2018 was free of any known incidents, they largely 
recognize that those successes are probably less a function of their 
efforts than they are a function of our Nation's adversaries' probable 
choice to hold back. The fundamentals of election security, and the 
investments neeeded to ensure improved security, have not changed since 
the summer of 2016.
    Broadly, the fundamentals are these, local election officials are 
the ones who control, secure, and run elections. Locals--108 in 
Illinois and over 8,000 Nation-wide--are on the front lines of this new 
battlefield. Locals control almost the entire election infrastructure. 
Locals are the entities most in need of support and attention. Locals 
need help to fortify themselves, and our most important institution, 
against the high-probability threat actors they've been warned of. The 
States, with partnership from the Federal Government, are the entities 
that are now, and will continue to be, the leaders needed to support 
the security efforts to the local election officials.
    While in Cook County we studied and undertook significant efforts 
at securing the infrastructure and helping raise awareness within the 
ecosystem. We concluded that to decrease the likelihood of successful 
attack on digital services, each local election official must have 
ready access to a savvy dedicated partner--an election infrastructure 
security officer. Most locals don't have that capacity today.
    Local election officials cannot master this problem without direct 
support of skilled experts. We suggested this be handled by a brigade 
of digital defenders, or what the Government coordinating council calls 
``cyber navigators,'' supporting local election officials into the 
future.
    These ``navigators'' should adopt the mantra of Defend, Detect, 
Recover. They need to accomplish these three vital goals. They can help 
improve defenses within election offices, following the specific 
recommendations of Center for Internet Security or Defending Digital 
Democracy--we believe they'll quickly bring up the floor of the 
elections security ecosystem. They'll also establish detection 
techniques. And they'll develop recovery plans for when attackers 
penetrate the first and second line.
    To accomplish this, the ``Navigators'' will secure free support on 
offer from public and private organizations, like Homeland Security, 
State governments, and companies like Google and Cloudflare. They will 
also work with outside vendors who provide much of the elections 
infrastructure and support to local officials. Third, they will build a 
culture of security that can adapt to evolving threats through training 
and constant re-assessment.
    Voters should feel confident that we have resilient election 
systems, with paper ballots and good audits almost everywhere. But 
voters should also understand that without continued investment in 
people and products the possibility of a successful attack increases. 
As does the likelihood that losing campaigns may cultivate cynicism 
about the integrity of our elections for their own purposes. Democracy 
is not perfect. As Churchill said, it is the worst form of government 
except for all the others. We need to protect it. We will regret it if 
our democracy is damaged because we looked away at a critical moment.
                               testimony
    Thank you, Chairman Thompson and Ranking Member Rogers, as well as 
all Members. It is an honor to be here. I am reminded as an election 
administrator that when we certify results we are an essential part of 
the process that bestows not just power, but legitimacy. And that 
legitimacy attaches because of the essential American belief that our 
elections reflect a trusted and true accounting of each election. I 
speak to you today in support of efforts to ensure that legitimacy 
remains the key virtue in our elections.
    My name is Noah Praetz. Two weeks ago I stepped down as director of 
elections in Cook County, Illinois where I worked for Cook County Clerk 
David Orr, and recently Clerk Karen Yarbrough. I began my career in 
2000 and during that time our office tried to lead on technology and 
security--using applied forensics in elections; creating widely-
circulated cybersecurity checklists in advance of the 2016 elections; 
and publishing the first white paper written by election officials in 
the wake of the 2016 attacks. Recently, I helped the Center for 
Internet Security (CIS) adapt their digital security expertise to the 
unique context of elections and also spent a little time talking to the 
Defending Digital Democracy program at Harvard's Belfer Center (DDD). 
As co-chair of the Government Coordinating Council (GCC) that the 
Department of Homeland Security created to help address election 
security, I worked with Federal, State, and local leaders in elections, 
technology, intelligence, and law enforcement.
    In the past 18 months I have testified before the U.S. Senate Rules 
and Administration committee once. On two occasions I testified before 
the United States Election Assistance Commission (EAC) and on two 
occasions I testified before Illinois legislative committees. I have 
presented before the numerous meetings of election officials from 
Illinois and from around the country. Every time, I strive to deliver 
the same message:
  <bullet> The threats to election infrastructure are real.
  <bullet> Elections are largely run and secured locally, so security 
        efforts, let by the States and augmented by the Federal 
        Government, need to be concentrated locally.
    As election officials, we must accept the conclusion of the 
intelligence community--our elections were attacked and are vulnerable. 
And while enemy hostile probes of our news and influence systems appear 
to have been more successful than those on election administration, we 
have to expect the attacks will evolve. We, as election administrators, 
must defend our section of the line--by securing all elements of our 
voting infrastructure.
Cybersecurity--One More Sword to Juggle
    Prior to 2000, election administrators served mostly as wedding 
planners, making sure the right list of people came together in the 
right place with the right stuff. After Bush v. Gore, the Help America 
Vote Act (HAVA) heralded in new era of voting technology, and we became 
legal compliance and IT managers. We've been working to protect digital 
technology since then. But the 2016 election showed irrefutably that 
sophisticated attacks are to be expected and that we must also be 
cybersecurity managers.
    Foreign governments, foreign non-state actors, and domestic 
troublemakers have the capacity and desire to corrode the essential 
public belief that our election outcomes are true and reliable. To very 
different degrees, this threat applies to both preliminary returns 
announced on election night and to official, final results. Beyond 
corrupting election results, the threat also reaches the large variety 
of systems used to run seamless elections.
    Therefore, the new security mantra, or security framework, for 
local election officials must be ``defend, detect, recover.''
    Security isn't just about defense. Perfect defense is difficult or 
even impossible. I could cite a list of our best companies and 
Government entities that have been breached despite significant 
defensive investments. Instead, the challenge of security is to ensure 
no attack exceeds our resilience--our ability to detect and recover--
whether that requires restoring lost data or even recounting ballots--
to establish election results that are trusted and true.
    Because State laws vary, local election officials confront a 
different security matrix in each State, affecting their ability to 
defend, detect, and/or recover. States with great audits (detection) 
and paper ballots (recovery) are much more resilient by definition; and 
the burden of defending their voting system perfectly is consequently 
much lower. On the other hand, States without great audits and without 
paper ballots place the unenviable burden of perfect defense on their 
local election administrators.
    In 2017, Cook County Clerk David Orr and I published a white paper 
called ``2020 Vision: Election Security in the Age of Committed Foreign 
Threats.'' It is included at the back of this testimony. But I want to 
acknowledge that different bodies of this Congress have already taken 
action that broadly agrees with our vision and I commend that work.
Elections are Secured Locally
    I have tremendous appreciation and respect for State election 
officials and their responsibilities and efforts. They are often the 
mouthpiece of our institution and responsible for managing the 
regulatory framework. For the past 16 years many have also managed 
their State's voter registration systems. In some States they take a 
far more active role in protecting other parts of the infrastructure. 
And it was States that were the named targets in 2016. But let there be 
no mistake--local election officials are on the front lines of this new 
battlefield: 108 in Illinois and over 8,000 Nationally. So, by and 
large, local election officials secure the Nation's election 
infrastructure. Locals install, store, monitor, test, deploy, run, and 
audit the voting machines and software. Locals install, store, monitor, 
test, deploy, run, and audit the electronic pollbooks. It is locals who 
manage warehouses, informational websites, voter databases, polling 
places, GIS Systems, results reporting systems, military voting 
systems, command centers, and the myriad digital services we rely upon 
in modern American elections. It is a local job to defend these 
systems, to institute controls that would detect breach, and to deploy 
mitigation strategies that can guarantee election processes and results 
that are trusted and true. It is their job to ensure recovery.
    Most of us are county officers, and we are facing down powerful, 
shadowy adversaries, like Andy of Mayberry sent to repel an invading 
army. We need advice, support, and resources--first, for better 
technology and routine hand-counted audits which can give additional 
confidence that digital results are accurate. Second, and most 
critically today, we have a pressing need for top-notch personnel with 
the skills to navigate the current cyber battlefield. Our country's 
local election officials need direct human support as we work to defend 
ourselves against the onslaught of digital threats we've been warned 
about.
Cook County Efforts
    Since the summer of 2016 we stepped up our efforts to protect 
ourselves and to protect the broader ecosystem: We introduced 
additional hand-counted audits to our State-mandated 5 percent machine 
re-tabulation. And we are pushing State legislation to add additional 
audits to election results--in the form of Risk-Limiting Audits.
    We did a complete mapping of all our systems and conducted a point 
analysis of potential vulnerabilities. We have documented all defensive 
measures employed and created a list of those we hope to employ going 
forward. We also documented all methods of detecting breach, as well as 
those we hope to employ in the future. Finally, we are developing our 
recovery plans for any breach at any point on any system. Before 
November of this year, we will practice every recovery method.
    We began installing new election equipment that will be easier to 
defend and will make detection and recovery significantly easier.
    We introduced State legislation to help local election officials 
bring in more expertise and cyber monitoring capability.
    We worked to create a communication structure in Illinois with 
Federal, State, and local cyber experts, technology experts, law 
enforcement officials, and election officials.
    We teamed with our neighbors at the Chicago Board of Elections to 
hire an election infrastructure and information security officer.
    We worked with MS-ISAC to get rapid intelligence on vulnerabilities 
and specific threat information to our networks. And we have pushed our 
colleagues around the State to join it and the elections ISAC. 
Additionally, we have gotten threat briefings from DHS and FBI.
    We worked with DHS to conduct cyber scans of our websites--and to 
run a full risk and vulnerability assessment. And let me say that I am 
glad the folks working for homeland security are on our team. I firmly 
believe if every election official, State or local, undertook a similar 
effort, there would be a deafening roar from my colleagues for more 
resources to procure modern technology and institute modern controls.
    We worked with the folks at DEFCON on some of their activities 
related to training election officials on the defense of networks.
    I co-chaired the newly-created Government Coordinating Council 
(GCC) set up with DHS to help drive Federal policy and resource 
allocation. I sit alongside the chairman of the Election Assistance 
Commission (EAC), the president of the National Association of 
Secretaries of State (NASS), the president of the National Association 
of State Election Directors (NASED), and from DHS deputy assistant 
secretary, Infrastructure Protection, National Protection and Programs 
Directorate (NPPD). In that role I tried to continually push for the 
advancement of local official's concerns.
    In all efforts we learned that coordinating efforts is critical to 
our individual and ecosystem success.
Coordinated Efforts
    There has been a tremendous amount of attention on the States, and 
their relationship to the Federal Government and it's great to see that 
relationship mending and great information starting to be shared 
between the two groups. On the GCC we have worked hard to refine a plan 
for securing our sector as well as protocols for sharing information 
throughout the ecosystem. We are working with the private-sector vendor 
community to ensure we have a common approach to protecting the sector.
    Federal Government agencies now know how to communicate to the 
State-level election professionals and vice versa. What remains 
unfulfilled is the assurance that the information can get all the way 
down to the local level and that the locals are prepared to digest the 
information and take necessary action.
    It is time to ensure that the successful effort to normalize 
relations with State officials be duplicated with local election 
officials. Like an iceberg, the mass, and indeed most of the risks to 
the Nation's election infrastructure, lies below the surface. And its 
security lies in the hands of women and men who run elections at the 
local level.
    Given concerns with Federalism, the most likely path for 
successfully fortifying local election officials is through State 
government and State election officials. But it's important that they 
envision their job as helping ensure locals are resourced appropriately 
and meeting important security metrics. I have no doubt that our State 
officials are up for the challenge and I look forward to assisting our 
industry mature in this direction quickly.
Increased Stable Investment & Short-Term Spending
    We have looked to our State and Federal funders and regulators to 
fortify locals on this battlefield. Given the costs of regular 
technology refreshes and support for human resources with cyber 
capacity, the needed investment is very large. And locals need a signal 
that they can invest now for security and not squirrel away recent 
money for some future episode.
    Nevertheless, the recent investment is greatly appreciated. 
Congress just released $380 million to combat the election 
cybersecurity threat. And that is an important start. It may be 
necessary for the States, Federal Government, and locals to 
collectively invest that much annually. Meanwhile, Americans justly 
concerned about the costs need confidence this money will be spent 
well. In my mind there are two top priorities. First, a handful of 
States and counties still have paperless voting systems. These should 
be replaced as soon as possible.
    Second, everywhere, we must improve the security capacities of 
local election offices. Most are run by a just handful of incredibly 
dedicated and hardworking heroes. But a handful of people making 
critical security decisions are outmatched against the threats we've 
been warned of.
    In a local newspaper last year we called for a brigade of digital 
defenders to be deployed to serve election offices around Illinois and 
the Nation, starting now and working through the 2020 Presidential 
election and beyond. Recently, the Government Coordinating Council, 
comprised of the leadership of America's election organizations, 
suggested a similar construct, suggesting that States employ ``cyber 
navigators'' to help fortify local election officials.
Illinois Approach
    In Illinois we formulated a loose security group consisting of 
representatives of Homeland Security, FBI, the Illinois State Police 
and their Cyber Team, Illinois Information Security Office, the 
leadership of the local election official associations, and the State 
Board of Elections. Originally our some of local officials and the 
State Board of Elections had desired to pass through the HAVA funds to 
the local election officials based largely upon voting age population. 
But as our group and State legislators digested the cybersecurity 
problem, we recognized that such a distribution would not be effective 
in fortifying most of the locals. First, regardless of the number of 
voters served, all 108 election officials had nearly identical cyber 
footprint, in that they had the same number of networked-attached 
digitally exposed systems. Second, the larger offices already had some 
capacity to tackle this problem--whereas the smaller offices are 
squeezed so tightly they can barely comply with the current 
requirements, let alone secure the entire elections threat surface 
area.
    After the GCC issued guidance suggesting ``Cyber Navigators'', the 
State legislature mandated that at least one-half of the HAVA funds 
just released be expended on a ``Cyber Navigator'' program to be 
administered by the State Board of Elections. The State Board is likely 
to get help fulfilling this mandate from other organizations with cyber 
expertise. By and large, local election officials supported the bill. 
And our State board is eminently capable of fulfilling the mandate.
    These ``Navigators'' need to accomplish three vital goals. First, 
they should work to institute the election security framework--defend, 
detect, recover. They can help improve defenses within election 
offices, following the specific recommendations of CIS. We believe 
they'll quickly bring up the floor of the elections security ecosystem. 
Appropriately supported, we can see massive improvement very quickly. 
There is low-hanging fruit, but even low-hanging fruit needs to be 
plucked. They'll also work to support locals' efforts at instituting 
detection techniques and recovery plans. Second, the ``Navigators'' 
will do the work necessary to secure the free support being offered by 
public and private organizations, like the Department of Homeland 
Security, State resources, Google and Cloudflare, or the Elections 
Information Sharing & Analysis Center; they will also work with the 
outside vendors who provide much of the elections infrastructure and 
support to local officials. More importantly, they will help build a 
culture of security that adapts to the evolving threats we face through 
training and constant assessment efforts. Illinois' 108 local election 
offices will mature quickly with this reinforcement. As specific 
mitigations and upgrades are identified by Navigators, the State Board 
should be positioned to quickly provide that investment.
    It is expected that the State Board of Elections will take some 
small portion of the remainder of the HAVA funds to support their own 
infrastructure, naturally, since they manage and maintain the State-
wide voter database. Everything else shall be distributed to the local 
election officials to invest as they see fit, subject to the 
guidelines. I'll note that our legislature sought to compel 
participation in the Navigator program by making receipt of future 
grants contingent upon local official participation.
    In Illinois, we recognized that this is inherently a local problem. 
But we also recognize that locals cannot solve this problem themselves. 
This coordinated, managed approach assures appropriate assessment and 
remediation efforts can be efficiently implemented. We are utilizing 
existing expertise from other areas of Federal, State, and local 
government as force multipliers. And we are excited that our State 
Board of Elections is taking on this new mandate and moving quickly to 
implement it.
    This massive reinforcement effort can be accomplished here and 
Nation-wide. And it can be done now. It will require the States to cut 
through the red tape that can delay action. This may mean relying on 
existing contracts, or even emergency procurements. But States must do 
whatever they need to do to get the army of ``Navigators'' on the 
ground this summer. After all, the danger is not hypothetical. We're 
bracing against the renewed attacks we've been told to expect.
Supporting a Resilient Public
    One job of an election administrator is to conduct elections so 
that losing candidates accept the fact that they lost fairly. Anything 
that hinders our ability to do that decreases confidence in the system. 
And undermines our ability to bestow legitimacy--not just victory.
    Election officials deploy a variety of networked connected digital 
services, such as voter registration systems, and unofficial election 
results displays. Each of these is a ripe target for our adversaries. A 
successful attack against those services may not change a single vote, 
but could still damage public confidence. This is particularly true in 
a time of great public suspicion, exacerbated by a disappointing 
proliferation of gracelessness and grandstanding.
    Our public confidence is already weaker than it should be. 
Vacillating voting rights rules, no matter how marginal the effect, are 
disconcerting to many people, naturally suspect given our history. 
Additionally, some media, activist groups and politicians have acted in 
ways that ultimately prey on Americans' insecurities about their most 
cherished institution, either through outlandish claims of fraud, or 
overstated claims of suppression. Such actions have done a disservice 
to the institution we serve and consequently to our ability to bestow 
not just victory, but legitimacy. We must be very careful to calculate 
not just the relative effects on power that election rule changes can 
have, but also the relative effects on legitimacy. Or put another way--
will losers be more or less likely to accept that they lost fairly.
    Some losing candidates are already apt to call their defeats into 
doubt. A new digital breach--no matter how far removed from the vote 
counting system--could turn sore losers to cynicism, disbelief, even 
revolt. That's the reaction the enemies of the United States want.
    In fact, in the face of direct targeting of a State or local 
election office it is very possible that there will be some service 
disruptions--most likely to the network connected digital services like 
election results websites.
    The bottom line is we can't eliminate every chance of breach, but 
we can make sure that successful attacks rare. And we can provide 
assurances that we are prepared to recover quickly when they happen. We 
can do this with support at the local level. I support Federal efforts 
like the Secure Elections Act. While I would always advocate for more 
local participation, in the current environment, doing something 
imperfect now is greatly superior to doing something perfect at some 
point in the future.
    As Americans, we get to choose how we want to respond to potential 
disruptions. The damage of a foreign attack on our elections 
infrastructure will be greatly diminished if the targeted institution 
is also being supported internally with respect.
    Thank you for the opportunity to appear today. I look forward to 
your questions.
                        Attachment.--White Paper
 2020 vision: election security in the age of committed foreign threats
Sponsored by: Cook County Clerk David Orr
Authored by: Noah Praetz, Director of Elections
            December 2017
    The entire National security establishment admonishes that threats 
to our election infrastructure are real. Foreign governments, foreign 
non-state actors, and domestic troublemakers have the capacity and 
desire to corrode the essential public belief that our election 
outcomes are true and reliable. To very different degrees this threat 
applies to both preliminary returns announced on election night and to 
official, final results.
    Beyond results, the threat applies to the large variety of systems 
used to run seamless elections. These include electronic and paper 
pollbooks; voter registration and election management systems; websites 
with voter tools and public information; and a variety of other 
subsystems such as: GIS, ballot printing system, mail ballot 
preparation and processing system and a variety of essential election 
support systems like election day control centers.
    Local election officials--nearly 9,000 of them in the country--are 
the shock troops on this new battlefield. They desperately need 
resources, including Federal Government resources.
Policymakers and funders must act now to ensure election security
    The new security mantra for local election officials is ``defend, 
detect, recover.''
    Perfect defense is difficult or even impossible. Instead the 
challenge of security is to ensure no attack exceeds our resilience--
our ability to detect and recover--whether that means restoring lost 
data or even recounting ballots to establish election results that are 
trusted and true.
    Each State has a varying security matrix to operate in; their mix 
of ability to defend, detect, and recover. States with great audits 
(detect) and paper ballots (recover) are much more resilient by 
definition; and the burden of defending their voting system is 
consequently much lower. On the other hand, States without good audits 
and without paper ballots place the unenviable burden of perfect 
defense on their election administrators.
    Below is a challenging, comprehensive, yet achievable list of 
actions to protect the integrity of these multiple systems. Make no 
mistake, this will be a painful and expensive undertaking. But the 
protection of our foundational institution requires this sacrifice.
             responsibilities of policy makers and funders
Defend
    Increase the defensive capacity of local and State election 
officials by:
    1. Supporting a digital network for all local election officials 
        that will facilitate rapid sharing of threats and incidents, as 
        well as supporting increased training and resiliency;
    2. Financing an Election Infrastructure and Information Security 
        Officer (EIISO) (or consultant) servicing every local and State 
        election official in the country;
    3. Ensuring that threat and incident information known to 
        Government is shared appropriately throughout the election 
        ecosystem.
Detect
    Increase the catastrophic breach detection capacity by 
incentivizing:
    1. The use of modern public audits of all elections;
    2. The use of modern voting technology that captures a digital 
        image of each ballot that can be tied to the original ballot 
        and the cast ballot record;
    3. The use of monitoring sensors on the networks of all willing 
        election officials.
Recover
    Eliminate even the most remote possibility of an undetectable 
catastrophic breach by replacing all paperless voting systems that 
currently serve nearly 20 percent of the country.
    Release election officials from their burden of being perfect every 
single time!
     potential approach for election officials and their election 
            infrastructure and information security officer
Defend
  <bullet> Get experts into the office. Engage outside cybersecurity 
        resources & professionals. No election offices can handle this 
        problem on their own. Inside most elections offices, there 
        simply is not the complete capacity to accept the threat, 
        assess the vulnerability, digest recommendations, manage 
        mitigations, and perfect recovery.
    <bullet> Utilize as many free local, State, and Federal (DHS, CIS, 
            and MS-ISAC) tools as possible.
      <bullet> If Government resources are unavailable, or 
            underwhelming, hire private firms or partner with academic 
            institutions.
    <bullet> Collaborate with resources inside local, State, and 
            Federal Government because we are not alone in facing this 
            type of threat include the fusion centers.
    <bullet> Bring in outside resources to partner with information 
            technology and information security teams, with a focus 
            solely on election security.
      <bullet> The reality is that most election officials share their 
            internal information technology and security resources with 
            every other county office engaged in critical activities, 
            such as health and public safety. It can be nearly 
            impossible to get the attention necessary for election 
            security unless it is the primary focus of those resources.
  <bullet> Understand and limit the threat surface area; or all 
        possible points of vulnerability for malicious attack.
  <bullet> Inventory all election-related systems: e.g. voting machine 
        and vote counting system; e-pollbook system; voter 
        registration/election management system; mail ballot delivery 
        and processing system; and on-line systems such as voter 
        registration, mail ballot request tools, voter information 
        look-up.
  <bullet> Map how systems work and data flows, and mark every single 
        point of vulnerability.
  <bullet> Limit the threat surface area by making policy decisions 
        that reduce points of vulnerability wherever possible (this is 
        about managing risk, not eliminating it.)
  <bullet> Employ defense tactics and policies for each system--on-line 
        or not.
    <bullet> Implement the Center for Internet Security's top 20 cyber 
            controls. Do the top 5 first. These include:
      1. Inventory of Authorized and Unauthorized Devices; 2. Inventory 
            of Authorized and Unauthorized Software; 3. Secure 
            Configurations for Hardware and Software; 4. Continuous 
            Vulnerability Assessment and Remediation; 5. Controlled Use 
            of Administrative Privileges; 6. Maintenance, Monitoring, 
            and Analysis of Audit Logs; 7. Email and Web Browser 
            Protections; 8. Malware Defenses; 9. Limitation and Control 
            of Network Ports; 10. Data Recovery Capability; 11. Secure 
            Configurations for Network Devices; 12. Boundary Defense; 
            13. Data Protection; 14. Controlled Access Based on the 
            Need to Know; 15. Wireless Access Control; 16. Account 
            Monitoring and Control; 17. Security Skills Assessment and 
            Appropriate Training to Fill Gaps; 18. Application Software 
            Security; 19. Incident Response and Management; 20. 
            Penetration Tests and Red Team Exercises.
    <bullet> Employ election system-specific defense and detection 
            tactics across specific systems.
      <bullet> These can include all the hardening options that systems 
            may have, such as locks, seals, chain of custody, advanced 
            authentication, etc.
Detect
  <bullet> For each vulnerability point identified in the mapping 
        process, consider a method of detecting whether something 
        anomalous has happened; or brainstorm the first place such an 
        intrusion might be detectable.
  <bullet> Validate everything; every available log should be checked 
        including: Seals, time sheets, cameras, swipe cards, login 
        data, registration statistics, etc.
    <bullet> Behavioral analysis tools and procedures can and will 
            point out what is going on. For example, voter registration 
            follows a natural pattern year over year. Identifying the 
            pattern and watching for anomalous behavior works.
  <bullet> Use forensics when possible.
    <bullet> A forensics analysis of the software system employed can 
            offer a high level of confidence that it is operating as 
            certified. This is particularly true in the voting system 
            environment. Comparing snapshots of deployed software with 
            a clean reference copy during a live election is a powerful 
            verification technique.
  <bullet> Conduct public audits of the election results that allow for 
        a visual comparison of the cast ballot record with the ballot 
        itself.
    <bullet> Be transparent and brace for public scrutiny.
    <bullet> Crowdsourcing the election brings the greatest confidence, 
            but also the greatest public scrutiny. ``Sausage making'' 
            will be on full display. Consider publishing ballot images 
            scrubbed of identifying marks. In the short run this can 
            create volatility, and people may scrutinize the office and 
            the software used, but ultimately the confidence levels 
            will be increased.
    <bullet> Work to investigate audit styles that bring the highest 
            level of confidence to the most stakeholders. Consider the 
            use of sophisticated yet efficient testing algorithms, such 
            as risk-limiting audits.
Recover
  <bullet> For each vulnerability point, assume a successful breach and 
        determine how to recover.
  <bullet> Where possible, make policy decisions and investments that 
        yield the clearest path to recovery.
    <bullet> For example, on electronic voting machines: After removing 
            paperless systems consider that ballot marking devices are 
            better than machines with paper audit trails. Digital 
            scanning devices that create images of ballots are better 
            than scanning devices that don't.
  <bullet> Build in redundancy that doesn't rely on technology.
    <bullet> For example, paper pollbooks backup electronic pollbooks. 
            Emergency paper ballots backup corrupted (or just 
            malfunctioning) touch-screen or ballot marking devices.
  <bullet> Practice recovery with professional staff, advisors, and 
        vendors by running drills and exercises. Theory is only theory. 
        Practice makes it real.
                 local election officials need support
    It must be underscored--local election officials are the front-line 
troops in this battle. Those who control Federal, State, and local 
spending must provide local election officials with resources to do 
their job in this environment. Those who drive State election policies 
must make choices to fortify local officials for their new cyber 
mission.
    Election officials are serving valiantly and professionally. They 
are talented and capable. They are holding the line. But they are 
operating with limited resources under sometimes unfair burdens placed 
upon them by policy makers in their respective States. Like good 
servants, they will say they can continue to hold the line. And they'll 
mean it.
    But they need to be asked to hold a reasonable line. And holding a 
line that requires perfect defense every time is not reasonable.
    It is impossible to defend against every conceivable attack. But if 
we detect breaches and recover from them quickly, we will survive any 
incident.
    And so will faith in our democracy.

    Chairman Thompson. Thank you very much. With much 
excitement, we have been anticipating Mr. Braun's testimony.

   STATEMENT OF JAKE BRAUN, EXECUTIVE DIRECTOR, CYBER POLICY 
                           INITIATIVE

    Mr. Braun. Chairman Thompson, Ranking Member Rogers, and 
distinguished Members of the committee, thank you for the 
opportunity to speak to you today on this important issue. I 
also want to thank my co-panelists, Secretary Padilla, Noah 
Praetz, Secretary Merrill, they have led this Nation in 
securing elections and have become a model for other election 
officials around the country to follow.
    So with that, I am Jake Braun. I am the executive director 
of the University of Chicago, Cyber Policy Initiative at the 
Harris School of Public Policy. I am neither a technologist nor 
an election administrator, however, I have been working this 
issue for about 15 years from 3, kind-of, distinct vantage 
points.
    A few years ago, I worked on voter protection issues for 
multiple Presidential campaigns. Then, during my time at DHS I 
worked on this issue from both the Homeland and National 
security perspective.
    Then most recently, I co-founded the DEF CON Voting Machine 
Hacking Village. DEF CON is the largest hacker conference in 
the world and the Voting Village, as we like to call it, is the 
only public, third-party assessment of voting equipment on the 
planet that we are aware of.
    One thing that has become clear to us, clear to me, as I 
have worked on these issues from these different--very 
different perspectives over the years, is that this is a 
National security issue. This is not, kind-of, an election 
administration nuisance.
    What I would argue that the committee is solving for here 
is, they are not solving for dangling chads, they are solving 
for: How do we stop an existential threat to the United States 
from undermining our elections? So let me give you a few kind-
of key findings from the most recent DEF CONs that help 
elucidate that point.
    So thing one, the supply chain for the equipment, both the 
software and the machines is global. Many of these parts are 
made in places--nations that are unfriendly to the United 
States, like China.
    Hackers--nation-state hacks could put malware on firmware 
for these machines and other devices used to implement 
elections, and hack whole classes of machines all across the 
United States, all at once and never have to leave the Kremlin. 
That is not something that any local election official can be 
expected to deal with on their own. That is a National security 
issue and, therefore, Congress must act to support them.
    Second, both DEF CON, the Senate Intelligence Committee, 
and OAS, which is the National--or global head of website 
security, have identified nearly identical threats to website 
attacks across the country. On top of that, as was stated 
previously in this hearing, there are multiple States that 
don't have paper trails, much less audits in place to re-
engender trust if there was an attack on their elections. So it 
may be simply an attack on election reporting website that 
undermines trust in an election, especially in States like 
those without paper trails and audits.
    On top of that, there has been reports since 2016 that 
Russia has actually hacked election results-reporting websites 
in the United States already. On top of that, we know that 
Russia did this in the Ukraine, where they coupled their 
attacks on the election reporting websites with fake news they 
put out saying that their candidate had won, when, in fact, he 
had not.
    This--all of this together, fighting back an onslaught of 
attacks from both the cyber and media perspective from a 
nation-state is something that no local election official can 
be expected to do. That is a National security threat and, 
therefore, Congress must act to help State and locals deal with 
it.
    Finally, the cyber industry itself is--I mean, sorry--the 
election industry itself is cyber immature, as we may say. 
Meaning that, oftentimes, even when vulnerabilities are told to 
vendors, they don't get fixed.
    For example, back in 2007 there was a vulnerability 
disclosed to a vendor and--for a specific machine. This machine 
is used in 23 States, counts millions of ballots in a National 
election, often thousands of ballots locally at a particular 
jurisdiction. We went back and looked at that same machine at 
DEF CON last year, and that same vulnerability still persisted. 
So over a decade later, the vulnerability's still not been 
fixed.
    To be clear, the--the attack that was used on this machine 
is attack to be--could be carried out remotely by foreign 
hackers on foreign soil. It is an attack that can jump the 
erroneously-named air gap, and take over a machine completely 
to delete or add whatever types of votes you would want.
    By the way, this all may sound very hard, however, most of 
these attacks were done by hackers that are generalists, with 
no previous access to the machines, no knowledge of the 
machines and no specialized training on how to attack these 
machines.
    OK. So that is all the bad news but there is--there is a 
few good things to highlight here. One of those things is the 
security measures in this bill, they are very good.
    I think that my colleagues have highlighted some incredibly 
important things like audits, paper trails, improving cyber 
hygiene, money to State and locals who desperate need it to 
improve their cyber hygiene posture.
    But there is also a few other things; No. 1, there is money 
for R&D. The current state of the machines Nationally is such 
that they are essentially un-securable and we desperately need 
new machines around the country. However, the market for 
machines is such that the margins are so slim for the vendors 
that they will never be able to put the money needed into R&D 
to create machines of the future that can secure our elections. 
So Congress, thus, needs to help with that.
    No. 2, there is a very innovative bug bounty program in 
there, which I think creatively helps solve the cyber work 
force problem, which is a very serious problem. Then, finally, 
there is vulnerability disclosure component to it.
    So thank you very much. I am happy to answer any questions.
    [The prepared statement of Mr. Braun follows:]
                    Prepared Statement of Jake Braun
                           February 12, 2019
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee, thank you for the opportunity to speak to you today 
on this important issue.
    I would also like to thank my co-panelists, Secretary Padilla and 
Noah Praetz. They have led the Nation in securing their elections and 
have become a model for other election officials around the country to 
follow.
    My name is Jake Braun and I am executive director for the Cyber 
Policy Initiative at the University of Chicago Harris School of Public 
Policy.
    I am also co-founder of the DEF CON Voting Machine Hacking Village. 
DEF CON is the largest hacker conference in the world and the Voting 
Village is the only public, third-party inspection of voting equipment 
in the world, that we are aware of.
    Moreover, for the last 2 years, I have worked with leaders in the 
National security establishment to release an annual report on the 
National security implications of our findings at DEF CON. The reports 
have won multiple awards and our efforts have been hailed by people as 
diverse as President Trump's former White House Cyber Czar, Rob Joyce; 
then-Chairman of the Cyber Caucus, Congressman Will Hurd; and 
Congresswoman Jackie Speier; as well as a bipartisan group of Senators 
from the Senate Select Committee on Intelligence, led by Senators 
Harris and Lankford.
    The main question relevant for this committee is whether any of our 
findings are useful to the legislation you are now considering. The 
answer, in my estimation, is emphatically yes.
    To that end, I have one overarching finding I want to highlight as 
well as a few key vulnerabilities which clarify the importance of the 
finding. Finally, I would humbly like to make a couple recommendations 
as to how these problems can be addressed.
    The overarching finding is that attacks on our election 
infrastructure are NOT solely an election administration nuisance but 
rather a National security threat. Time and again this conclusion 
manifests itself in our research. This threat is not about how to 
eradicate hanging chads. This is about our National security apparatus 
marshalling its resources to do what our Nation expects it to do, which 
is protect our country from existential threats to the United States. A 
county clerk or secretary of state is not equipped to defend our 
democracy from nation-state hackers. These nation-state adversaries may 
attempt to change vote totals or they may simply try and erode our 
confidence in the integrity of American elections. Either way, this is 
a National security threat and thus Congress must act.
    Let me give you a few examples of specific key findings that draw 
us to the conclusion that this is a National security threat:
    1. The voting machine supply chain is global and parts are made in 
        nations unfriendly to the United States, like China. If an 
        adversary were to infect the firmware made at a plant in China 
        or elsewhere, which we know has happened with other products, 
        whole classes of voting machines could be hacked all at once on 
        Election Day from the Kremlin. No election clerk or secretary 
        of state alone can defend against these global supply chain 
        issues. This is a National security threat and thus Congress 
        must act.
    2. Second, we have highlighted well-known vulnerabilities in 
        websites. The global leader on website security, The Open Web 
        Application Security Project (OWASP), and the 2018 report by 
        the Senate Select Committee on Intelligence have highlighted 
        similar threats to election websites. The bottom line is no one 
        can defend a website from a determined nation-state actor. Just 
        ask the top 25 banks in the country who collectively spend 
        billions on security but failed to stop members of the Iranian 
        Revolutionary Guard from attacking their websites consistently 
        over the course of 2 years. Further, since 2016, the media has 
        reported successful attacks on election websites in the United 
        States by Russia. Russia also executed an attack against 
        Ukraine's Central Election Commission website in 2014, rigging 
        the website to announce the Russian-supported candidate won. 
        Ukrainian officials detected the breach before the election 
        results went live, but Russian media still erroneously named 
        their candidate the winner. In U.S. States where there are no 
        paper audits possible, hacking a website may be all that's 
        necessary to cast doubt on an election's integrity. Moreover, 
        no clerk or secretary of state alone can defend themselves 
        against a multi-layered cyber and media campaign to cast doubt 
        on the integrity of a National election. Rather, this is a 
        National security threat and thus Congress must act.
    3. Finally, perhaps the most disconcerting ``flaw'' we found is 
        that vendors don't fix vulnerabilities when they are disclosed 
        to them. A significant flaw with the M650 machine, which was 
        used in 23 States as of 2018, was disclosed to the vendor in 
        2007. However, to our knowledge the vendor neither told its 
        customers about the flaw nor did they fix the flaw at the time 
        it was disclosed. Nor did they fix it after the 2016 elections 
        when they supposedly started taking security much more 
        seriously. Nor did they fix it, to our knowledge, after we 
        pointed it out again at DEF CON in 2018. To be clear, this 
        attack would allow an attacker, through a remote hack that 
        could be carried out from abroad, to jump the so-called ``air 
        gap'' and hack into a voting tabulator processing ballots for 
        key counties in battleground States. This attack could flip the 
        Electoral College and determine the outcome of a Presidential 
        election. Obviously no clerk or secretary of state alone can 
        defend against adversaries who can change large number of votes 
        without needing physical or network access to the machines.'' 
        Clearly, this is a National security threat and thus Congress 
        must act.
    One might think these attacks sound pretty hard to carry out. 
However, most of these attacks and dozens of others we found were 
carried out by generalists with no specialized training on election 
equipment or previous knowledge of the machines or networks.
    Some have claimed that the setting at DEF CON does not represent a 
real election environment, thus diminishing the utility of our 
findings. However, as said at the outset, DEF CON is the only public, 
third-party inspection of election equipment, so it's the best we have 
for now. Further, as former White House Cyber Czar Rob Joyce, said, 
``We know our adversaries have a room just like the one at DEF CON.'' 
By which he meant that our adversaries are researching all the voting 
equipment we have and more because they don't have to get the machines 
legally, like we do at DEF CON. However, they aren't doing the research 
3 days a year, they are doing it 365 days a year. They also don't 
disclose the vulnerabilities they find, like we do. Yet they are 
looking for the same flaws we are: Hacks that are quick, remote, and 
scalable.
    So what can be done about these problems?
    First, I would encourage you all to study the recommendations of a 
new report on election security from the National Academies of 
Sciences, Engineering, and Medicine. Their recommendations are 
comprehensive and sound.
    Second, pass this bill. The measures in the H.R. 1 proposed 
legislation provide for auditable paper trails and local implementation 
of at least the top 5 of the 20 Critical Security Controls, as well as 
funding for cyber assessments and remediation. Congress must support 
State and local administrators' efforts by providing funding and 
assistance to implement cyber best practices that reduce America's 
vulnerability to these clear threats to our election infrastructure.
    Finally, the election industry desperately needs funding for R&D to 
build voting equipment that can stand up to these modern threats. The 
current equipment is essentially unsecurable. The vendors will never 
have the enough money to fund the R&D necessary to develop equipment 
that can defend against nation-state attackers. H.R. 1 provides R&D 
funding for voting technology of the future, and I would strongly 
encourage the committee to keep that funding in whatever version 
hopefully passes.
    Again, not solely an election administration nuisance but rather a 
National security threat. Thus Congress needs to act and fund a 
solution. I thank you for your efforts to pass this critically 
important legislation.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize, Mr. Merrill, to summarize his statement 
for 5 minutes--or do the best you can do.

   STATEMENT OF JOHN H. MERRILL, SECRETARY OF STATE, ALABAMA

    Mr. Merrill. Thank you, Mr. Chairman, I will. I appreciate 
that. I am honored to be with you. Ranking Member Rogers, thank 
you so much for the invitation to come and share with you all 
today.
    I am John Merrill. For the last 4 years and 25 days, I have 
had the privilege to serve as Alabama's secretary of state. In 
our State, as in 35-plus other States in the Union, the 
secretary of state is the person that is responsible for the 
election system in that particular jurisdiction.
    I think it is important for you to know some of the things 
we have done in Alabama and some of the thoughts of some of the 
people that I represent that have similar positions to the one 
that I hold.
    As far as secretary of state's role is concerned; we have 
pre-election, Election Day, and post-election activities that 
we are responsible for. We coordinate all voter registration 
efforts in our State, we certify the ballots, we also monitor 
and enforce campaign finance laws at the State level.
    We ensure participation in the election's process through 
awareness campaigns. We have Election Day and election night 
reporting systems that we have created and compile and certify 
election results. We also engage in partnerships with our 
public and private partners and independent partners in 
different ways.
    We work with our county and municipal governments as well 
as Federal agencies when it is appropriate including but not 
limited to the election's systems commission, the Department of 
Justice, the National Guard, the Department of Homeland 
Security.
    Our relationship with those entities has improved over the 
last 3 years since we had this type situation first introduced 
to us. In our preparation for the 2018 election cycle, we 
concentrated in the areas of cybersecurity, election integrity, 
which also includes enforcing the laws, and we use paper 
ballots in Alabama. We are going to continue to do that and by 
Federal law, anybody has to retain the Federal ballots for a 
period of not less than 2 years. That is the Federal law 
already. Voter confidence and voter participation is 
extraordinarily important.
    Now we have heard a lot of different things today. But one 
of the things I think is so important for us to remember and to 
acknowledge and this has come from the Department of Homeland 
Security most recent report that there was no breach of any 
incident in the tabulation that occurred in the 2016 general 
election.
    That has been researched, it has been documented, and no 
breach has occurred and no tabulation change occurred in any 
election in any State in the Union in the 2016 cycle. I also 
think that it is important to know that there is some serious 
concerns and issues with H.R. 1 in our opinion.
    No. 1, significant Federal overreach has been indicated 
through the introduction of this legislation and it appears to 
provide certain things that need to be done but the lack of 
resources in order to be able to do those effectively.
    So they are strictly underfunded or unfunded mandates. No. 
2, there are many prescriptive requirements that have been 
indicated that States that would accept these funds would face 
significant difficulty in enacting those new programs without 
the resources necessary to do that.
    They include but are not limited to some things that are 
already on-going in our State and other States in the Union, 
which are electronic poll books, paper ballots, automatic voter 
registration, audits, same-day registration. Those things are 
strictly prescribed that they need to be adhered to regardless 
of what the local jurisdiction would like to do. No. 3, the 
amount of time that the States have to meet the requirements is 
not something that is going to be able to be met.
    One of the questions was asked earlier is that something 
that is going to be able to be adhered to and the answer to 
that question is no. If you want to know why it is because at 
the Federal level and at most State levels they move at the 
speed of Government and if you move at the speed of Government 
you know why it is not going to be done. You have to create 
RFPs and other things but we can talk about that later if you 
are interested.
    As far as--the most important thing that I could share with 
you about a good election security bill, it would be one that 
would create the necessary resources to the States without 
creating unfunded or underfunded mandates and strangling 
restrictions that would introduce Federal overreach. I yield 
back the balance of my time.
    [The prepared statement of Mr. Merrill follows:]
                 Prepared Statement of John H. Merrill
                           February 13, 2019
    My name is John Merrill, and I am Alabama's 53rd secretary of 
state.
    Thank you for the opportunity to appear before you today to address 
how we, as the States' chief State election officials, work diligently 
each and every day in our State, and with our counties, municipalities, 
and other local jurisdictions to ensure we elect our leaders in free, 
fair, and accessible elections. This work can be complimented by 
effective partnerships at the Federal level, like those we have today 
with the Elections Assistance Commission (EAC), and the Department of 
Homeland Security (DHS), the National Guard, the Federal Bureau of 
Investigation (FBI), and other groups and associations like the 
National Association of Secretaries of State (NASS).
    My goal as Alabama's 53rd secretary of state is to ensure that each 
and every eligible U.S. Citizen that is a resident of Alabama is 
registered to vote and receives a photo ID.
    During my time as Alabama's secretary of state, my team and I have 
changed the paradigm for voting in the State of Alabama. Since I took 
office on January 19, 2015, we have worked with notable Alabamians, 
local officials, interested agencies, key communicators, and interested 
citizens to encourage voter registration and voter participation. The 
results are that we have registered 1,199,909 new voters, which brings 
our total number of registered voters to 3,473,030. Thirty of our 67 
counties use electronic poll books, which expedites the check-in 
process and offers greater security for the voter and greater 
efficiencies and accountability for the poll worker. Our stated goal is 
to have electronic poll books in every county in the State by 2022. As 
a part of our efforts to ensure voter integrity, we have worked to 
secure 6 convictions of criminal activity related to voter fraud and 
will continue to document, investigate, and prosecute those 
individuals' intent on disrupting our democratic institutions for 
personal or political gain.
    All of these efforts have helped our citizens become more involved 
and engaged in the process to elect officials that represent them in 
local, State, and Federal positions. We have broken every record in the 
history of the State for voter participation as Alabamians have turned 
out to vote in record numbers. In March 2016, we set a record for voter 
participation in a Presidential preference primary with 1.25 million 
Alabamians casting a ballot. In the General Election on November 8, 
2016 with 2.1 million Alabamians casting a ballot. Alabama then broke 
the record for participation in a Special Election during the 2017 U.S. 
Senate Special Election, held on December 12, 2017, with 1.3 million 
Alabamians casting a ballot for their choice for the next U.S. Senator 
from Alabama. Most recently, we broke the record for turnout in a non-
Presidential general election year during the 2018 General Election 
with more than 1.7 million Alabamians going to the polls.
    In Alabama, we are making it easy to vote and hard to cheat.
    As we prepared for the 2018 General Election, we worked to ensure 
our systems were protected by requiring 2-Factor Authentication for any 
State or local user who accesses the voter registration system. We 
secured our networks and our election night reporting system with 
resources provided through the Department of Homeland Security, our 
local information systems team, and other third-party vendors. Our work 
to conduct elections efficiently and effectively is supported both by 
the Elections Assistance Commission and the Department of Homeland 
Security. The EAC provides guidance and support, as we prepare our 
local election officials to administer their elections. Our 
relationship with DHS is a relatively new one, but it is one that has 
been home to significant growth over the last 2 years. Prior to the 
Senate Special Election in December 2017, we had very little 
interaction with DHS. However, as that election approached, we were 
able to work closely with DHS to ensure our systems were secure. We 
wanted to make sure that any vulnerabilities that we could identify 
were resolved and any new issues were mitigated before they disrupted 
an election in Alabama. We have also hosted a team from DHS on-site 
with us throughout election day to ensure issues are resolved in real 
time.
    The most significant support that the Federal Government has 
provided to my State has been access to Federal grants and other 
resources to modernize and to increase the accessibility of our State's 
voting systems. Additional funding is imperative to ensure voting 
equipment can remain up-to-date and voting systems can remain secure to 
protect the data of those citizens.
    Another area in which I have continued to advocate is for the EAC 
to provide guidance, testing, and verification of vendors, equipment, 
and systems much like the Federal Government does for other aspects of 
our Nation's critical infrastructure.
    The impact of the enactment of H.R. 1 could possibly damage the 
credible elections process we have worked hard to build in Alabama by 
creating a series of administrative concerns for the State to enforce.
    Title I of this bill creates significant concerns for me and the 
people of our State. This bill makes any process currently in place in 
our State to update and maintain the voter registration system illegal, 
while expanding the process of voter registration. Empirical data shows 
that no State in the union has done more, per capita, in the past 4 
years to increase voter registration than Alabama. This bill would 
create massive errors in the States' voter rolls and would be a 
disservice to voters that often benefit from the reminders sent from 
election offices encouraging them to update their registration 
information.
    In Alabama, more than 94 percent of the eligible population is 
registered to vote. Therefore, our biggest responsibility when it comes 
to maintaining the voter registration system is to keep voter 
information accurate and current. Providing awareness efforts and 
teaching our citizens how to effectively participate in their 
democratic institutions is a much more effective method to get voters 
to the polls. That is exemplified in Alabama and was reconfirmed 
through a recent ruling from the Federal court on Alabama's photo voter 
ID law and its implementation. The judge in that case wrote that if 
every State in the union did what Alabama has done, then every State 
could have photo voter ID in their State because Alabama makes it so 
easy to be able to vote.
    Title V of this bill is troubling, as it amends the Federal 
Election Campaign Act of 1971 to turn the Federal Election Commission 
(FEC) into a powerful, Government tool that provides a balance to big 
money donors and distribute resources to candidates unable to raise 
funds from those donors. However, this bill will not have the desired 
impact that the authors intend. The bill attempts to provide this 
balance to candidate fundraising by giving power to the FEC to 
redistribute tax-payer money to citizens that qualify and by providing 
matching funds to candidates who only accept small-dollar donations. 
This change would transform campaign financing and would enact into law 
excessive Federal intervention in a system that, is by law, to be 
administered by the State.
    Under this bill, if the Commission finds, by themselves, that a 
candidate has failed to comply with any of the requirements of this 
program, the commission has the ability to simply revoke the 
certification of a candidate. This revocation could come in the middle 
of an election cycle allowing the FEC to become a partisan tool to be 
used as a weapon to completely eliminate a candidate's ability to 
campaign. This bill has the potential to make the FEC one of the most 
powerful entities in the U.S. Government.
    A candidate that has been revoked by the FEC would then be unable 
to receive public funds and may have to repay all the resources 
received by their campaigns into an account the FEC controls to then 
use to conduct further audits or, if used improperly, to conduct 
unmitigated harassment of candidates they disagree with based on 
partisan, political, or philosophical differences. Past experiences 
involving the Internal Revenue Service indicate that this is not only 
plausible but likely.
    By taking the ability to financially support a candidate away from 
the electorate, the most important person in our Nation--a citizen of 
the United States--and placing it with the Federal Election Commission, 
brings us one step closer toward the Federal Government dictating 
winners and losers in elections.
    The most important feature to a good election security bill is to 
create one that provides necessary resources to the States without 
creating unfunded or underfunded mandates and strangling restrictions 
through Federal overreach.
    United States Senators and Members of Congress that are unwilling 
or unable to consider the fact that each State has unique laws and 
circumstances with different levels of resources must understand that 
they are creating an ineffective system that will create additional 
hardships for the entities responsible for administering and conducting 
elections in their State, and potentially cause unnecessary damage to 
the credibility and security of our electoral process. State leaders 
must be given the opportunity to build their system around their 
State's laws and citizens regarding elections as is indicated in the 
United States Constitution.

    Chairman Thompson. Thank you very much. Let me thank all 
the witnesses for their testimony and we have about 20 minutes 
to kind-of run this before they call votes so we are going to 
move very fast.
    Mr. Braun, when you brought--who did you bring to the 
attention of that there was some vulnerabilities in equipment 
and you found that going back later the vulnerability was still 
there. Who do you make aware of that vulnerability?
    Mr. Braun. Sir, we--we put it in a report that we released 
both to the press and to--we actually released it here on 
Capitol Hill in our building and gave it to multiple 
stakeholders in Government as well as the private sector. We 
dispersed it widely.
    Chairman Thompson. OK. Did you make it available to DHS?
    Mr. Braun. Yes, we sent them advanced copies as well as the 
final copy.
    Chairman Thompson. OK. Did you get a comment back from them 
in any way?
    Mr. Braun. I did not, sir.
    Chairman Thompson. OK. Thank you. Mr. Merrill.
    Mr. Merrill. Yes, sir.
    Chairman Thompson. Did you apply for any of the funds from 
the Election Assistance Commission?
    Mr. Merrill. Yes, sir. To get our balance from the original 
HAVA appropriation we did so.
    Chairman Thompson. How much did you get?
    Mr. Merrill. About $6.2 million for the State of Alabama.
    Chairman Thompson. Could you have done what you did without 
that money?
    Mr. Merrill. Well, we have. Congressman, we have not spent 
a dime of that money yet because the things that we are 
planning on introducing, the continuation of the purchase for 
electronic poll booths, which we have 30 of our 67 counties 
that are currently using it and the introduction of additional 
audit procedures that will be in place that will cost us some 
resources.
    Some other things that we are doing in the area of 
cybersecurity where we have to provide an appropriate match for 
that purpose. Everything that we have done so far and we have 
done a number of things, as a matter of fact, if you will let 
me just mention some of these.
    Chairman Thompson. No. No. You just answer my question.
    Mr. Merrill. Yes, sir. Yes, sir.
    Chairman Thompson. You got $6.2 million right?
    Mr. Merrill. That is correct.
    Chairman Thompson. You anticipate to spend it?
    Mr. Merrill. We going to spend it.
    Chairman Thompson. OK. That is what--that is what I am 
trying--trying to get at.
    Mr. Merrill. Yes, sir.
    Chairman Thompson. So--so you saw the need for additional 
resources.
    Mr. Merrill. Congressman, I always see the need for 
additional resources.
    Chairman Thompson. OK. Mr. Padilla, could you tell us how 
much California received?
    Mr. Padilla. California's share of last year's 
appropriation was about $34 million. It is pretty much being 
spent if it is not already been spent in the current fiscal 
year budget. It is in a number of areas.
    Some of it is in hardware; software upgrades to our 
VoteCal, which is our centralized voter registration database, 
others for security improvements and counties' access to that 
same database.
    We have dedicated some of the funding per EAC DHS 
recommendation on training. Cyber training is as important as 
cybersecurity to make sure staff at the State and at the local 
level are practicing all the best cyber hygiene practices as 
well.
    I want to make a special comment on the timing of this 
because I have heard this about the Q&A of the first panel. Is 
there enough time, is there enough time, is there enough time 
as if--sounds like an argument to not move forward with 
offering States additional resources.
    There are ways to expedite how that money gets from the 
Federal Government to the State government down to the locals 
who need it the most. You know first of all, Florida 2000 
triggered HAVA. HAVA was 17 years ago and the final 
disbursement of those dollars was just last year.
    The Federal Government can move more quickly and 
appropriate and not just approving but appropriating the monies 
to States. The 2016 election kind-of revived a lot of these 
conversations. Yet, it wasn't until April 2018 that those final 
HAVA dollars were moved. So the Federal Government can move a 
little bit quicker. At the State level we have learned how to 
accelerate that--that money the investment added to local level 
by entering into contracts with counties to move their money to 
on a reimbursement basis. So the fact that the check is not in 
hand should not hold up counties being able to make the 
investments that they need to make.
    Once they know that they can count on being reimbursed, a 
lot of counties are willing to move more quickly and bring 
those security benefits to the elections.
    Chairman Thompson. So, thank you very much. Mr. Braun, 
supply chain is important also. I mentioned it to the last 
panel and I was given this assurance that we are in a global 
economy and everything was fine. I heard a little something 
from your comment. Can you elaborate on that?
    Mr. Braun. Sure. This is kind-of a known thing that Russian 
hackers as well as other nation-states hack parts in the supply 
chain all the time. I think anybody who questions whether 
supply chain or remote hacks are possible just look at Stuxnet. 
Those centrifuges were buried in concrete vaults underground in 
the desert and folks were still able to get in there and take 
those out. Anybody who thinks that undermining our institutions 
and our democracy is any less of a strategic importance to 
Putin than taking out the Iranian nuclear program was to those 
who did that is very mistaken----
    Chairman Thompson. I agree so have to on that end pay close 
attention to who's providing the equipment for our elections.
    Mr. Braun. Without question there needs to be assessments 
of the parts and where they came from and inspections of them 
and a whole regime put in place for that.
    Chairman Thompson. Thank you. I yield to the Ranking 
Member.
    Mr. Rogers. Thank you, Mr. Chairman. What I have been 
making the point in my earlier questioning and trying to 
emphasize is as Secretary Merrill said, he hasn't spent any of 
his money yet and Secretary Padilla said he started spending 
it. It just takes time. This money is not going to fix anything 
just in 1 year. It is going to be a process. In most cases it 
is going to take several years and that has been my only point.
    Secretary Merrill, the purpose of this hearing is to review 
H.R. 1 even though we are not going to be marking it up. Is 
there anything in H.R. 1 that you can find helpful to you in 
securing elections?
    Mr. Merrill. No, Congressman, there are some things that we 
find restrictive because of what we would have to do to adhere 
to certain guidelines that are in the bill that are associated 
with the allocation that would accompany it.
    Mr. Rogers. If we were marking it up, which we are not, 
what would you suggest we do to improve it?
    Mr. Merrill. Well one of the things that I would encourage 
the Members to do is to make an appropriation that establish 
some level of guidelines but did not have strict adherence that 
had to be met so that the local State or the local jurisdiction 
would be able to purchase equipment or be able to purchase 
services or be able to purchase types of products that were 
necessary for them to administer their elections in a way that 
they saw fit and in a way that was best for them.
    Because in my mind, it is always best to make those 
decisions at the local level as opposed to the National or the 
State level going down to the local jurisdiction.
    Mr. Rogers. Secretary Padilla, the same question. What 
would you do if we were marking up H.R. 1 to improve it, if 
anything?
    Mr. Padilla. I appreciate the opportunity. So there is an 
element to H.R. 1 that establishes not just time tables for 
EAC--or excuse me--DHS testing and certification of voting 
systems prior to their being used by States. That element fails 
to recognize there is a handful of States, California being 
one, that has established testing and certification at the 
State level where we statutorily require our 12 State standards 
to meet or exceed the Federal guidelines.
    So an allowance for those States to test at the State 
versus requiring a duplicative Federal testing or certification 
and as long as the time table suits us in terms of properly 
administering the elections, that flexibility will be helpful 
as well.
    Mr. Rogers. Let me ask this, you heard Mr. Higgins earlier 
in the questioning and the previous panel emphasized that there 
are scores of thousands of voting locations around the country. 
When you get the HAVA funds, and this is for Secretary Padilla 
or Merrill, do you prescribe standards that counties must 
adhere to for you to fund their purchase of equipment or 
training?
    Mr. Merrill. Yes, sir, actually that is done, Congressman, 
in the legislation that was approved when HAVA was first 
adopted. One of the things that we discovered was that that was 
not always being adhered to whenever that appropriation came 
and it was approved at the State level. So we have made sure 
that we even had training and we provided training to our local 
jurisdictions as well.
    Mr. Rogers. You just don't write a check to the local city 
or county.
    Mr. Merrill. Certainly not. Certainly not.
    Mr. Rogers. You say that is a Federal requirement?
    Mr. Merrill. Yes, sir. There are certain guidelines that 
were established in the HAVA appropriation that said these are 
permissible expenses and if you go outside of that then 
somebody should be held liable for that. That has not happened 
in the past.
    Another frustration that we have experienced is when those 
additional dollars came, they were complimenting what happened 
in 2003. Well what happened in 2003, and of course that--that 
was your first session in the Congress, was that there was no 
deadline on when those funds had to be expended at the State or 
local level.
    We have a number of counties in our State that received an 
appropriation 15 years ago and that money is still sitting in 
their bank account. Now it looks good to those people that live 
in that county but those resources are not spent--they are 
supposed to be used to benefit all of the constituents that 
live in that county in that particular jurisdiction. In our 
instance in the 2,401 individual jurisdictions where we have 
voting precincts.
    Mr. Rogers. Mr. Braun----
    Mr. Padilla. If I may--if I may add?
    Mr. Rogers. Certainly.
    Mr. Padilla. So similarly and in agreement that the 
guidelines that are established at the EAC or at the Federal 
level as those monies move. We mentioned earlier how this 
contract reimbursement basis with counties allows the 
investments to be made earlier. It also provides to those 
contract reviews an additional point of compliance, if you 
will, or a verification that indeed the expenditure is being 
made or consistent with those Federal requirements.
    Mr. Rogers. Right. Mr. Braun, we all know that Russia has 
been meddling in our elections by disinformation for decades 
and just like they do countries all around the world for 
decades particularly in eastern and western Europe. But you 
made a point a few minutes ago that the Chairman addressed but 
you said that there have been instance--and my understanding 
there have been no incidents of hacking in the 2016 or 2018 
elections but you said that there have been some incidents 
prior to that where Russia had hacked some machines in this 
country. Can you expand on that please?
    Mr. Braun. It was actually a website I was referring to. 
Vox Media reported, I believe it was actually 2017 instance 
where Russian bots I think took down an election reporting 
website in Tennessee.
    Mr. Rogers. OK.
    Mr. Braun. Multiple Federal sources were cited in the 
report.
    Mr. Rogers. Thank you very much. I yield back.
    Chairman Thompson. Thank you very much. The Chair yields to 
the gentlelady from New York, Miss Rice.
    Miss Rice. Thank you Mr. Chairman and thank you all for 
coming today. Over the past couple of weeks I have heard some 
people refer to H.R. 1 as a Federal takeover of our elections. 
But I hope that everyone on Panel II would agree that the 
Federal Government has a Constitutionally-protected role in 
advising and helping to administer elections.
    I think 2016 should have established that once and for all. 
I think the previous panel, both Mr. Krebs and Mr. Hicks, laid 
out the fallacy of that claim by showing that they were able to 
build relationships with States and localities to work together 
without infringing upon the State's ultimate ability and right 
to set election standards in their own States.
    My concern is the--what--and this is to everyone on the 
panel, what are States doing to work with social media 
companies to combat wide-spread disinformation campaigns 
targeting our elections? What do you think the Congress and the 
Federal Government can do to better prepare States and local 
election officials for these dynamic hybrid warfare attacks?
    Mr. Merrill. Outstanding question. I will tell you this. I 
don't think--well, there is nobody at this table that has had a 
higher-profile situation than we did in Alabama when Senator 
Jones was elected December 12, 2017.
    I attended a presentation that was made by Facebook and 
Twitter in February 2018. They were talking about all they had 
done to help folks, and how they had made it easier for people 
to understand when bots were removed, and how it was helping 
the electoral process.
    I said to them--after I waited patiently in line, I said, 
now friends, let me say this to you. I said, if you will tell 
me what you did to help us in Alabama, we will both know 
because they were talking about what they done in ours, 
specifically. They didn't do anything to help us.
    Now, subsequently, we came to Washington and had a meeting 
with Facebook, and talked to them about what they could do, and 
how they could be more helpful. One of the things they have 
introduced now is that whenever you get ready to purchase an ad 
on Facebook, they communicate with you directly through a card 
that is mailed to a particular location so you know if that 
individual is making the purchase as a United States Citizen.
    There are other mechanisms that they have put in place that 
I think are appropriate now. But we have got to have some 
cooperation with the people at the social media level. That 
will enable us to be more effective.
    We were actually able to have ads removed from YouTube and 
Google because of the work that we did, but we had a difficult 
time with Facebook. Twitter was also very supportive in what 
they did to help us.
    Mr. Padilla. In my oral remarks I made reference to the 
creation of an Office of Election Cybersecurity, as well as 
Office of Enterprise Risk Management in California. In my 
written remarks, I expand on that a little bit. Some of the 
initiatives within the election cybersecurity effort included: 
We branded a voucher. We put up a specific web portal with a 
lot of important voter tools, the find your polling place, 
verify your registration status, and a dedicated email address 
for the public to report suspected misinformation.
    In addition to that, some of our additional State funding 
allowed us to hire staff strictly dedicated to social media 
monitoring. Not to censure candidates or campaigns, but to 
specifically look for erroneous information about the election 
or the voting process.
    Some are to--a lot of secretaries benefited from a mass 
conversation--the National Association of Secretaries of State 
conversation with representatives from Facebook, and Twitter, 
and others. I mean, we have the benefit that they are based in 
California. So we have a little bit quicker access to them. 
Creating specific protocols for being able to report to them, 
where these specific complaints, kind-of, jump to the front of 
the line for review because, you know, if you submit something 
on Election Day, you can't wait for 7 days for it to be 
addressed.
    We--we ended up reporting close to 300 who we felt were 
misleading or inaccurate posts, tweets, et cetera, 98 percent 
of which the social media companies, themselves, took down 
because it violated their policies. So it is one example of 
monitoring, reporting, and relationship.
    Mr. Praetz. If I might? We have looked at this as, sort-of, 
defending our institution on two fronts; one is mis- and 
disinformation front. It is a place where as election officials 
we don't have a tremendous amount of control.
    Then, there is the other front, which is the infrastructure 
front, which is the place where we have 100 percent control on. 
So that is where a lot of our focus has been. But there is a 
bit of overlap, and it comes in the form of information about 
where people vote, when you vote, what you need to vote, I.D. 
requirements, things like that.
    So, it is really key that, as election officials, as more 
and more folks drive voters back to the trusted sources, like 
us, that we remain trusted sources and are providing fully 
accurate information.
    That means that we have got to, sort-of, up the notch again 
on the infrastructure that we are protecting. One other note is 
that we have got to expand the services we provide. I think 
social media steps in where they think there are gaps, in terms 
of driving registration outreach, or driving--showing up at the 
polling place outreach.
    They are filling gaps that they perceive in the 
administration of elections. To the extent that we don't fill 
those ourselves, there are going to be third-party providers 
that continue to do so. That--that can result in challenging 
relationships because sometimes the information they rely upon 
can be inaccurate.
    Miss Rice. Go ahead. Mr. Braun.
    Mr. Braun. Congresswoman, thank you for that question 
because I think it hits on the head of--of how this is such a 
National security problem. At the University of Chicago, we 
spend a lot of time trying to update concepts like nuclear 
deterrents or cyber deterrents, which has really not happened 
yet in the National security world.
    I think that the point that you are making, it is nearly 
impossible for us to stop Russia from doing something like they 
did in the Ukraine where--imagine election night 2020 and 12 
battleground State websites are down because they have hacked 
the websites. Then, Russian media is announcing that their 
preferred candidate had won the election. It would be chaos.
    We can't really stop it from happening without a strong 
deterrence regime. That is not in place yet. I--and it is 
something that, you know, the National security establishment 
really needs to think through, and implement. Thank you.
    Miss Rice. Mr. Braun, I couldn't agree with you more. Let 
me just end with this thought. Everything that I have heard 
today over the past 3 hours and 15 minutes, I hope has 
established, in all of our minds, the need to address this 
issue from a non-partisan stance because this gets to the very 
heart of maintaining the democracy. That, whether you are a 
Republican or a Democrat, you love and you want to maintain.
    I really hope that, thanks to smart brains like you, and 
the prior panel, and hopefully the--the commitment of everyone 
on this committee, and throughout this body, we recognize how 
important it is to maintain the integrity of our democracy. 
Thank you and I yield back, Mr. Chairman.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. It is interesting to 
have my colleague, Miss Rice, mention that--the smart brain in 
the room mentioned by the smartest brain in the room. 
Gentlemen, thank you for your service. My question is going to 
be to both secretaries of state, Secretary of State Padilla and 
Merrill.
    I had mentioned in an earlier round of questioning that 
there were over 174,000 precincts, Mr. Chairman, voting 
precincts in America. My brilliant staff has advised me the 
actual number is 178,217 in the 2016 voting cycle. That is 
just--this is a tremendous endeavor.
    Our goal here in this committee is--is shared on--from both 
sides of the aisle, we want every legal vote to have access to 
the poll, easy and fair access to the poll and we want their 
vote to be accurately counted, whether they are Democrats, 
Republicans, or anything in between. We have that same goal. 
You, gentlemen, have the incredible task of ensuring that that 
happens in your individual States.
    The--your colleague from the State of Texas, secretary of 
state has stated that in Texas it has been identified 58,000 
non-U.S. citizens who are illegally in the country voted in one 
way or another in elections over the last two decades.
    May I remind all of us that sometimes even Federal 
elections are determined by very, very few number of votes. Our 
colleague Will Hurd from Texas 23rd district, his election was 
determined by 926 votes. So to say that it is a--that it is a 
small problem is not a--I don't think it is intellectually 
sound, when--when that is--when that response is measured 
against elections that are determined by very few votes.
    So Secretary of State Padilla, is seems to me, since we are 
dealing with Title III, election security. That is our 
jurisdictional authority in this committee. Security has--as 
it--to establish a perimeter. That you want to control access 
to that perimeter first and then control action within that 
perimeter.
    So how do you, good sir, in California, how can--how do you 
guarantee the citizens of your State that access to a 
controlled voting environment or precinct is limited to a legal 
vote? I--and, sir, I will be asking you the same question.
    This is--this is a spectrum beyond the control of the 
action. We spent a lot of time talking about how we confirm the 
accuracy of a vote and cyber interference, et cetera. How do we 
control legal access to that voting perimeter, good sir, in 
your State?
    Mr. Padilla. I very much appreciate the question. I know 
Congress at times deals with public safety issues and debates 
about the balance between public safety and civil liberties. I 
put that out there just as a framework to consider when it 
comes to elections. We value security and we value 
accessibility, right? Those two are not mutually exclusive.
    Mr. Higgins. They are difficult, yes.
    Mr. Padilla. So when it comes to the security of the voting 
process and the actions taken within, just look at the data. I 
mean, there have been numerous reports, numerous studies, 
numerous investigations that, when it comes to the baseless 
allegations of massive voter fraud, show that voter fraud is 
exceedingly rare.
    So the safeguards are working, by and large. Does that mean 
that we should not take it seriously? No, we do take 
allegations very seriously. But the measures that have been--
technology and otherwise----
    Mr. Higgins. Intelligent response. So let me give time to 
your--to your colleague from Alabama. Before he answers, let me 
state that what we seek is reassurance at the State and the 
local level as we are dealing with 178,000 precincts that legal 
access to that voting environment is recognized as a security 
concern, if we are talking about jurisdiction over the security 
of the--and the sanctity of our elections in America. This is 
certainly--any reasonable man or woman would recognize this. 
Sir, in Alabama, how would--how would you handle that?
    Mr. Merrill. Congressman, 2,401 of those are in Alabama and 
I want to share this with you, too. I want to be perfectly 
clear about this----
    Chairman Thompson. You have 10 seconds.
    Mr. Merrill. OK. The only people that need to be voting in 
U.S. elections are United States citizens.
    Mr. Higgins. Well, that would--that indentify the legal 
access.
    Thank you, gentlemen, for your service to your country. Mr. 
Chairman, I yield.
    Chairman Thompson. Thank you very much. The reason I said 
that, Mr. Secretary of State, they have called votes and we 
trying to finish----
    Mr. Merrill. Yes, sir.
    Chairman Thompson. That is the good news. The bad news is 
all the questions going forward will be yielded to 2 minutes.
    Mr. Correa.
    Mr. Correa. Mr. Chair, just a quick question. Mr. Padilla, 
Mr. Merrill, H.R. 1, help or not help with voter system 
integrity?
    Mr. Padilla. Help. Additional resources on the table that 
are desperately needed, we have offered under our previous 
question some specifics on how to maybe improve upon the 
language to make it even more strategic for State investment.
    Mr. Merrill. Congressman, it has a potential to, but not in 
the current form.
    Mr. Correa. Thank you.
    Chairman Thompson. Thank you.
    Chair yields to the gentlelady from Arizona, Ms. Lesko.
    Mrs. Lesko. Thank you, Mr. Chair.
    Very quickly I am just going to ask one of the questions 
and it will be to you, Mr. Merrill. Section 1302 of this bill 
H.R. 1 criminalizes false statements or misinformation 
regarding elections and candidates.
    Much of how, in this bill it determines if a person is in 
violation of these provisions is to their intent. The penalty 
written in the bill is a fine of up to $100,000 or up to 5 
years in prison, or both.
    I guess, my question is and--how are we going to 
determine--who's going to be the arbitrator and determining if 
something is misinformation or not? I know, I can tell you in 
my election, my opponent did a lot of misinformation about me. 
Are they going to be a criminal now as well?
    Mr. Merrill. Well, Congresswoman, I want to make sure 
that--that you know this. We take voter fraud, which that would 
be a part of voter fraud, very seriously in our State.
    Since I have been the secretary, we have had 6 convictions 
and we have had 3 elections that have been overturned. Prior to 
the time that I became the secretary, we had not had an 
incident of occurrence that was reported, identified, 
investigated, and prosecuted.
    I brought a sheet, if you would like to have it I will be 
happy to share it with you, we have had 874 unique instances 
reported in our office since we have been there and all but 4 
have been fully taken care of in one way or the other. I have 
got a way to show you what we have done on that.
    I think it is important to know that we have a number of 
prosecutors in our State that are not really interested in 
advancing investigations into voter fraud because they think 
the penalties are too stiff. So the penalties that are outlined 
in the code section that you just identified, I don't know that 
they are really commensurate with what the crime may be.
    So I think there is a number of people who may be concerned 
about the implementation of that at any level.
    Mrs. Lesko. Thank you, Mr. Chairman, perhaps I had got 
misinformation. The information I got was on that particular 
section. It also included like misinformation like you would 
put out on Facebook or something like that, and it would 
criminalize it. So perhaps I am wrong, because that would be 
concerning to me. Thank you.
    Chairman Thompson. Thank you very much. Will the gentleman 
provide that----
    Mr. Merrill. Oh, yes----
    Chairman Thompson. Document for the--for the committee.
    Mr. Merrill. I can be--I can do so, sir.
    Chairman Thompson. Thank you very much. I yield 2 minutes 
to the gentlelady from California, Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman. I first want to 
thank everybody for being here. I have a bias here; I am from 
California. Thank you, Secretary Padilla, for everything you 
are doing. In 2016, several media reports claim that 21 States 
had been targeted or hacked. Was California one of them, and if 
so, what happened?
    Mr. Padilla. So California was not hacked, if you are 
talking about a hack or a specific type of breach. You know, 
the question brings to mind another valuable lesson that to 
think all secretaries have learned and local elections 
officials have learned in our partnership with DHS and others.
    We talk cybersecurity and we reference cyber hygiene 
earlier, but cyber vocabulary is also critical. When there is 
an incident, it is important to be specific and precise about 
what has or has not happened, right. We don't want to downplay 
incidents because that would be irresponsible for, you know, 
accountability to the public, but we also can't blow it up 
either.
    So, the stories that came out in 2016, about 21 States, 
from my understanding, California was on the list of States 
that were ``scanned'' by entities that trace back to agents of 
the Russian government. So what is scanning? You know, scanning 
has been described in lay terms as the equivalent of somebody 
in the neighborhood shaking doorknobs to see if the doors are 
locked, right.
    You are looking for vulnerabilities that scan in and of 
itself; it is not compromising a system--it is not flipping 
votes--it is not a theft of data. So, frankly, scanning is 
very, very common in this day and age, given the technology 
that we all depend on now, not just in the election space, you 
know, across industries. So that is a long way to answer your 
question. California was on that list, but we know what it was; 
we know what it wasn't, and our integrity of our missions are 
intact.
    Ms. Barragan. Thank you. I will yield back, given the short 
time.
    Chairman Thompson. Thank you very much. I am sure 
Congressman Cleaver appreciates it. You have 2 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. Mr. Merrill----
    Mr. Merrill. Yes, sir.
    Mr. Cleaver. Gave us a short answer, if you can. You kind-
of confused me. Were you--were you suggesting that there were a 
lot of--much more voter fraud in the State of Alabama, but you 
didn't--that was another attempt to prosecute because it was 
this--the penalties were too stiff?
    Mr. Merrill. Yes, sir. We have some; actually, I have two 
incidents that I could share with you just briefly. One, 119 
absentee ballot applications were mailed to one location and 
nobody lives in that home. In another jurisdiction, 109 
absentee ballot applications were mailed to the mayoral 
candidate's mother's home, and neither one of those had been 
prosecuted yet.
    Mr. Cleaver. Were there many--many more?
    Mr. Merrill. Sir?
    Mr. Cleaver. Were there many more of such cases?
    Mr. Merrill. Oh, yes sir. Yes, sir; we have them 
frequently. They are not just related to certain parts of our 
State either.
    Mr. Cleaver. No, that was just interesting, because most of 
the----
    Mr. Merrill. Yes, sir.
    Mr. Cleaver. Studies showed that we didn't have a lot of 
mass votes in----
    Mr. Merrill. Yes, sir. The main instances kind-of that we 
see are in the area of absentee balloting, not in walk-up, in-
person voting.
    Mr. Cleaver. OK. But my final question; I want you to tell 
me whether or not I am right. Our elections equal--we have 
8,000 voting jurisdictions--8,000. Forty-three States use 
electronic voting machines--and I go on to list a lot of 
different things that are different. So, you can't--I am having 
difficulty. I went to--somebody already tried to--you have--
when you do--you have to make things match.
    So, I can't fit it. If all these things were having--all 
these different States and territories are doing things 
differently, how can we all be equal? Anybody? Am I right or am 
I wrong? Am I right or wrong?
    Mr. Padilla. If your premise is, look, this is the United 
States of America, and if you are 18 years or older and a 
citizen with minimal exceptions, you have the right to vote, 
exercise that right vote without any--without any unnecessary 
obstacles, then it is, how we achieve those in each State?
    Do some States have easier ways to be a registered voter if 
you are eligible? Yes, some have better than others. Do some 
States offer more options for when, where, and how to cast a 
ballot? Unfortunately, yes; some States do better than others. 
My work in California is to try make California, you know, the 
leader of the pack when it comes to, yes, being secure, being 
as accessible and voter-friendly as possible.
    Mr. Cleaver. Thank you.
    Chairman Thompson. Thirty seconds for the gentleman from 
Alabama.
    Mr. Merrill. Yes, sir. Congressman, one of the things that 
I wanted to share was that, since January 19, 2015, we have 
registered 1,199,909 new voters; we now have 3,473,030 
registered voters.
    We have exceeded and surpassed any voter registration and 
voter participation records in the history of our State. In 
that period of time, we have done more per capita than any 
State in the union, to ensure that all of our eligible citizens 
are registered to vote and have an I.D.
    Chairman Thompson. Thank you very much. Thank you, 
gentleman from Missouri, for his question.
    Let me thank all of the witnesses for your expert 
testimony. We will probably have some additional questions for 
you--for you to respond back to us. I would like unanimous 
consent to--to the record, that final report on a Democratic 
Congressional Task Force*** on election security and article on 
voting participation. Without objection.
---------------------------------------------------------------------------
    *** The document has been retained in committee files.
---------------------------------------------------------------------------
    [The information follows:]
  Article, www.vox.com, ``Civil rights leaders fought to make voting 
          easier. An Alabama Republican didn't get the memo''
John Merrill thinks guaranteeing people the right to vote ``cheapens'' 
        the civil rights movement's fight to, well, vote.
By Victoria M. Massie, @vmmassie, Nov 3, 2016, 5:10pm EDT
    Alabama Secretary of State John Merrill says that automatically 
registering people to vote ``cheapens'' civil rights leaders' efforts 
to maximize people's rights to, well, vote, Slate reported.
    In an interview published Wednesday by Answering the Call, a voting 
rights initiative, Merrill was asked to explain why he opposes 
automatic voter registration, a move that could help fix America's 
paltry voter turnout rate.
    Merrill didn't waver. First he name-dropped ``civil rights 
pioneers'' like Dr. Martin Luther King Jr. and Rosa Parks, noted his 
friendship with Rep. John Lewis (D-GA), and touted the fact his 
daughter interned for African-American Congress member Terri Sewell (D-
AL). Then Merrill argued that granting people the right to vote 
``cheapens'' these people's work by rewarding folks who are ``too sorry 
to get up off of their rear to go register to vote'':

``These people fought--some of them were beaten, some of them were 
killed--because of their desire to ensure that everybody that wanted to 
had the right to register to vote and participate in the process. I'm 
not going to cheapen the work that they did. I'm not going to embarrass 
them by allowing somebody that's too sorry to get up off of their rear 
to go register to vote.''

    To make his point abundantly clear, Merrill compared automatic 
registration to ``giving [people] a trophy because they've played on 
the ball team.''
    For Merrill, automatic voter registration feeds into the taboo 
notion of entitlements, rewarding people with services when they didn't 
put in the initiative to earn them.
    There's just one problem: American citizens who are at least 18 
years old should be entitled to the right to vote if they meet the age 
and citizenship requirement.
    Rather, the major barrier standing between people and the polls 
tends to be policies trying to keep select groups far away, as civil 
rights leaders demonstrated half a century ago.
    Despite having the constitutional right to vote, African Americans 
in Southern States like Alabama faced insidious Jim Crow-era policies 
like poll taxes and literacy tests that were damn near impossible to 
pass. In 1965, a 25-year-old Lewis and other civil rights activists of 
the time were brutally beaten by Alabama State troopers for attempting 
to March from Selma to Montgomery for that right.
    The slew of voter ID laws passed to the fix nonexistent voter fraud 
that dubiously suppresses voters of color is one of the latest 21st-
century examples. Others include some States like Alabama denying 
felons and people with mental disabilities the right to cast a ballot.
    Historically, the right to vote has never been about effort. It's 
been about access, and is likely one of the reasons Lewis has been a 
fierce advocate for automatic voter registration--even if he's 
allegedly Merrill's pal.
    Merrill's dog-whistle politicking about ``entitlements'' doesn't 
change that.

    Chairman Thompson. I thank the witnesses for their valuable 
testimony and Members for their questions. The Members of the 
committee, as I indicated, may have additional questions for 
the witnesses, and we ask you respond expeditiously, in 
writing, to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 1:30 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

  Questions From Chairman Bennie G. Thompson for Christopher C. Krebs
    Question 1. You testified that disabling or removing wireless 
modems from voting systems is a best practice recognized by DHS. Has 
DHS communicated this best practice in writing to election 
administrators? Can DHS share any written material on this?
    Answer. Response was not received at the time of publication.
    Question 2a. You testified that all 13 States that currently use 
paperless voting systems as their primary voting equipment in at least 
one jurisdiction are on a path to transition to voter-verified paper 
ballots throughout their States.
    Please confirm this is accurate.
    Answer. Response was not received at the time of publication.
    Question 2b. Please provide an estimated time line (rough) for each 
State to complete the transition to paper ballots.
    Answer. Response was not received at the time of publication.
  Questions From Honorable Sheila Jackson Lee for Christopher C. Krebs
    Question 1. Are we taking a fail-safe approach to determining which 
election systems or processes are critical to the successful conduct of 
a public election?
    Answer. Response was not received at the time of publication.
    Question 2. Would you consider State-wide Centralized Voter 
Registration Databases a critical system to the administration and 
conduct of any public election?
    Answer. Response was not received at the time of publication.
    Question 3. What fail-safe measures are in place to assure that if 
the voter registration database is compromised and thereby make data 
records untrustworthy; or rendered unavailable for early voting or on 
election day the casting of ballots will continue?
    Answer. Response was not received at the time of publication.
    Question 4. How many States have plans in place to hold or continue 
an election should their voter registration databases become 
compromised?
    Answer. Response was not received at the time of publication.
    Question 5. How many States and jurisdictions within each State use 
electronic poll books?
    Answer. Response was not received at the time of publication.
    Question 6. Are there instances when electronic poll books have 
failed to operate as intended?
    Answer. Response was not received at the time of publication.
    Question 7. What recovery plan is in place should a polling 
location's electronic poll books fail or for periods of time not 
function?
    Answer. Response was not received at the time of publication.
    Question 8. How well does same-day voter registration during early 
voting and on election day create meet fail-safe objectives for the 
successful conduct of a public election?
    Answer. Response was not received at the time of publication.
    Question 9. Are you providing any guidance on security and wireless 
non-voting system technology?
    Answer. Response was not received at the time of publication.
    Question 10. Do election administrators plan for 100% voter 
participation during early voting or on election day? If not, why not?
    Answer. Response was not received at the time of publication.
    Question 11. Are there best practices that should be used to 
determine the number of ballots and ballot marking technology, or 
voting machine that should be provided to support voting?
    Answer. Response was not received at the time of publication.
    Question 12. Are there best practices to address when a natural or 
man-made event makes a polling location unavailable for voting?
    Answer. Response was not received at the time of publication.
    Question 13. How does allowing voters to vote at locations other 
than at a single voting location impact the ability of election 
services to serve voters in a county or State?
    Answer. Response was not received at the time of publication.
  Questions From Honorable James R. Langevin for Christopher C. Krebs
    Question 1a. How have you engaged local and State media outlets to 
ensure that unofficial vote reporting is protected from malicious 
interference?
    How many affiliates has CISA worked with?
    Answer. Response was not received at the time of publication.
    Question 1b. How have you coordinated defense or information 
sharing related to the defense of State and local media outlet 
networks?
    Answer. Response was not received at the time of publication.
    Question 1c. How have you coordinated dissemination of information 
regarding attempts to interfere with other aspects of elections?
    Answer. Response was not received at the time of publication.
    Question 2a. Have you observed any change in public confidence as a 
result of efforts to increase election security?
    How does DHS/CISA assess confidence in election integrity?
    Answer. Response was not received at the time of publication.
    Question 2b. What outcomes does DHS/CISA use to determine success 
in protecting elections?
    Answer. Response was not received at the time of publication.
    Question 3a. Does DHS have any outstanding requests for risk and 
vulnerability assessments from States or local election officials? Is 
there a wait for new assessments?
    Have States/localities been implementing the policies that DHS 
recommended based on these assessments?
    Answer. Response was not received at the time of publication.
    Question 3b. How often does DHS/CISA conduct reassessments of 
jurisdictions? How often does CISA recommend refreshing RVAs?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Dina Titus for Christopher C. Krebs
    Question 1. In my home State of Nevada there have been thousands of 
attempts by various actors to breach our voter registration database. 
Fortunately, our State and local election officials have managed to 
thwart every single one of these attacks. They have utilized Albert 
sensors to identify suspicious IP addresses and known malware 
signatures and alert the appropriate authorities. How important is it 
that each State deploy these Election-system sensors?
    Answer. Response was not received at the time of publication.
    Question 2. Acknowledging the importance of coordinating Federal, 
State, and local election security efforts, what kind of barriers exist 
that slow or prevent the Multi-State Information Sharing and Analysis 
Center from coordinating with local and State IT personnel to inform 
them about the types of attacks that occur and where they came from so 
local officials can better prepare for future attacks?
    Answer. Response was not received at the time of publication.
    Question 3. What sort of obstacles have you experienced when trying 
to share sensitive information about imminent threats with State and 
local election officials?
    Answer. Response was not received at the time of publication.
    Question 4. H.R. 1 aims to create channels for interagency 
collaboration by, among other things, requiring DHS, EAC, the 
intelligence community, the State Department, and other Federal 
partners to develop a comprehensive National strategy to protect our 
elections and our democratic institutions, perhaps through broad 
initiatives around media literacy or studying the effects of influence 
campaigns. Who is responsible for convening and coordinating 
interagency efforts to secure elections, and to what extent is there 
leadership from the White House?
    Answer. Response was not received at the time of publication.
   Questions From Honorable Yvette D. Clarke for Christopher C. Krebs
    Question 1. In November 2018, Senator Ron Wyden wrote to DHS, 
asking the agency to ``forensically examine paperless voting machines 
used in the November 6, 2018 general election for signs of tampering or 
other manipulation by foreign governments or other malicious actors.'' 
On December 18, 2018, DHS responded to Senator Wyden, stating that 
``under our existing authorities, DHS cannot mandate that States submit 
to comprehensive forensic examinations of their voting machines.'' But 
last week, the DOJ and DHS issued a public statement saying there was 
``no evidence to date that . . . a foreign government or foreign agent 
had a material impact on the integrity or security of election 
infrastructure or political/campaign infrastructure used in the 2018 
midterm election.'' If DHS didn't have the authority to examine 
paperless voting machines used in the November 2018 election for 
evidence of hacking, which is what you informed Senator Wyden in your 
letter, what is the basis for your public statement last week saying 
there is no evidence that foreign governments hacked our election 
infrastructure?
    Answer. Response was not received at the time of publication.
    Question 2. Last year, the FBI uncovered that a Russian oligarch, 
with close ties to President Putin, had acquired an ownership interest 
in a vendor which hosted State-wide election data for Maryland.\1\ 
Until the FBI alerted them, State election authorities were unaware of 
the vendor's ties to Russia. Even if no tampering occurred, this raises 
important questions about foreign ownership of firms providing 
election-related services. To the best of your knowledge, is the 
Federal Government undertaking any efforts, other than the CFIUS 
process, to assess potential existing foreign ownership of firms that 
produce voting machines or provide other election-related services? If 
so, please describe these efforts. If not, do you believe foreign 
actors may seek to invest in this sector with the intent of interfering 
in our elections?
---------------------------------------------------------------------------
    \1\ https://www.baltimoresun.com/news/maryland/politics/bs-md-
election-russia-20180713-story.html.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
  Questions From Honorable Michael T. McCaul for Christopher C. Krebs
    Question 1a. Foreign states, including Russia and other malicious 
actors have and will continue to attempt to interfere with U.S. 
elections. In fact, I encouraged, in a Classified space, both the Obama 
administration and the Trump administration to call out Russia for 
their targeted attacks on our Nation. Their activities have injected 
chaos and doubt into foundation of our democracy. An issue of this 
gravity requires Congress to act in a deliberate and bipartisan manner. 
Now, all eyes are on 2020.
    What do you see as the major vulnerabilities in our election 
security as we look to the future? How do we address these?
    Answer. Response was not received at the time of publication.
    Question 1b. Can you outline the major lessons learned and the 
steps your agency has taken to effectively provide Federal assistance 
to the local election level?
    Answer. Response was not received at the time of publication.
    Question 2a. Last Congress, my bill, the Cybersecurity and 
Infrastructure Security Agency Act, was signed into law to streamline 
National Protection and Program's Directorate's (NPPD) efforts to 
execute cybersecurity and critical infrastructure missions and 
establish it as the Cybersecurity and Infrastructure Agency (CISA).
    How has CISA been effective at combatting cyber threats? What are 
the major successes?
    Answer. Response was not received at the time of publication.
    Question 2b. What do you anticipate are the upcoming roadblocks and 
how can Congress be helpful?
    Answer. Response was not received at the time of publication.
      Questions From Chairman Bennie G. Thompson for Thomas Hicks
    Question 1a. In response to questioning from Congresswoman Clarke, 
you testified that it is possible to audit a Direct Recording 
Electronic (DRE) voting machine to determine if the system has been 
hacked. Yet that appears inconsistent with the findings of research 
performed by the National Institute of Standards and Technology (NIST) 
at the request of the EAC.
    Is there new research that suggests it is possible to audit DREs?
    Answer. All voting systems certified by the U.S. Election 
Assistance Commission (EAC) to meet the Voluntary Voting System 
Guidelines (VVSG) are required to have redundant memory. All voting 
systems, including Direct Recording Electronic (DRE) voting machines, 
are required to have two, separate sources for memory. A comparison 
audit of these two separate sources of memory, including a DRE's 
internal memory that stores voting results, could identify 
discrepancies, and thus reveal that a system had been compromised.
    With that stated, because both sources of memory for DREs without 
VVPATs are electronic, it is fathomable that a sophisticated attack 
could alter both sources of memory to make them identical and cause 
alterations to the data to be undetected. The EAC recognizes the 
possibility of this threat is real, which is why the VVSG 2.0 has 
Principles and Guidelines requiring software independence. At the 
moment, paper is the best way to audit a voting system, but all systems 
utilizing paper must comport with HAVA's mandate for all voters to be 
able to cast their ballot privately and independently.
    The EAC is not aware of new research to this point, however the 
Commission is aware that jurisdictions have in the past conducted 
parallel audits with DREs to ensure votes are being tallied accurately.
    Question 1b. What is the source of that information?
    Answer. Vendors have identified this process, and the EAC is aware 
that the University of Connecticut's Center for Voting Technology 
Research has numerous post-election audit reports that utilize such 
data.
    Question 1c. Should this new research override NIST's findings?
    Answer. No. This research should not be depicted as contrary to the 
findings of NIST. In order to meet the National standard set by the 
Voluntary Voting System Guidelines (VVSG), all tabulators, including 
DREs, are required to have redundant memory that can be independently 
verified in order to meet the National standard set by Voluntary Voting 
System Guidelines (VVSG). However, it is also feasible that such a 
system could be compromised via a significant attack that would alter 
both sources of electronic data. This is why the VVSG 2.0 recommends 
software independence. It is also why election offices customarily 
follow the principle known as ``Defense in Depth'' by building in 
multiple layers of security to prevent such an attack from happening, 
assess damage created by such an attack, and mitigate the fallout if a 
system was compromised.
    Question 2a. You testified that you had little concern regarding 
the risk of corruption of voting systems through the supply chain 
because of the EAC Testing and Certification program. But the EAC 
Testing and Certification program which lacks Full Formal Verification 
(FFV) or full source code review. Moreover, the EAC Testing and 
Certification Program does not evaluate voter-registration systems, e-
poll books, election night reporting systems, and other critical 
components that run elections.
    Can you elaborate on how the EAC Testing and Certification Program 
is capable of detecting supply chain corruption in voting systems 
without FFV?
    Answer. When the Help America Vote Act of 2002 established the U.S. 
Election Assistance Commission, it also created the EAC's Testing & 
Certification Program to certify, decertify, and recertify voting 
system hardware and software, as well as accredit test laboratories. 
The Testing & Certification Program has a very specific mandate that 
defines its work as helping to develop guidelines for, and certifying, 
voting equipment. This mandate does not include voter registration 
systems, e-poll books, and election night reporting systems.
    To the question of risk management in the supply chains of systems, 
the EAC test labs review the source code, hardware, and software 
components of all voting systems tested under the EAC's Testing and 
Certification Program. The EAC maintains an on-going Quality Monitoring 
Program to identify and correct issues in the field. Additional details 
on these programs are included below.
    The EAC's Testing and Certification Program conducts a full review 
of vendor-developed hardware, software, and source code for every 
system it certifies. Also required by the VVSG is a technical data 
package (TDP) that includes an approved parts list and/or the bill of 
materials documentation.
    After a voting system is certified, there is a process for on-going 
validation and verification through the Quality Monitoring Program. 
This is an audit and analysis of issues reported from the field, issues 
discovered by the vendors from their internal testing, and quality 
audits that are performed on the voting system manufacturers. Also, as 
manufacturers have hardware that reaches the end of its useful life, 
they are required to submit engineering change orders to update the 
approved parts list and/or bill of materials. In accordance with the 
system certification, these engineering change orders must be approved 
by the EAC before the vendor can implement the new parts into their 
manufacturing process.
    That being said, the EAC's Testing and Certification Program cannot 
mitigate all supply chain threats. As with all security, including 
cybersecurity, there is not one mechanism that can thwart all threats. 
This is why the election community should focus on building resiliency 
and security through the principle of ``Defense in Depth.''
    The EAC's Testing and Certification Program does, however, provide 
built-in layers of security for supporting the methodology of ``Defense 
in Depth'' for mitigating the supply chain threats for EAC-certified 
voting systems via the mechanisms previously described. The EAC also 
recommends and assists jurisdictions in working with Federal partners 
so they can benefit from the ``whole of Government'' approach to 
securing our Nation's election systems.
    For example, the EAC has played an instrumental role in providing 
opportunities for State and local election officials, as well as 
election vendors and other key stakeholders, to interact with 
Department of Homeland Security (DHS) officials following the 
designation of elections as part of the Nation's critical 
infrastructure. The Commission led the establishment of the Government 
Coordinating Council for the Election Infrastructure Subsector (GCC) 
and the Sector Coordinating Council (SCC). Both councils were 
functioning within 1 year of the critical infrastructure designation. 
OHS has said that the GCC was formed faster than any other similar 
critical infrastructure sector council to date.
    Since then, the GCC has launched an Information Sharing and 
Analysis Center (ISACs) that allows election officials to receive 
timely notifications of potential threats, real-time monitoring of 
malicious activity on their networks and access to cybersecurity 
experts. Such working groups are exemplary proof-points of how local, 
State, and Federal governments can work together toward the shared goal 
of protecting our Nation's election systems.
    Question 2b. Please explain how the EAC Testing and Certification 
Program is capable of detecting potential corruption by vendors 
servicing and programming systems that have already been certified.
    Answer. The EAC's Testing and Certification Program cannot mitigate 
all supply chain threats; not even for threats to the one system of the 
elections process it oversees, which is the voting systems. As with all 
security, including cybersecurity, there is not one mechanism that can 
thwart all threats, which is why election officials should focus on 
building resiliency and security through the principle of ``Defense in 
Depth.'' The EAC's Testing and Certification Program does, however, 
provide built-in layers of depth for mitigating the supply chain 
threats for EAC-certified voting system via the mechanisms detailed 
below.
    All voting systems tested under the EAC's Testing and Certification 
Program go through a full review of all vendor-developed source code. 
The software and hardware, as certified, has been validated and 
verified to be programmed for its intended use. Also required by the 
VVSG is a technical data package (TDP) that includes an approved parts 
list and/or the bill of materials documentation.
    Additionally, after a voting system is certified, there is a 
process for on-going validation and verification through the Quality 
Monitoring Program. This is an audit and analysis of issues reported 
from the field, issues discovered by the vendors from their internal 
testing, and quality audits that are performed on the voting system 
manufacturers. Also, as manufacturers have hardware that becomes end of 
life, they are required to submit engineering change orders to update 
the approved parts list and/or bill of materials. In accordance with 
the system certification, these engineering change orders must be 
approved by the EAC before the vendor can implement the new parts into 
their manufacturing process.
    Question 2c. Please explain how the EAC Testing and Certification 
program is capable of protecting voter-registration databases, election 
night reporting systems and e-poll books from supply chain corruption?
    Answer. These particular systems are outside of the scope of the 
EAC's Testing and Certification program as detailed in the Help America 
Vote Act. It should be noted that a number of States have independent 
certification programs for electronic poll books and provide their own 
certification testing requirements for e-poll books and voting systems. 
In addition, States and local election agencies have resources to 
protect voter registration databases and other technology, including 
servers. For example, voter registration databases are periodically 
audited by State or independent experts.
      Questions From Honorable Sheila Jackson Lee for Thomas Hicks
    Question 1. Are we taking a fail-safe approach to determining which 
election systems or processes are critical to the successful conduct of 
a public election?
    Answer. State and local election officials would likely tell you 
that each of their election systems and processes play a critical role 
in the administration of successful elections, which is why they invest 
time and resources into contingency planning and establishing practices 
that ensure eligible voters have the ability to successfully cast their 
ballot. For example, the availability of provisional ballots at the 
polls is the ultimate fail-safe step that election officials offer on 
Election Day to ensure that eligible voters impacted by unforeseen 
circumstances or issues are able to cast their ballots and have them 
counted. In addition, election officials often have contingency plans 
in place that include roving technicians who are able to quickly 
identify and resolve issues with voting equipment or provide 
replacement voting systems if there is a failure. Another example of 
State and local election leaders creating fail-safe processes is the 
usage of audits to verify election results and confirm that election 
systems functioned properly to produce an accurate result.
    Question 2. Would you consider State-wide Centralized Voter 
Registration Databases a critical system to the administration and 
conduct of any public election?
    Answer. Yes. Voter registration databases play a critical role in 
the administration of elections. State and local election leaders 
secure these systems by implementing controls to maintain 
confidentiality, integrity, and availability of the system and its 
data. Each election office has its own procedures and requirements for 
how these systems are managed, but the EAC does provide best practices 
regarding these systems.
    Question 3. What fail-safe measures are in place to assure that if 
the voter registration database is compromised and thereby make data 
records untrustworthy; or rendered unavailable for early voting or on 
election day the casting of ballots will continue?
    Answer. The availability of provisional ballots at the polling 
place is a key fail-safe measure to ensure that voters have the ability 
to participate in an election should voter registration databases not 
be available for any reason. In addition, jurisdictions frequently 
conduct a back-up of their voter registration database so, if a problem 
detected, the administrator is able to retrieve the back-ups to a 
specific date and time to review and began remediation if necessary.
    Question 4. How many States have plans in place to hold or continue 
an election should their voter registration databases become 
compromised?
    Answer. State and local election leaders across the Nation have 
contingency plans in place for events that could impact Election Day, 
including a compromised voter registration database. The availability 
of provisional ballots at the polls is a safeguard that ensures an 
election can still take place under these circumstances. In addition, 
election jurisdictions typically have a back-up of their voter 
registration list at the local level, and many election officials 
provide paper back-ups at polling places or election offices.
    Question 5. How many States and jurisdictions within each State use 
electronic poll books?
    Answer. According to the 2016 EAC's Election Administration and 
Voting Survey (EAVS), from 2012 to 2016, there was a significant 
increase in the use of electronic poll books Nation-wide. The number of 
in-person voters checked in with e-poll books more than doubled during 
this time span, increasing 110 percent from 19.7 million to 41.4. 
million voters. The EA VS also found that 32 States, the District of 
Columbia, and U.S. Virgin Islands reported using e-poll books in at 
least one jurisdiction in the 2016 election. Five States used e-poll 
books State-wide.
    Question 6. Are there instances when electronic poll books have 
failed to operate as intended?
    Answer. The EAC is aware of some specific instances reported in the 
media, but the Commission does not track such data related to 
electronic poll books. State and local election administrators are 
better positioned to provide detailed responses to this question.
    Question 7. What recovery plan is in place should a polling 
location's electronic poll books fail or for periods of time not 
function?
    Answer. Typically, as part of election officials' on-going 
contingency planning efforts, jurisdictions using electronic poll books 
prepare a paper back-up system in the event of an issue with the 
electronic poll books. Some jurisdictions may send the paper back-up to 
the polling place with the e-poll books, while others send them only if 
needed. The issuance of provisional ballots is one way that election 
officials ensure that voters have the ability to cast their ballot when 
electronic poll books fail. State and local election administrators 
develop and implement their own recovery plans and are better 
positioned to provide detailed responses to this question.
    Question 8. How well does same-day voter registration during early 
voting and on Election Day create meet fail-safe objectives for the 
successful conduct of a public election?
    Answer. Same-day voter registration is a policy choice made by the 
States. Its potential impact on the successful administration of an 
election is a question better posed to the election officials charged 
with carrying out elections.
    Question 9. Are you providing any guidance on security and wireless 
non-voting system technology?
    Answer. The EAC, often in conjunction with DHS, provides election 
officials training on election technology and security. In that 
training, the EAC highlights the best practice of disconnecting all 
portions of the voting system from the internet. Further, that training 
highlights best practices for securing systems that are networked, such 
as two-factor authentication, implementing integrity checks such as 
digital signatures and hashing, as well as the utilization of 
encryption.
    In addition, the EAC has issued best practices and checklists for 
securing networked systems, such as election night reporting systems, 
as well as how to protect data that is on network systems. These 
resources include the EAC's Checklist for Securing Voter Registration 
Data and other handbooks, playbooks, and best practices documents.
    Question 10. Do election administrators plan for 100 percent voter 
participation during early voting or on Election Day? If not, why not?
    Answer. Election administrators forecast turnout across advance 
voting sites, by mail, and at polling locations. This forecasted mix 
allows election administrators to ensure proper resources are applied. 
Overall, election administrators plan to ensure that each and every 
voter is provided the ability to cast a ballot. In addition, States 
have laws and regulations to guide the number of pre-printed ballots 
required for election day, and many States also have in-house or 
polling place ballot-on-demand systems to provide additional ballots as 
needed.
    Question 11. Are there best practices that should be used to 
determine the number of ballots and ballot-marking technology, or 
voting machine that should be provided to support voting?
    Answer. State election offices often create guidance and procedures 
for local jurisdictions to follow. The EAC provides tools that can be 
used as part of this process, most notably the EAC's Election 
Administration and Voting Survey interactive portal that allows 
jurisdictions to compare their own election data with that of 
jurisdictions with similar characteristics. In addition, there are on-
line tools available to assist election officials seeking to identify 
the number of voting systems and check-in stations they need to 
mitigate the chance of lines.
    Question 12. Are there best practices to address when a natural or 
man-made event makes a polling location unavailable for voting?
    Answer. Yes. Contingency planning is a key function of election 
administration. Election officials must prepare for the unexpected and 
have plans in place to conduct elections when disaster strikes. The EAC 
is committed to helping election officials prepare for everything from 
wildfires and hurricanes to terrorist threats and electricity outages. 
In fact, the Commission has launched a new initiative to more 
rigorously engage election officials who can help to shape the 
Commission's more robust suite of services and resources for election 
administrators who face natural or man-made disasters.
    Question 13. How does allowing voters to vote at locations other 
than at a single voting location impact the ability of election 
services to serve voters in a county or State?
    Answer. The impact of these procedures is different in the States 
and jurisdictions that may offer these services, and, therefore, the 
State election offices would be the best source to answer this 
question.
          Questions From Honorable Dina Titus for Thomas Hicks
    Question 1. In my home State of Nevada there have been thousands of 
attempts by various actors to breach our voter registration database. 
Fortunately, our State and local election officials have managed to 
thwart every single one of these attacks. They have utilized Albert 
sensors to identify suspicious IP addresses and known malware 
signatures and alert the appropriate authorities. How important is it 
that each State deploy these Election-system sensors?
    Answer. Every State and local election official has the duty to 
securely protect their election systems. Nevada's election officials 
have availed themselves to many security-focused services provided by 
the OHS. The EAC recommends that it all States use the Federal 
resources available--including those provided by the OHS and those that 
might be funded as part of the $380 million in HAVA Funds passed last 
year by Congress and administered by the EAC--to address election 
security threats.
    Question 2. Acknowledging the importance of coordinating Federal, 
State, and local election security efforts, what kind of barriers exist 
that slow or prevent the Multi-State Information Sharing and Analysis 
Center from coordinating with local and State IT personnel to inform 
them about the types of attacks that occur and where they came from so 
local officials can better prepare for future attacks?
    Answer. Because OHS manages the Election Infrastructure Information 
Sharing and Analysis Center (EI-ISAC), this question would best be 
answered by OHS.
    Question 3. What sort of obstacles have you experienced when trying 
to share sensitive information about imminent threats with State and 
local election officials?
    Answer. For the most part, the EAC has not experienced obstacles 
when charged with sharing information about imminent threats with State 
and local election officials. This is something the EAC did even ahead 
of the 2016 election and prior to DHS's decision to designation 
elections as part of the Nation's critical infrastructure. That said, 
the delay in issuance of security clearances for the EAC Commissioners 
remains an issue that hopefully will be resolved quickly to allow the 
EAC to receive and share sensitive information when necessary.
    Question 4. H.R. 1 aims to create channels for interagency 
collaboration by, among other things, requiring DHS, EAC, the 
intelligence community, the State Department, and other Federal 
partners to develop a comprehensive National strategy to protect our 
elections and our democratic institutions, perhaps through broad 
initiatives around media literacy or studying the effects of influence 
campaigns. Who is responsible for convening and coordinating 
interagency efforts to secure elections, and to what extent is there 
leadership from the White House?
    Answer. The DHS Government Coordinating Council (GCC), of which the 
EAC Commissioners are members, is the primary body to share information 
related to securing elections. Aside from that body, under the Help 
America Vote Act, the EAC is the only Federal agency authorized to 
assist election officials with all aspects of elections, including 
security.
       Question From Honorable Yvette D. Clarke for Thomas Hicks
    Question. Last year, the FBI uncovered that a Russian oligarch, 
with close ties to President Putin, had acquired an ownership interest 
in a vendor which hosted State-wide election data for Maryland. Until 
the FBI alerted them, State election authorities were unaware of the 
vendor's ties to Russia. Even if no tampering occurred, this raises 
important questions about foreign ownership of firms providing 
election-related services. To the best of your knowledge, is the 
Federal Government undertaking any efforts, other than the CFIUS 
process, to assess potential existing foreign ownership of firms that 
produce voting machines or provide other election-related services? If 
so, please describe these efforts. If not, do you believe foreign 
actors may seek to invest in this sector with the intent of interfering 
in our elections?
    Answer. The EAC agrees that the question of foreign ownership is an 
important one. As such, foreign interference in elections should always 
be treated as a credible threat. That's why the Commission's Testing 
and Certification Program provides built-in layers of security and 
quality assurance on voting system manufacturers, including a 
registration process that requires disclosure of ownership and on-going 
quality monitoring audits. Since the EAC cannot mitigate all threats 
from its registered voting system manufacturers, it recommends that 
election officials focus on building resiliency and security through 
the principle of ``Defense in Depth'' and by taking advantage of 
resources offered by Federal partners.
    As a clearinghouse of information on best practices in election 
administration, the EAC has also provided officials with real-life 
examples of how to mitigate threats potentially posed by foreign 
ownership. For example, the EAC has posted security language from a 
Request for Proposal requiring voting equipment vendors, and their 
parent and holding companies, to be based in the United States. Our 
office, in conjunction with the Department of Homeland Security (DHS), 
has also offered election officials training on election technology and 
security, including best practices for contracting and the selection of 
vendors.
      Questions From Honorable Michael T. McCaul for Thomas Hicks
    Question 1. Voting machine challenges remain a chronic problem. How 
can local officials who are the center of gravity for running and 
securing elections ensure electric voting machines are secure?
    Answer. The goal of every election official is to ensure not only 
voting machines, but the entire election system, is secure. Security 
has always been at the heart of what election officials do. Each State 
and jurisdiction has measures in place to ensure security in all phases 
of the election process. Every jurisdiction is different. This is one 
of the great strengths of our election system--that there is no one 
central point of access that could render the system vulnerable to a 
massive attack.
    Since the EAC's inception, our HAVA-mandated Testing & 
Certification Program has been a critical first step in the process of 
maintaining the reliability and security of the voting systems used in 
our Nation's elections. The Commission also produces guidelines and 
checklists, posts Requests for Proposals, elevates best practices and 
administers an IT Management course to help election officials take a 
holistic approach to securing their election systems. Through our 
partnership with the National Institute of Standards and Technology 
(NIST), the EAC has also maintained the Voluntary Voting System 
Guidelines (VVSG), which sets the National standard for voting 
equipment around the country.
    However, as stated above, the EAC is not the only security solution 
for election officials. As secure voting systems must have many layers 
of security and resiliency built into every component, election 
officials must also have a ``Defense in Depth'' in terms of 
partnerships and resources they can draw from to secure their systems.
    Question 2. What incentives are in place for election equipment 
companies to improve their security?
    Answer. The best incentive for election equipment companies to 
improve security is in response to a requirement by their customers, 
State and local election officials who administer elections. The EAC 
produces guidelines and checklists, posts on-line sample Requests for 
Proposals, elevates best practices, and administers an IT management 
course to help election officials take a holistic approach to securing 
their election systems, including making sure best practices are 
required of their contractors and vendors in addition to their own 
election staff.
    Another incentive for election equipment vendors is the EAC's 
Testing and Certification Program. In order for a voting system vendor 
to have the ability to submit a voting system to be tested and 
certified by the EAC, it must first become a registered manufacturer. 
This requires disclosure of ownership, as well as on-going quality 
monitoring audits. The Testing and Certification Program also oversees 
the Voluntary Voting System Guidelines (VVSG), which the EAC maintains 
with our partners at NIST. The VVSG are a set of standards against 
which voting systems can be tested to determine if the systems meet 
those standards. Some factors examined under these tests include 
functionality, accessibility, accuracy, auditability, and security 
capabilities. These principles, and the best practices disseminated as 
part of the EAC's Clearinghouse function help set and maintain the 
standard for voting equipment around the country.
      Questions From Honorable Sheila Jackson Lee for Alex Padilla
    Question 1. Are we taking a fail-safe approach to determining which 
election systems or processes are critical to the successful conduct of 
a public election?
    Answer. Response was not received at the time of publication.
    Question 2. Would you consider State-wide Centralized Voter 
Registration Databases a critical system to the administration and 
conduct of any public election?
    Answer. Response was not received at the time of publication.
    Question 3. What fail-safe measures are in place to assure that if 
the voter registration database is compromised and thereby make data 
records untrustworthy; or rendered unavailable for early voting or on 
election day the casting of ballots will continue?
    Answer. Response was not received at the time of publication.
    Question 4. How many States have plans in place to hold or continue 
an election should their voter registration databases become 
compromised?
    Answer. Response was not received at the time of publication.
    Question 5. How many States and jurisdictions within each State use 
electronic poll books?
    Answer. Response was not received at the time of publication.
    Question 6. Are there instances when electronic poll books have 
failed to operate as intended?
    Answer. Response was not received at the time of publication.
    Question 7. What recovery plan is in place should a polling 
location's electronic poll books fail or for periods of time not 
function?
    Answer. Response was not received at the time of publication.
    Question 8. How well does same-day voter registration during early 
voting and on election day create meet fail-safe objectives for the 
successful conduct of a public election?
    Answer. Response was not received at the time of publication.
    Question 9. Are you providing any guidance on security and wireless 
non-voting system technology?
    Answer. Response was not received at the time of publication.
    Question 10. Do election administrators plan for 100 percent voter 
participation during early voting or on election day? If not, why not?
    Answer. Response was not received at the time of publication.
    Question 11. Are there best practices that should be used to 
determine the number of ballots and ballot marking technology, or 
voting machine that should be provided to support voting?
    Answer. Response was not received at the time of publication.
    Question 12. Are there best practices to address when a natural or 
man-made event makes a polling location unavailable for voting?
    Answer. Response was not received at the time of publication.
    Question 13. How does allowing voters to vote at locations other 
than at a single voting location impact the ability of election 
services to serve voters in a county or State?
    Answer. Response was not received at the time of publication.
      Questions From Honorable James R. Langevin for Alex Padilla
    Question 1. Our system is only as strong as its weakest link, and 
we need to ensure everyone has this ``cyber hygiene'' knowledge. Have 
you found that there's a general lack of knowledge of security 
vulnerabilities and best practices at the staff level?
    Answer. Response was not received at the time of publication.
    Question 2a. Have the trainings you've conducted for staff been 
productive?
    Answer. Response was not received at the time of publication.
    Question 2b. What are some lessons learned from these trainings?
    Answer. Response was not received at the time of publication.
    Question 3. The risk and vulnerability assessments offered by DHS 
can be extremely valuable for States and localities. Have you found 
these assessments for States and local election officials to be useful 
as you work to secure your election systems, and have you implemented 
DHS's recommendations?
    Answer. Response was not received at the time of publication.
    Question 4. Do you have the resources you need to implement the 
recommendations, and if not, what more do you need to do so?
    Answer. Response was not received at the time of publication.
          Question From Honorable Dina Titus for Alex Padilla
    Question. When speaking with State and local election officials in 
Nevada, I have heard that while urban areas like Las Vegas may have the 
IT workforce available to recruit individuals to implement new 
cybersecurity measures like Albert sensors, rural areas have been 
struggling to find trained personnel. Have you experienced this 
shortage in other parts of the country, and do you believe further 
investment in STEM education is necessary to effectively mitigate this 
skills gap and secure our most vulnerable election sites?
    Answer. Response was not received at the time of publication.
       Questions From Honorable Yvette D. Clarke for Alex Padilla
    Question 1a. Last year, the FBI uncovered that a Russian oligarch, 
with close ties to President Putin, had acquired an ownership interest 
in a vendor which hosted State-wide election data for Maryland.\1\ 
Until the FBI alerted them, State election authorities were unaware of 
the vendor's ties to Russia. Even if no tampering occurred, this raises 
important questions about foreign ownership of firms providing 
election-related services.
---------------------------------------------------------------------------
    \1\ https://www.baltimoresun.com/news/maryland/politics/bs-md-
election-russia-20180713-story.html.
---------------------------------------------------------------------------
    To the best of your knowledge, does your State have any election-
related contracts with vendors backed by Russian or Chinese investors?
    Answer. Response was not received at the time of publication.
    Question 1b. What measures, if any, does your State undertake to 
assess foreign ownership of election vendors prior to signing contracts 
with them?
    Answer. Response was not received at the time of publication.
       Question From Honorable Michael T. McCaul for Alex Padilla
    Question. Foreign states, including Russia and other malicious 
actors have and will continue to attempt to interfere with U.S. 
elections. In fact, I encouraged, in a Classified space, both the Obama 
administration and the Trump administration to call out Russia for 
their targeted attacks on our Nation. Their activities have injected 
chaos and doubt into foundation of our democracy. An issue of this 
gravity requires Congress to act in a deliberate and bipartisan manner. 
Now, all eyes are on 2020. How has the cooperation with DHS and 
Director Krebs strengthened California's election security?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Sheila Jackson Lee for Noah Praetz
    Question 1. Are we taking a fail-safe approach to determining which 
election systems or processes are critical to the successful conduct of 
a public election?
    Answer. Most election systems and processes are managed at the 
local level and therefore the fail-safe approach is often determined 
and implemented locally, though often State-wide guidance is provided. 
Election officials do try and ensure business continuity and therefore 
they do build in redundancies to many processes. However, there are 
large variations in the degree to which election officials are able to 
identify critical path systems, prioritize efforts, and build in 
sustainable redundancies.
    Prioritizing the most critical systems is incredibly important. 
Most foundationally people need to be able to vote and administrators 
need to be able to count those votes accurately. Voter Registration 
System and Voting Systems are therefore the two most critical systems, 
without which elections could not be run. However, within those two 
umbrella systems, and around the edges, election officials rely on a 
variety of other system to aid in the seamless efficient administration 
of elections. Successful attacks on any of those systems can have a 
detrimental effect on the voter experience--and therefore in their 
level of trust. Some of these others connected systems that election 
officials rely upon to deliver expected services include:
  <bullet> Voting Systems for casting and counting votes, as noted 
        above
  <bullet> Voter Registration Systems for managing the list of voters 
        and what they are--entitled to vote upon, as noted above
  <bullet> Election Management Systems for handling data necessary to 
        facilitate the two above and to facilitate the various other 
        duties
  <bullet> Electronic Pollbook Systems
  <bullet> Ballot Printing Systems
  <bullet> Ballot Envelope Scanner
  <bullet> Election Day Command Centers
  <bullet> Election Information Websites
  <bullet> Election Service Websites--registration--ballot requests w/ 
        or without marking--sample ballots
  <bullet> Election Night Reporting Websites
  <bullet> Election Auditing Tools
  <bullet> Other miscellaneous tools.
    Question 2. Would you consider State-wide Centralized Voter 
Registration Databases a critical system to the administration and 
conduct of any public election?
    Answer. Yes, I consider a State-wide voter registration database to 
be a critical system to the administration of elections. However, the 
particular level of criticality can vary depending upon whether the 
State has a centralized singular top-down voter database construction, 
or a diffuse, bottom-up construction. In Illinois the system was 
considered ``bottom-up'' meaning each county had their own primary 
database.
    Question 3. What fail-safe measures are in place to assure that if 
the voter registration database is compromised and thereby make data 
records untrustworthy; or rendered unavailable for early voting or on 
election day the casting of ballots will continue?
    Answer. One fail-safe operation available Nation-wide is the use of 
provisional ballots that can be counted after the election in the event 
voter data in the over registration database is not 100% accurate at 
point of service. Additionally, some States, like Illinois, offer same-
day registration (SDR) options. SDR as a service offering and fail-safe 
process also offers a significant amount of resiliency. There are 
policy decisions that can impact business continuity when the software 
is not operating as expected. However, there is wide latitude and 
variance in how these fail-safe programs are managed and 
consequentially in how impactful such a major event would be. For 
example, in Cook County we implemented a registration process that was 
only marginally longer than a normal check-in process and believed we 
could have managed a significant data problem without equally 
significant impacts on lines and voter expectations. However, to do so 
we relied on electronic pollbooks (e-pollbooks). Were the e-pollbooks 
rendered inoperable entirely, the tertiary paper-based backup would 
have had a significant negative impact on the amount of time voters 
would have had to wait in line to check-in.
    Question 4. How many States have plans in place to hold or continue 
an election should their voter registration databases become 
compromised?
    Answer. I do not know how many places have a specific detailed plan 
for this type of occurrence. But every State and local election 
official knows how to administer provisional ballots and many times in 
large numbers. Whether most are outfitted for wholesale failure of the 
primary voter registration system is unlikely. In Cook County we could 
have likely handled a wholesale data failure given our use of 
electronic poll books and streamlined registration process. However, 
should we have had to revert to our back-up paper provisional and 
registration system there would have been significant service impacts.
    Question 5. How many States and jurisdictions within each State use 
electronic poll books?
    Answer. I do not know Nation-wide. In Illinois there are between 20 
and 30 election jurisdictions that have electronic poll books, 
including all counties with over 100,000 voters. This accounts for over 
83% of the State's registered voters.
    Question 6. Are there instances when electronic poll books have 
failed to operate as intended?
    Answer. I'm sure there are many cases of them not operating as 
expected or intended. They are computers operated by humans. And while 
the root cause most often comes back to user issues, the effect on a 
voter is the same. We certainly had sporadic episodes of having to 
revert to our back-up systems and even our paper registration books. 
This occurred in far fewer than 1 percent of our precincts and the 
issues was resolved at some point during the day in almost every case; 
the digital services and data became reliable once again.
    Question 7. What recovery plan is in place should a polling 
location's electronic poll books fail or for periods of time not 
function?
    Answer. Recovery plans are different everywhere. In suburban Cook 
County we had a number of back-ups. First, if the specific primary e-
poll book software was inoperable, but the device worked, we utilized a 
redundant digital file of voters. We were able to do this because we 
capture actual signatures for every voter on paper and kept a full 
paper record. If the device failed entirely or workers felt most 
comfortable with paper back-ups we had a printed version of the poll 
book for emergency use. And finally, there was a process for Election 
Day Registration or Provisional Voting which guarantee all voters cast 
a ballot.
    Question 8. How well does same-day voter registration during early 
voting and on election day create meet fail-safe objectives for the 
successful conduct of a public election?
    Answer. Same-day voter registration relieved a tremendous amount of 
pressure in Cook County on election day and during early voting. It 
allowed for instant correction of operational voter registration 
mistakes (things like typos, and jr/sr problems, which always occur at 
some small rate) and provided a large fail-safe process for malicious 
activities.
    Question 9. Are you providing any guidance on security and wireless 
non-voting system technology?
    Answer. Cook County issued no guidance to other election officials 
other than the white paper that was attached to the testimony I 
delivered. It did not include a prohibition on wireless. In fact, Cook 
County used wireless technology in different contexts. While there was 
increased marginal risk Cook County accepted it because of the 
significant operational & voter list maintenance advantages. Ultimately 
the team believe that it had the ability to mitigate the potential 
security consequences through back up plans and solid audits.
    The e-poll books communicated wirelessly with the central servers. 
Aside from embedded security like encryption, because Cook County had 
same-day registration, the team believed that the downside risk 
increase due to this communication method was covered for, and 
therefore Cook chose to allow wireless communications between e-
pollbooks and the central office.
    Cook County also transmitted encrypted unofficial election results 
from the precincts. However, before publishing those results Cook 
County validated that the results were not being systematically altered 
in any way during the transmission process. And before certifying the 
official results Cook County validated that the transmitted results 
matched the precinct printed results 100% of the time. In an 
environment where there are audits and auditable materials, the level 
of acceptable risk changes. It was the team's judgment that the 
decision to utilize technology to solve some operational and trust 
problems was acceptable even if they increased risk marginally to other 
areas. But it was only acceptable because Cook County believed they 
would find and be able to correct exploitation of those risk areas.
    Question 10. Do election administrators plan for 100% voter 
participation during early voting or on election day? If not, why not?
    Answer. In Cook County voters voted early on touch screens with 
audit trails and Cook County could accommodate 100% turnout, 
technically. However, Cook understood that they only had to outfit 
themselves for around a 30% voting in that early voting time period. 
With respect to printing paper ballots and resourcing with machines and 
staff, some officials do plan for complete turnout. Others do not. In 
Illinois officials are technically required to print ballots for 110 
percent of the registered voters on election day. Many don't however, 
because they subtract the number of people using vote by mail and early 
voting, and they also rely on historical numbers as a valid offset. 
Finally, the ability to vote people on the ADA touch-screen devises 
offers some bandwith protection if turnout is full. Paper ballots are 
not cheap and in odd-year local elections or in even-year primary 
elections, with an expected turnout of maybe 30 percent, it has 
historically not been viewed as imprudent to try to do some surgical 
targeting of ballot printing numbers.
    Question 11. Are there best practices that should be used to 
determine the number of ballots and ballot-marking technology, or 
voting machine that should be provided to support voting?
    Answer. Yes. The best practice is to guarantee you can meet the 
highest foreseeable demand at any location during any election. There 
are available wait time calculators to maximize the resource 
allocations. The Presidential Commission on Election Administration 
collected and published these resources.
    Question 12. Are there best practices to address when a natural or 
man-made event makes a polling location unavailable for voting?
    Answer. The Election Assistance Commission (EAC) provides some 
clearinghouse information in this area. More would be valuable. And I 
believe it is an upcoming effort of the agency. These are problems we 
have been dealing with since the beginning of the republic. And taking 
``Super Storm Sandy'' as an example it is evident that election 
officials have been exceedingly resourceful during this type of event.
    Question 13. How does allowing voters to vote at locations other 
than at a single voting location impact the ability of election 
services to serve voters in a county or State?
    Answer. Increasing voting locations opportunities increases the 
inherent resiliency of a system by distributing the available access 
points such that there is no single point of failure that would 
absolutely disenfranchise any one individual. But there are certainly 
some voter costs associated with travelling further than expected to 
vote on election day. Its also important to note that there are 
marginal tradeoffs with changing the voting model away from precincts. 
Some advocates and election officials believe that strong local 
oversight at the precinct level provides the best election day 
assurance against nefarious behavior by the very rare but committed bad 
acting campaign or voter. Further, some security activists believe they 
have the best chance of validating data and monitoring voting behavior 
when elections are managed in digestible chunks, like in the precinct 
unit.
       Questions From Honorable James R. Langevin for Noah Praetz
    Question 1. Our system is only as strong as its weakest link, and 
we need to ensure everyone has this ``cyber hygiene'' knowledge. Have 
you found that there's a general lack of knowledge of security 
vulnerabilities and best practices at the staff level?
    Answer. In the past 2 years the overwhelming majority of the 
profession has grown to fully accept the premise that we rely on 
technologies and people that are inherently vulnerable. This has been a 
sea change in our industry. However, there remains a tremendous 
disparity in the degree to which election officials and their staff 
will, or can, make the changes necessary to increase their security 
posture to the highest levels. While there remains plenty to learn, the 
biggest issue will always remain the operationalization of best 
practices.
    Question 2. The risk and vulnerability assessments offered by DHS 
can be extremely valuable for States and localities. Have you found 
these assessments for States and local election officials to be useful 
as you work to secure your election systems, and have you implemented 
DHS's recommendations?
    Answer. The Risk and Vulnerability assessment conducted by DHS at 
Cook County was tremendously valuable. Though Cook took the security 
issue seriously for a long time we were still very surprised by what 
committed, skilled, security tradespeople were able to accomplish on 
the networks. The findings set the table for years of modernization and 
transformation. It is critical to note that even with their findings, 
Cook County was forced to layer the optimal situation on top of the 
election calendar, resource constraints, probability of a successful 
attack, and the consequences/risks of operational disruption due to 
change and regression testing oversites. There are many risks, and 
election administration is a matter of risk management, cyber and 
otherwise.
    Question 3. Do you have the resources you need to implement the 
recommendations, and if not, what more do you need to do so?
    Answer. There were certainly resource deficiencies in Cook County. 
Those deficiencies are worse almost everywhere else. The demand is not 
just for modern defensible technology, though that is in short supply. 
There is a dearth in human skill necessary to operationalize 
recommendations. Cook County long argued that every election official 
should have access to an Election Infrastructure Security Officer. For 
giant counties like Cook, they could hire their own. But that would 
cost nearly a billion dollars a year to replicate Nation-wide--an 
impossible and unnecessary investment. A huge security leap could be 
accomplished by providing the same single human resource across 
multiple local election official agencies. In Illinois this was handled 
by a team of ``cyber navigators'' who have essentially adopted a dozen 
counties and are helping them mature their election security. The 
navigators are helping them operationalize the recommendations, not 
just form DHS, but also from CIS and Belfer. They are helping them 
procure free services and manage vendors. The key is to do the basics 
now and utilize the best available shared resources and free resources 
from the private and public sector.
           Question From Honorable Dina Titus for Noah Praetz
    Question. When speaking with State and local election officials in 
Nevada, I have heard that while urban areas like Las Vegas may have the 
IT workforce available to recruit individuals to implement new 
cybersecurity measures like Albert sensors, rural areas have been 
struggling to find trained personnel. Have you experienced this 
shortage in other parts of the country, and do you believe further 
investment in STEM education is necessary to effectively mitigate this 
skills gap and secure our most vulnerable election sites?
    Answer. There is no question that there is a skilled professional 
gap between the workforce needed and that available. This runs not 
simply through elections Nation-wide, but through the all sectors of 
country. There are millions of jobs in the field unfiled because the 
workers are not yet available. The demand will continue to grow. And 
the supply must grow to meet the demand. Given that the cyber risk is 
top of list from a National security perspective, it would seem 
appropriate to throw everything including the kitchen sink at it.
       Questions From Honorable Michael T. McCaul for Noah Praetz
    Question 1a. Mr. Praetz, I share your assessment that we must 
expect the attackers' methods aimed at our election system will evolve. 
You described the large role that local officials play in running and 
securing elections and the critical public partnership.
    How can the Federal Government best support these efforts without 
the all-too-common Federal overreach?
    Answer. Overly proscribing tactics and specific actions to be taken 
can create overreach or the perception thereof; and can lock in actions 
that won't likely remain necessary or valuable over time. However, the 
Federal Government could provide investments in the area to the States 
and local election officials while simultaneously demanding some set of 
measurable progress to prove the investment is worthy of the taxpayers' 
sacrifice. I laid out my navigator program support. The Federal 
Government could invest in such a program without proscribing how the 
States do it--the model can be different everywhere--and the laboratory 
effects of those differences highly valuable overtime. However, there 
are some areas where prescription is more important, particularly 
around ballot audits. Some level of hand-auditing seems necessary to 
prove up that the machines are reading them correctly. That's not to 
exclude additional audits that may be superior to a small hand-counted 
audit in a vacuum.
    Question 1b. How will Federal mandates from Washington address the 
problems you outlined and not just add more bureaucracy?
    Answer. A program initiated by the Federal Government which aims to 
support the protection of the critical infrastructures is necessary. As 
you rightly note, finding the right balance is critical. Investing in 
principles is important. My top three principles are (1), sustained, 
skilled human partnerships with local election officials; (2), 
investment in technology that is easier to defend and provides the 
services voter expect; (3), investments in audits that can prove 
conclusively that trusted and true results are attainable even in the 
event of software failure. Providing some administrative autonomy to 
the States and local election officials in satisfying the principles 
can help those Government bodies own the principles and the management 
of the project. Retaining some requirements and measurements ensures 
that the States are accountable for the Federal tax investment.
       Questions from Honorable Sheila Jackson Lee for Jake Braun
    Question 1. Are we taking a fail-safe approach to determining which 
election systems or processes are critical to the successful conduct of 
a public election?
    Answer. No.
    Question 2. Would you consider State-wide Centralized Voter 
Registration Databases a critical system to the administration and 
conduct of any public election?
    Answer. Yes. It is also important to note that the local 
jurisdictions' voter registration databases are nearly as important as 
those at the State level.
    Question 3. What fail-safe measures are in place to assure that if 
the voter registration database is compromised and thereby make data 
records untrustworthy; or rendered unavailable for early voting or on 
election day the casting of ballots will continue?
    Answer. To my knowledge, there are no fail-safe technology measures 
to accomplish this. Many election officials regularly back up their 
systems and/or use an auditing regime to increase the likelihood that 
they will be able to detect an attack and restore data that were 
deleted or changed. However these procedures are not foolproof and 
their implementation at the local level is just as important as at the 
State level, yet far from uniform. That being said, same-day voter 
registration would likely be a sound defense against this attack.
    Question 4. How many States have plans in place to hold or continue 
an election should their voter registration databases become 
compromised?
    Answer. I do not know. However, local laws are, in general, unequal 
to the threat State and locals are facing.
    Question 5. How many States and jurisdictions within each State use 
electronic poll books?
    Answer. According to the Brennan Center for Justice, at least 34 
States plus Washington, DC used electronic pollbooks as of 2017.\1\ 
While it is is possible that some of those States have chosen to 
discontinue their use due to the 2018 DEF CON report, our preliminary 
research suggests the opposite. With updated information from State 
action taken over the last 2 years, there are now at least 41 States 
that have implemented the use of electronic pollbooks, conducted a 
pilot program for their use, or approved funds to purchase them for 
future use. There is no up-to-date accounting for how many 
jurisdictions within each of those States uses electronic pollbooks, as 
of 2018. The Brennan Center reports that 5 of the 34 States using 
electronic pollbooks in 2017 were using them State-wide.
---------------------------------------------------------------------------
    \1\ ``VRM in the States: Electronic Poll-books.'' Brennan Center 
for Justice, February 6, 2017. Accessed March 14, 2019. 
www.brennancenter.org/analysis/vrm-states-electronic-poll-books.
---------------------------------------------------------------------------
    Question 6. Are there instances when electronic poll books have 
failed to operate as intended?
    Answer. Yes. In our research at DEF CON, untrained hackers (with no 
specialized skills or previous access to the machines) found that such 
devices are vulnerable to hacks via wireless networks, bluetooth, or 
cellular connections. These vulnerabilities give hackers the ability to 
compromise such connections and intercept communications between the 
jurisdiction's main database and a cloud backup service, such as Amazon 
Web Service (AWS). If attackers can gain access to this cloud backup, 
they can view the database and potentially control functions along the 
line of communication. As a result, a single compromised connection in 
a single polling place could result in unrestricted access to the 
entire jurisdiction's voter registration database--thereby compromising 
names, birth dates, addresses, social security numbers, driver's 
license numbers, addresses, and voting history linked with the 
individual's signature. In 2017, just such a security lapse was 
discovered in Illinois when a cybersecurity analyst discovered a 
database containing sensitive information for more than 1.8 million 
Illinois voters that was downloadable from a publicly-available AWS 
storage site controlled by ES&S, one of the major election equipment 
vendors in the United States.\2\
---------------------------------------------------------------------------
    \2\ O'Sullivan, Dan. ``The Chicago Way: An Electronic Voting Firm 
Exposes 1.8M Chicagoans,'' Upguard (blog), December 13, 2018, https://
www.upguard.com/breaches/cloud-leak-chicago-voters.
---------------------------------------------------------------------------
    In addition, software vulnerabilities have been discovered by DEF 
CON researchers in a line of Diebold electronic poll books, ExpressPoll 
5000, which was purchased and is currently operated by ES&S. 
Investigators at DEF CON discovered that not only were administrator 
and root passwords to the pollbook's system stored without encryption, 
but they could directly access and modify election parameters using a 
free, widely available program called SQL Lite.\3\
---------------------------------------------------------------------------
    \3\ University of Chicago Harris Cyber Policy Initiative. DEF CON 
25 Voting Machine Hacking Village: Report on Cyber Vulnerabilities in 
U.S. Election Equipment, Databases, and Infrastructure. Chicago: The 
University of Chicago Harris Cyber Policy Initiative, 2017. Accessed 
February 26, 2019. https://www.defcon.org/images/defcon-26/
DEF%20CON%2026%20voting%20vil- lage%20report.pdf, The University of 
Chicago Harris Cyber Policy Initiative. DEF CON 26 Voting Village: 
Report on Cyber Vulnerabilities in U.S. Election Equipment, Databases, 
and Infrastructure. Chicago: The University of Chicago Harris Cyber 
Policy Initiative, 2018. Accessed February 26, 2019. https://
www.defcon.org/images/defcon-26/DEF%20CON%2026%20- 
voting%20village%20report.pdf.
---------------------------------------------------------------------------
    The biggest concern with compromising these devices is not just 
corrupting data but also the multi-hour long lines for Election Day and 
early voting it could cause as confused poll workers try to sort out 
who can vote and who can't. These lines would further add to a sense 
that the system doesn't operate properly or is ``rigged'' against the 
voter's preferred candidate.
    Question 7. What recovery plan is in place should a polling 
location's electronic poll books fail or for periods of time not 
function?
    Answer. To my knowledge, such recovery plans vary dramatically 
across jurisdictions. In previous elections, we advocated strongly to 
have paper-based back-up poll books kept on-site in case there was a 
problem with the machines. However, we often met strong resistance in 
adopting even this simple fix.
    Question 8. How well does same-day voter registration during early 
voting and on election day create meet fail-safe objectives for the 
successful conduct of a public election?
    Answer. Same-day voter registration may be the only nearly fail-
safe option available today for mitigating voter registration database 
and e-poll book attacks.
    Question 9. Are you providing any guidance on security and wireless 
non-voting system technology?
    Answer. I am sorry, I do not understand the question.
    Question 10. Do election administrators plan for 100% voter 
participation during early voting or on election day? If not, why not?
    Answer. No. Election administrators use several methods to predict 
voter turnout, including looking at past voter history; consulting 
turnout tables, which calculate a probability that an individual will 
turn out to vote, based on her age and previous voting history; and 
building regression models.\4\
---------------------------------------------------------------------------
    \4\ Malchow, Hal. ``Predicting Turnout in a Presidential 
Election.'' Campaigns & Elections 25 (2004): 38-40.
---------------------------------------------------------------------------
    Question 11. Are there best practices that should be used to 
determine the number of ballots and ballot marking technology, or 
voting machine that should be provided to support voting?
    Answer. Yes. There is a tool maintained by MIT (here) that can help 
an election administrator determine the optimal assets needed for a 
precinct to administer an election.
    Question 12. Are there best practices to address when a natural or 
man-made event makes a polling location unavailable for voting?
    Answer. Not to my knowledge. However, in past elections we 
encouraged election administrators to treat as an ``emergency'' any 
polling place with a line over 30 minutes long.
    Question 13. How does allowing voters to vote at locations other 
than at a single voting location impact the ability of election 
services to serve voters in a county or State?
    Answer. Multiple locations provide voters various options to 
increase ease of voting. It has worked well with early voting but would 
provide challenges for Election Day voting, especially as it may 
necessitate more internet connections to devices being used to find 
people in the registration database.
       Questions from Honorable James R. Langevin for Jake Braun
    Question 1. What can be done to improve the relationship between 
the cybersecurity research community and the election system vendors 
and ensure that the work of voting security researchers is not ignored 
by vendors?
    Answer. First, vendors can eliminate restrictions on third-party 
security testing from their contracts. It's ridiculous that in order to 
buy election equipment, local election officials have to sign away 
their rights to have independent audits of equipment that they own. It 
also creates significant risk for security researchers who want to work 
with election officials, all of which is unnecessary.
    Second, vendors could donate or sell voting equipment for us to 
inspect at DEF CON and other such events. Fortunately some of the 
vendors now seem interested in participating in events like DEF CON. 
Further, there are many local election officials who have expressed 
interest in holding cyber assessments of their systems, including 
machines and software from the vendors but have not pursued such 
efforts from fear of lawsuits from the vendors. Vendors should allow 
and even facilitate this type of activity instead of quash it. The 
industry needs all the help it can get with security and as NSA's Rob 
Joyce said, ``Head-in-the-sand security is not security at all.''
    Possibly the best way to improve relations with the vendors and 
research community is to fund the development and piloting of open-
source voting software. Open-source voting software would allow all 
interested security researchers to audit and suggest security 
improvements to our election systems 365 days a year, not just the 3 
days of DEF CON. In fact, DHS recently posted an RFP for grants to 
vendors and researchers, requesting bids for building a ``voting system 
of the future,'' which could have included open-source voting 
equipment. Unfortunately, for an undisclosed reason, that RFP was taken 
down and no one was allowed to bid on it. DHS should repost that RFP 
and solicit bids to build an open-source voting system.
    Further, I applaud DARPA's recent announcement of significant grant 
dollars being disseminated to researchers to build a secure, open-
source voting system. In a welcome departure from the stance of current 
vendors, the firms who received the DARPA funds have already reached 
out to DEF CON attendees to engage us early in the process.
    Question 2. Our system is only as strong as its weakest link, and 
we need to ensure everyone has this ``cyber hygiene'' knowledge. Have 
you found that there's a general lack of knowledge of security 
vulnerabilities and best practices at the staff level?
    Answer. As of 2017, there was a 350,000-person shortage in cyber 
professionals Nationally.\5\ That number is projected to grow to more 
than 3.5 million world-wide by 2021.\6\ It is nearly an impossible task 
to hire the cyber professionals necessary to put in place the basic 
cyber hygiene necessary to protect a network much less train the lay 
people on staff as to their basic hygiene. Moreover, misconceptions as 
to election officials' relative security, caused in part by words 
erroneously used by the vendors like ``air-gapped,'' further lead to 
confusion or a false sense of security.
---------------------------------------------------------------------------
    \5\ ``Cybersecurity Jobs Report 2018-2021.'' Cybersecurity 
Ventures, May 31, 2017. Accessed March 13, 2019. https://
cybersecurityventures.com/jobs/
    \6\ ``Cybersecurity Jobs Report 2018-2021.'' Cybersecurity 
Ventures, May 31, 2017. Accessed March 13, 2019. https://
cybersecurityventures.com/jobs/
---------------------------------------------------------------------------
    Question 3. The risk and vulnerability assessments offered by DHS 
can be extremely valuable for States and localities. Have you found 
these assessments for States and local election officials to be useful 
as you work to secure your election systems, and have you implemented 
DHS's recommendations?
    Answer. I think these assessments have been invaluable in assisting 
election officials to understand the depth and breadth of their risk. 
The assessments also help dispel misconceptions promulgated by industry 
as to the level of security each jurisdiction has achieved. The most 
important improvement to make in the assessments is to increase the 
number of them for local election jurisdictions, as they are the ones 
who administer elections.
    Question 4. Do you have the resources you need to implement the 
recommendations, and if not, what more do you need to do so?
    Answer. I believe this question is for the election officials. 
However, in general, I believe the EAC money was an order of magnitude 
lower than what is needed to begin to effectively mitigate this 
problem. All the voter registration databases in the country should be 
moved to one or more secure, American-owned and -operated clouds like 
AWS, Google, or Microsoft (among others). Second, touchscreen voting 
machines should be banned (except for use by the disabled) in favor of 
paper ballots counted by secure optiscan machines. The DHS assessment 
teams should be quintupled so that all 50 States and the top 30 largest 
local jurisdictions (which vote nearly 85% of the U.S. population) can 
be assessed biannually, and the other nearly 8,000 jurisdictions can 
get at least a remote assessment once every other year. Further, these 
teams should help train local IT staff to plan and implement 
remediation plans based on the DHS assessments, especially including 
election night reporting website security and breach protocols. 
Finally, funding should be allocated for DHS to disseminate grants for 
research and development on building the voting machines of the future.
           Question From Honorable Dina Titus for Jake Braun
    Question. When speaking with State and local election officials in 
Nevada, I have heard that while urban areas like Las Vegas may have the 
IT workforce available to recruit individuals to implement new 
cybersecurity measures like Albert sensors, rural areas have been 
struggling to find trained personnel. Have you experienced this 
shortage in other parts of the country, and do you believe further 
investment in STEM education is necessary to effectively mitigate this 
skills gap and secure our most vulnerable election sites?
    Answer. As of 2017, there was a 350,000-person shortage in cyber 
professionals Nationally.\7\ That is projected to grow to more than 3.5 
million world-wide by 2021.\8\ It is a LITERALLY impossible task to 
hire the cyber professionals necessary to put in place the basic cyber 
hygiene necessary to protect an election system. They simply can't 
compete with industry and the Federal Government for the workforce. 
Moreover, misconceptions as to election officials' relative security, 
caused in part by words erroneously used by the vendors like ``air-
gapped,'' further lead to confusion or a false sense of security. While 
further investment in STEAM is undoubtedly critical to solving this 
problem long-term, those investments could take a decade to bear fruit. 
We should still make the investments.
---------------------------------------------------------------------------
    \7\ ``Cybersecurity Jobs Report 2018-2021.'' Cybersecurity 
Ventures, May 31, 2017. Accessed March 13, 2019. https://
cybersecurityventures.com/jobs/
    \8\ ``Cybersecurity Jobs Report 2018-2021.'' Cybersecurity 
Ventures, May 31, 2017. Accessed March 13, 2019. https://
cybersecurityventures.com/jobs/
---------------------------------------------------------------------------
    However, we must find creative ways to ``hack'' the work force 
problem for election officials. HB1 has a creative solution with its 
provision for a bug bounty program, akin to ``Hack the Pentagon,'' that 
crowdsources security for local election officials. Further, specifying 
that some of the R&D funding in HB1 be allocated for development of 
open-source voting equipment, would enable thousands of security 
experts to audit the code of voting equipment and suggest fixes. Open-
source equipment offers an inexpensive, persistent, and adaptable 
opportunity to dramatically increase the cyber workforce without local 
election officials being required to recruit, hire, and retain cyber 
professionals. Finally, outsourcing voter registration database 
security by providing State and local election administrators grants to 
migrate their data to a secure, American-owned and -operated cloud like 
AWS, Google, or Microsoft would remove database security burdens from 
local election officials and assign it to organizations who can afford 
to recruit and retain the best security professionals in the business.
    Questions From Honorable Sheila Jackson Lee for John H. Merrill
    Question 1. Are we taking a fail-safe approach to determining which 
election systems or processes are critical to the successful conduct of 
a public election?
    Answer. No. The Alabama Secretary of State's Office believes that 
the only effective method to determine which election systems are 
critical to the process is with direct guidance and input from the 
Secretaries of State.
    Question 2. Would you consider State-wide Centralized Voter 
Registration Databases a critical system to the administration and 
conduct of any public election?
    Answer. State-wide Centralized Voter Registration Databases are the 
most critical component to the current democratic institutions that we 
have created for the people of this country to voice their political 
preferences. These provide detailed information that allows Secretaries 
of State to effective plan an election for the people of their State, 
county, or local municipality.
    Question 3. What fail-safe measures are in place to assure that if 
the voter registration database is compromised and thereby make data 
records untrustworthy; or rendered unavailable for early voting or on 
election day the casting of ballots will continue?
    Answer. There is no true fail-safe to ensure that a compromise does 
not occur; however, a systematic approach to augment any system or user 
data damage can only be accomplished with daily system back-ups, 
additional layers of security including two-factor authentication, and 
verification that even in the event of total loss of access or systems 
locally would not eliminate the existence of those records and that can 
be restored to a system without any down time.
    Question 4. How many States have plans in place to hold or continue 
an election should their voter registration databases become 
compromised?
    Answer. Alabama does.
    I am unable to answer this question, but I am hopeful that each and 
every State has a plan in place should their voter registration 
databases be compromised.
    Question 5. How many States and jurisdictions within each State use 
electronic poll books?
    Answer. As Alabama's Secretary of State I can only speak for 
Alabama and at this time there are 30 of 67 Alabama counties utilizing 
the electronic poll book systems.
    Question 6. Are there instances when electronic poll books have 
failed to operate as intended?
    Answer. With a few minor exceptions electronic poll books have 
worked as intended. Those minor exceptions have involved age-related 
camera issues where the camera used to scan barcodes was not strong 
enough to pick up the driver's license barcode in low light and another 
issue occurred when a county employee failed to complete all of the 
steps to load a voter's list onto the system.
    Question 7. What recovery plan is in place should a polling 
location's electronic poll books fail or for periods of time not 
function?
    Answer. The Secretary of State's Office recommends that every 
county retain a paper copy of that precinct's poll list at each polling 
site, but ultimately that is left up to the discretion of the Judge of 
Probate in each county.
    Question 8. How well does same-day voter registration during early 
voting and on election day create meet fail-safe objectives for the 
successful conduct of a public election?
    Answer. In Alabama it does not meet or create fail-safe objectives, 
it simply creates a system without security mechanisms and attempts to 
pass it off as a solution.
    Question 9. Are you providing any guidance on security and wireless 
non-voting system technology?
    Answer. We provide guidance and require cybersecurity and ethics 
training to all the State and county users that work in the Secretary 
of State's Office or have access to the voter registration system.
    Additionally, Alabama's system utilizes paper ballots which once 
voted are retained for at least 22 months following an election, as 
required by Federal law.
    Question 10. Do election administrators plan for 100% voter 
participation during early voting or on election day? If not, why not?
    Answer. In Alabama, electronic voting machines must be placed at 
each polling location based on the number of voters assigned to that 
polling place (2,400 voters per machine). So, pertaining to machines, 
there is no projection involved. It is a set number.
    Regarding the printing of ballots and ballot styles, some counties 
choose to print the exact number of ballots for voters assigned to that 
polling location, and some counties prefer to project the turnout, 
obviously leaning towards the highest projected turnout number to 
ensure enough ballots. The reason some counties would not print one 
ballot per voter is due to the cost of ballots.
    It is also important to have an understanding with the local ballot 
printing vendor that they will deliver, in-person on election day, 
additional ballots to any polling place that is getting low. This has 
happened in the past in Alabama, and the vendor has done their part to 
ensure enough ballots. Some States may not have the ballot printing 
vendor in their State and would be forced to print one ballot per 
voter.
    Question 11. Are there best practices that should be used to 
determine the number of ballots and ballot marking technology, or 
voting machine that should be provided to support voting?
    Answer. In Alabama according to State law and administrative rule, 
an electronic voting machine must be assigned for every 2,400 voters in 
each polling place. Working with vendors to determine the number of 
voters that should be associated with a machine for proper flow on 
Election Day is a must, as well as the number of ballots and ballot 
styles should be printed for that polling place.
    Question 12. Are there best practices to address when a natural or 
man-made event makes a polling location unavailable for voting?
    Answer. The best practice is preparation. In Alabama, County 
Commissions should identify emergency back-up polling locations in each 
area in the case that one or more assigned polling locations is 
damaged. In the case in which a polling place must change, the county 
would need to hold an emergency meeting, designate the new polling 
place(s) to be used and the electronic voting machines to be placed in 
those polling places, and provide the list of new polling places to the 
judge of probate and board of registrars. Immediately upon changing the 
polling place, the county must notify all affected voters and publicize 
the change via newspaper and any/all other effective means of 
communication including social media.
    Question 13. How does allowing voters to vote at locations other 
than at a single voting location impact the ability of election 
services to serve voters in a county or State?
    Answer. Alabama State law requires voters to vote at the polling 
place assigned to them. Also, in Alabama, electronic voting machines 
must be placed at each polling location based on the number of voters 
assigned to that polling place (2,400 voters per machine).
    The preparation and planning for the number of voting machines, 
ballots, ballot styles, poll books and electronic books, election 
workers, election supplies, parking and disabled ballot marking devices 
per polling place is one of the most important aspects of an election. 
Understanding the number of voters assigned to a specific polling place 
and planning resources around that number is vital in our election 
preparation.
     Questions From Honorable James R. Langevin for John H. Merrill
    Question 1. Our system is only as strong as its weakest link, and 
we need to ensure everyone has this ``cyber hygiene'' knowledge. Have 
you found that there's a general lack of knowledge of security 
vulnerabilities and best practices at the staff level?
    Answer. No. We have an outstanding team here at the Alabama 
Secretary of State's Office, however, it is difficult to hire staff 
that we can compensate based on the current salary schedule that is 
available from the private sector.
    Question 2. The risk and vulnerability assessments offered by DHS 
can be extremely valuable for States and localities. Have you found 
these assessments for States and local election officials to be useful 
as you work to secure your election systems, and have you implemented 
DHS's recommendations?
    Answer. We have utilized the assessments from DHS on more than one 
occasion to review our system and to ensure that any vulnerabilities 
that existed were resolved prior to an election.
    Question 3. Do you have the resources you need to implement the 
recommendations, and if not, what more do you need to do so?
    Answer. In all of the instances reported to the Secretary of 
State's office we have had the resources to implement the 
recommendations that were made from the cyber assessments. However, 
many of those would not have been possible without the grant funds 
already allotted to the Secretary of State's office.
    Additionally, recently DHS has begun to undertake a review of 
county offices. Many of those recommendations will be for things that 
are much more expensive, and many are hesitant to schedule their review 
because they know they will be made aware of a large number of issues.
         Question From Honorable Dina Titus for John H. Merrill
    Question. When speaking with State and local election officials in 
Nevada, I have heard that while urban areas like Las Vegas may have the 
IT workforce available to recruit individuals to implement new 
cybersecurity measures like Albert sensors, rural areas have been 
struggling to find trained personnel. Have you experienced this 
shortage in other parts of the country, and do you believe further 
investment in STEM education is necessary to effectively mitigate this 
skills gap and secure our most vulnerable election sites?
    Answer. Investment in education in rural areas is something that 
would benefit the people of those locations but that would help solve 
the problem in the long term. Short-term solutions to this problem 
require additional resources and smart hiring processes.
     Questions From Honorable Yvette D. Clarke for John H. Merrill
    Question 1a. Last year, the FBI uncovered that a Russian oligarch, 
with close ties to President Putin, had acquired an ownership interest 
in a vendor which hosted State-wide election data for Maryland.\1\ 
Until the FBI alerted them, State election authorities were unaware of 
the vendor's ties to Russia. Even if no tampering occurred, this raises 
important questions about foreign ownership of firms providing 
election-related services.
---------------------------------------------------------------------------
    \1\ https://www.baltimoresun.com/news/maryland/politics/bs-md-
election-russia-20180713-story.html.
---------------------------------------------------------------------------
    To the best of your knowledge, does your State have any election-
related contracts with vendors backed by Russian or Chinese investors?
    Answer. To the best of my knowledge the State of Alabama does not 
have any vendors backed by Russian or Chinese investors.
    Question 1b. What measures, if any, does your State undertake to 
assess foreign ownership of election vendors prior to signing contracts 
with them?
    Answer. The Alabama Secretary of State's office reviews all the 
financial documentation associated with each company before entering 
into a contract with them. Additionally, we require all business that 
do business with us to be registered with the State of Alabama before 
we enter into an agreement for services. The contract for Alabama's 
current voter registration system is about to be put up for bid again 
and will include requirements for all companies to disclose any foreign 
ownership or investment in their company before they are considered by 
the office for use in Alabama.
     Question From Honorable Michael T. McCaul for John H. Merrill
    Question. Foreign states, including Russia and other malicious 
actors have and will continue to attempt to interfere with U.S. 
elections. In fact, I encouraged, in a Classified space, both the Obama 
administration and the Trump administration to call out Russia for 
their targeted attacks on our Nation. Their activities have injected 
chaos and doubt into foundation of our democracy. An issue of this 
gravity requires Congress to act in a deliberate and bipartisan manner. 
Now, all eyes are on 2020. How has the cooperation with DHS and 
Director Krebs strengthened California's election security?
    Answer. The Alabama Secretary of State's Office has benefited from 
the increased relationship with the Department of Homeland Security. 
This relationship has allowed us to secure our systems by implementing 
a multitude of security equipment and tools to strengthen the States' 
election systems. Additionally, DHS has provided a team from the 
Department of Homeland Security that has been present with our IT staff 
on election day to provide direct contact in the event of a breach or 
other system problem.

                                 [all]
</pre></body></html>
